COMMODITY FUTURES TRADING COMMISSION


  Performance and
Accountability R eport
       F   iscal   Ye   ar   2008
               COMMODITY FUTURES TRADING COMMISSION

                                              Walter L. Lukken
                                              Acting Chairman

                                          Madge Bolinger Gazzola
                                            Executive Director

                                                Mark Carney
                                            Chief Financial Officer

                                               November 2008

        This report is in the public domain. Authorization to reproduce it in whole or in part is granted.
              While permission to reprint this publication is not necessary, the citation should be:
Commodity Futures Trading Commission, FY 2008 Performance and Accountability Report, Washington, D.C., 20581.

                All photographs in this document are proprietary and prior permission from the
                    photographer is required for any use or reproduction of the photographs.
           COMMODITY FUTURES TRADING COMMISSION




             Association of Government Accountants (AGA)Awards the

             Certificate of Excellence in
              Accountability Reporting
             In recognition of your outstanding efforts in preparing the
            Commodity Futures Trading Commission Performance and
         Accountability Report for the fiscal year ended September 30, 2007




      League of American Communications Professionals (LACP) Awards the

                Gold 2007 Vision Award
In recognition of your outstanding efforts in preparing
the Commodity Futures Trading Commission
Performance and Accountability Report for the fiscal
year ended September 30, 2007. Awarded GOLD
in the Government classification, and received overall
ranking of 140 out of 3,161 total entries.
      Fiscal Year 2008 Commissioners




            Back row from left; Jill E. Sommers, Commissioner; Bart Chilton, Commissioner

            Front row from left; Michael V. Dunn, Commissioner; Walter L. Lukken, Acting Chairman




II   CFTC
                                             Table of Contents
    FY 2008 Commissioners .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . II

    A Message from the Chairman .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2

    How This Report is Organized.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6


M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S
    Commission at a Glance.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 9

    Performance Highlights.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 18

    Financial Highlights.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 30

    Management Assurances.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 34

    Forward Looking – Future Business Trends and Events .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 37

    Inspector General’s FY 2008 Assessment.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 40


PERFORMANCE SECTION
    Introduction to the Performance Section .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 45

    Strategic Goal One: Economic Vitality.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 46

    Strategic Goal Two: Market Users and Public .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 56

    Strategic Goal Three: Industry .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 74

    Strategic Goal Four: Organizational Excellence.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  91


FINANCIAL SECTION
    A Message from the Chief Financial Officer .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  113

    Limitations of Financial Statements.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 114

    Principal Financial Statements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  115

    Notes to the Financial Statements.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 120

    Report of the Independent Auditors .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  131


O T H E R A C C O M P A N Y I N G I N F O R M AT I O N
    Summary of Audit and Management Assurances.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                          135

    Management Challenges.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .        136


APPENDIX
    FY 2008 Commissioners .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .       139

    Enforcement Litigation by Strategic Goal .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .               142

    CFTC Information Technology Systems.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                  157

    Glossary of Abbreviations and Acronyms.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                  158


                                                                                                                                                               CFTC               1
                 Acting Chairman of the Commodity Futures
                 Trading Commission Walter Lukken testifies
               before the House Committee on Agriculture on
               Capitol Hill in Washington, Wednesday, Oct.
               15, 2008. The hearing is to reveiw the role of
                      credit derivatives in the U.S. economy.
                                       (AP Photo/Lawrence Jackson)




   In the Tradition of Quality Reporting,                            A Message from
the Commodity Futures Trading Commission                             the Chairman
       Proudly Presents the FY 2008
                                                                     D
                                                                                 uring the last year, the commodity futures and
                                                                                 option markets continued their rapid growth and
                                                                                 evolution as credit markets seized and equity
  Performance and Accountability Report
                                                                     markets began a steep decline. The fundamental shift in the
                                                                     futures and option markets is illustrated by steadily increasing
                                                                     volumes, the introduction of new market participants,
                                                                     cutting edge technological and product innovation, and
                                                                     increased globalization and competition. At the same time,
                                                                     commodity prices across the board—from metals, to agricul-
                                                                     tural, to energy—have been extremely volatile with many
                                                                     commodity prices reaching record highs during the year.


                                                                     While our markets have evolved dramatically in recent
                                                                     months and years, the mission of the Commodity Futures
                                                                     Trading Commission (CFTC or Commission) has remained
                                                                     strong and constant: We are charged with protecting market
                                                                     users and the public from fraud, manipulation, and abusive
                                                                     practices in the sale of commodity and financial futures and
                                                                     options, and fostering open, competitive and financially sound
                                                                     futures and option markets. In working to achieve its mission,
                                                                     the Commission has been guided by the notion that regu-
                                                                     latory evolution and informed responses to changing
                                                                     market conditions are the keys to effective market oversight,
                                                                     particularly in a global marketplace. This approach requires
                                                                     a continual review of internal regulatory processes, consis-
                                                                     tent application of those processes to the markets, and an
                                                                     aggressive enforcement program that prosecutes wrong-
                                                                     doers. I am pleased to report that in Fiscal Year (FY) 2008,
                                                                     the CFTC and its regulatory approach have evolved along
                                                                     with the futures and option markets we regulate to continue
                                                                     to protect our markets, market users, and the public.

                                                                     A major step in the Commission’s evolution came in May,
                                                                     after years of work and bipartisan effort, when Congress
enacted the CFTC reauthorization legislation as part of the
Food, Conservation, and Energy Act of 2008 (Farm Bill),
making critical improvements to the Commodity Exchange
Act (CEA or the Act) and the Commission’s authority.
Specifically, the new legislation reauthorized the Commis-
sion through FY 2013, closed the so-called “Enron
Loophole” by allowing enhanced Commission oversight of
exempt commercial markets (ECMs) that trade contracts
linked to regulated U.S. futures contracts, increased CFTC
penalties for manipulation, clarified CFTC anti-fraud
authority for off-exchange principal-to-principal energy
trades, and clarified CFTC retail foreign currency fraud
                                                                 Commodity Futures Trading Commission (CTFC) Acting
authority. The Commission is thankful for all the hard
                                                                 Chairman Walter Lukken is pictured during a break while
work that went into this legislative effort and is working
                                                                 testifying on Capitol Hill in Washington, Tuesday, June 24,
diligently to implement these important new authorities.         2008, before a Senate Homeland Security and Governmental
                                                                 Affairs Committee hearing regarding oil speculation.
Any assessment of the past year must acknowledge the
                                                                 (AP Photo/Charles Dharapak)
extraordinary rise then fall of commodity prices. The CFTC
recognizes that a secure, reliable, and sustainable energy
future is of great importance to the American people, and is   on ECMs; 2) two meetings of the Commission’s Agricul-
acutely aware that high commodity prices adversely affect      tural Advisory Committee; 3) two meetings of the Commis-
all Americans. We have heard concerns that speculative         sion’s Global Markets Advisory Committee; 4) the first
activity has been affecting commodity prices and impacting     meeting of the newly-formed Energy Markets Advisory
the price discovery and risk management roles of the           Committee; and 5) an Agricultural Forum (Webcast to
markets we regulate. With that in mind, and building upon      2,800 individuals in 38 states and 43 countries) to discuss
the regulatory model developed as part of the Farm Bill, the   the sudden run-up in agricultural prices in early 2008.
CFTC has been systematically examining the various satel-      In addition, in FY 2008, the Chairman and senior Commis-
lite markets that complement and compete with the central-     sion staff members appeared on Capitol Hill on 14 occa-
ized, regulated futures markets. These efforts have been       sions to provide testimony to various House and Senate
designed to increase transparency and to determine whether     Committees addressing issues within the Commission’s
trading on satellite markets—such as ECMs, foreign boards      regulatory purview.
of trade (FBOTs) and over-the-counter (OTC) swaps—
                                                               As a result of these public hearings and meetings, the
impacts the regulated futures markets.
                                                               Commission focused on a number of critical initiatives,
In order to increase transparency and better inform the        including:      1) providing a detailed report to Congress
regulatory responses to the challenges of today’s markets,     recommending legislative changes relating to oversight of
the Commission conducted a number of public hearings           trading on ECMs (recommendations that were enacted in
and meetings over the last year. These included: 1) a public   large part as part of the Farm Bill); 2) announcing its
hearing concerning oversight of energy and other trading       national crude oil enforcement investigation and its


                                                                                                                CFTC           3
enforcement investigation into the February/March 2008         traders in the commodity markets. In addition, the CFTC
price run-up in the cotton futures markets; 3) entering into   signed a ground-breaking mutual cooperation agreement
an agreement to receive enhanced data from Intercontinen-      with the SEC to establish a closer working relationship
talExchange (ICE) Futures Europe in London relating to its     between the agencies, establish a permanent regulatory
crude oil markets; 4) requiring production of more detailed    liaison between the agencies, provide for enhanced infor-
trading information from index traders and swap dealers;       mation sharing, and establish several key principles guiding
5) modifying the recognition process for FBOTs to condi-       the agencies’ consideration of novel financial products that
tion direct access to U.S. customers on implementation of      may reflect elements of both securities and commodity
position and accountability limits on linked contracts;        futures or options. This agreement led to the expedited,
6) reviewing whether index traders and swap dealers are        coordinated approval of the trading and clearing of several
properly classified for regulatory and reporting purposes;     novel derivative products (futures and option contracts
and 7) issuing an unprecedented special call for informa-      based on shares of an exchange traded fund), an outcome
tion from commodity swap dealers and index funds trading       expected to enhance legal and regulatory certainty for users
in OTC markets to quantify the amount of this trading and      of these novel products.
evaluate its potential effects on the regulated markets.
                                                               On the international front, the CFTC was tasked to co-chair
In addition to this comprehensive inward review, the           the International Organization of Securities Commissions’
Commission has continued to look outward to foster             (IOSCO) newly-created Task Force on Commodity Markets
important relationships, both domestic and international,      that will examine the current supervisory approaches for
to assist us in carrying out our mandate. To that end, the     overseeing commodity markets worldwide. It also reached
CFTC formed an interagency working group with the              an agreement with the China Securities Regulatory Commis-
Federal Reserve Board, U.S. Department of the Treasury         sion (CSRC) to hold regular meetings to promote enhanced
(Treasury), U.S. Securities and Exchange Commission            cooperation and collaboration to promote investor protec-
(SEC), U.S. Department of Energy, U.S. Department of           tion, market integrity, and the supervision of derivatives
Agriculture (USDA), and the Federal Trade Commission           trading occurring on a cross-border basis between China
(FTC) to study investor practices, fundamental supply and      and the United States. In addition, the Commission hosted
demand factors, and the role of speculators and index          an International Regulators Meeting of more than 50
                                                               futures industry regulators from around the world to
                                                               address concerns associated with cross-border clearing, the
                                                               differences between a core principles-based regulatory
                                                               regime and a rules-based regime, the development of inter-
                                                               national financial centers, and whether OTC instruments
                                                               that are centrally collateralized or cleared should be subject
                                                               to the same or comparable regulatory regimes as economi-
                                                               cally equivalent exchange-traded instruments.

                                                               The agency’s sweeping regulatory review and regulatory
                                                               outreach is complemented by the efforts of its Division of
                                                               Enforcement (DOE). This year, DOE filed 40 new actions,
                                                               including 13 actions against hedge funds/pool operators/
    Washington, D.C., March 11, 2008 — Securities and
                                                               trading advisors, and cases charging attempted manipula-
    Exchange Commission Chairman Christopher Cox and
                                                               tion and/or manipulation in the energy markets involving a
    Commodity Futures Trading Commission Acting Chairman
                                                               former gasoline trader for BP Products North America Inc.
    Walter L. Lukken today signed a ground-breaking mutual
    cooperation agreement to establish a closer working        and Optiver Holding BV and related companies and
    relationship between their agencies. (SEC Photo)           employees. As a result of these prosecutions, respondents
                                                               and defendants were ordered to pay more than $630 million



4         CFTC
in civil monetary penalties, restitution, and disgorgement.
In addition to its investigation and litigation efforts, DOE
continued to foster relationships with global regulators by
hosting two enforcement conferences with international
regulators to share observations of trends in commodities
markets, including on-exchange, cash, and OTC markets to
enhance the ability of regulators to work cooperatively
across borders as we all share the same goals of detecting
and deterring misconduct affecting commodity prices.

With the credit crunch and overall market distress over the
last year, the Division of Clearing and Intermediary Over-
sight (DCIO) has worked tirelessly to ensure the financial        President Bush center, with, from left, Commodity Futures Trading
                                                                  Commission (CFTC) Acting Chairman Walt Lukken, Security and
integrity of the futures and option clearing systems regu-
                                                                  Exchange Commission (SEC) Chairman Christopher Cox, Vice
lated by the CFTC. This required active daily monitoring of
                                                                  President Dick Cheney,Treasury Secretary Henry Paulson and Federal
and working with exchange self-regulatory organizations
                                                                  Reserve Board Chairman Ben Bernanke are seen at the end of a
(SROs) to ensure that futures firms continued to meet their
                                                                  meeting with members of the President’s Working Group on Financial
customer segregation and capital requirements while
                                                                  Markets, Friday, Jan. 4, 2008, in the Roosevelt Room of the White
allowing for the orderly functioning and stability of the         House in Washington. (AP Photo/Lawrence Jackson)
markets. As part of its effort, DCIO staff were on-site in
New York during the Lehman Brothers Holdings Inc. bank-
ruptcy proceedings to safeguard customer assets and             U.S. generally accepted accounting principles (GAAP).
promote the orderly transfer of positions from CFTC regu-       The Financial Section of this report includes greater detail
lated futures commission merchant subsidiary, Lehman            about our internal controls and highlights some key
Brothers Inc. DCIO also worked with fellow regulators and       management assurances. Success in these important areas
market participants to advance the development and proper       makes it possible for the Commission to operate as effec-
oversight of a clearinghouse for credit default swaps and       tively as we do.
other over-the-counter (OTC) instruments.
                                                                The year ahead will be a busy one for the Commission.
The CFTC is dedicated to protecting the public and market       In the wake of the financial crisis, Congress will likely turn
users from manipulation, fraud, and abusive practices in        to broad financial reform. Volatility in the energy and agri-
order to ensure that the futures markets are working            cultural markets will continue to be the focus of policy-
properly. Throughout the year, the agency has sought to         makers as we work to ensure the proper functioning of our
successfully meet its important oversight mission while         price discovery and risk management markets. I am confi-
facing the significant challenge of operating at historically   dent that the Commission’s dedicated staff and the flexible
low staffing levels.   At the same time, agency internal        principles-based authority provided by Congress will help
controls and accountability have remained among our             this agency to forcefully police these ever-changing markets
highest priorities. The agency’s financial statements are       in order to uphold the CFTC’s important mission and the
included in this report and we can confirm that that the        public’s trust.
financial and performance data presented in this report are
fundamentally reliable and complete.       Moreover, I am
pleased to report that in FY 2008, the CFTC again had no
material weaknesses. On behalf of our Inspector General,                              Walter Lukken
our auditor, the public accounting firm KPMG, LLP, has                                Acting Chairman
affirmed that our financial statements are presented fairly
                                                                                      November 17, 2008		
in all material respects and are in conformity with



                                                                                                                     CFTC      5
       How This Report is Organized
       This document consists of three primary sections and supplemental sections:


                                                                                                    Management’s Discussion and Analysis
           M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                                                                                                    The Management’s Discussion and Analysis (MDA) section is an overview

                   Commission at a Glance .................................................. 9
                                                                                                    of the entire report, as supported by and detailed in the Performance
                   Performance Highlights .................................................. 18

                   Financial Highlights ...................................................... 30

                   Management Assurances ................................................ 34
                                                                                                    Section and the Financial Section. The MDA presents performance and
                   Forward Looking — Future Business Trends and Events ..... 37

                   Inspector General’s FY 2008 Assessment .......................... 40


                                                                                                    financial highlights for FY 2008 and discusses compliance with legal and
                                                                                                    regulatory requirements, as well as business trends and events. The MDA
                                                                                                    also includes the Inspector General’s FY 2008 assessment of management
                                                                                                    challenges facing the Commission. For more information on this section,
                                                                                                    please contact Mark Carney, Chief Financial Officer, at 202-418-5477.


                                                                                                    Performance Section
                              PERFORMANCE SECTION




                                                                                                    The Performance Section compares the Commission’s performance to the
                                                                                                    annual goals as set forth in the 2007-2012 CFTC Strategic Plan. At the
                         Introduction to the Performance Section ................45



                                                                                                    close of FY 2007, the Commission issued the 2007-2012 CFTC Strategic
                         Strategic Goal One: Economic Vitality ..................46

                         Strategic Goal Two: Market Users and Public ........56

                         Strategic Goal Three: Industry..............................74

                         Strategic Goal Four: Organizational Excellence...... 91


                                                                                                    Plan adopting a fourth strategic goal that focuses on assessing and
                                                                                                    measuring organizational and management excellence. The Commission
                                                                                                    is publishing its performance for the fourth strategic goal for the first time
                                                                                                    in this FY 2008 Performance and Accountability Report. For more infor-
                                                                                                    mation on this section, please contact Emory Bevill, Deputy Director for
                                                                                                    Budget and Planning, at 202-418-5187.


                                                                                                    Financial Section
                                   FINANCIAL SECTION




                                                                                                    The Financial Section is comprised of the Commission’s financial state-
                                                                                                    ments and related Independent Auditors’ report. For more information,
                         A Message from the Chief Financial Officer .........113

                         Limitations of Financial Statements ....................114                please contact Keith Ingram, Deputy Director for Accounting and Financial
                         Principal Financial Statements ...........................115

                         Notes to the Financial Statements ...................... 120

                         Report of the Independent Auditors ..................... 131
                                                                                                    Systems, at 202-418-5612.




6   CFTC
Other Accompanying Information

Other Accompanying Information provides an update on the Commission’s
progress in addressing management challenges identified by the Inspector General
in the FY 2007 Performance and Accountability Report. Also included is the
Commission’s summary of audit and management assurances. For more infor-
mation on this section, please contact Mark Carney, Chief Financial Officer, at
202-418-5477.


Appendix
                                                                                                                                     Appendix


The Appendix contains the FY 2008 Commissioner’s biographies, summaries of
filed Enforcement actions addressed in the Performance Section, descriptions of
                                                                                                          FY 2008 Commissioners.................................................139



CFTC Information Technology systems addressed in the Performance Section,                                 Enforcement Litigation by Strategic Goal..........................142

                                                                                                          CFTC Information Technology Systems ............................157

                                                                                                          Glossary of Abbreviations and Acronyms ..........................158




and a glossary of abbreviations and acronyms used throughout the report. For
more information, please contact Lisa Malone, Budget Analyst, Office of Financial
Management, at 202-418-5184.                                                                   138 CFTC




Questions and comments about this report can be directed to Mark Carney, Chief Financial
Officer, at 202-418-5477 or via email at mcarney@cftc.gov.

An electronic version of the CFTC FY 2008 Performance and Accountability Report is available
on the Internet at www.cftc.gov/abouthecftc/cftcreports.html. The 2007-2012 CFTC Strategic
Plan, Keeping Pace with Change, is also available at this Web site.




                                                                                                                                                                           CFTC       7
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




        Commission at a Glance................................................... 9

        Performance Highlights................................................... 18

        Financial Highlights....................................................... 30

        Management Assurances................................................. 34

        Forward Looking — Future Business Trends and Events...... 37

        Inspector General’s FY 2008 Assessment........................... 40
                        Commission at a Glance
                                                  Mission Statement

              The mission of the CFTC is to protect market users and the public
           from fraud, manipulation, and abusive practices related to the sale of
               commodity futures and options, and to foster open, competitive,
                 and financially sound commodity futures and option markets.



Commodity Futures Industry                                        cial commodity futures and option contracts make up
                                                                  approximately 79 percent, and other contracts, such as
Futures contracts on agricultural commodities have been
                                                                  those on metals and energy products, make up about 13
traded in the United States for more than 150 years and
                                                                  percent.     Moreover, the electronic integration of cross-
have been under Federal regulation since the 1920s. At the
                                                                  border markets and firms, as well as cross-border alliances,
time the Commission was established in 1974, the vast
                                                                  mergers, and other business activities, have transformed
majority of futures trading took place on commodities
                                                                  the futures markets and firms into a global industry.
in the agricultural sector. These contracts gave farmers,
ranchers, distributors, and end users of everything from          These      trillion-dollar   futures   markets,   with   massive
corn to cattle an efficient and effective set of tools to hedge   economic force, are expanding steadily in both volume and
against price movements.                                          new users and their complexity is rapidly evolving with
                                                                  new technologies, cross-border activities, product innova-
Over the years, however, the futures industry has become
                                                                  tion, and greater competition.
increasingly diversified. While farmers and ranchers
continue to use the futures markets as actively as ever
                                                                  How the CFTC is Organized and Functions
to effectively lock in prices for their crops and livestock
months before they come to market, highly complex                 The CFTC consists of five Commissioners who are
financial contracts based on interest rates, foreign curren-      appointed by the President to serve staggered five-year
cies, Treasury bonds, securities indexes, and other products      terms. All Commissioners are confirmed by the Senate.
have far outgrown agricultural contracts in trading volume.       No more than three sitting Commissioners may be from
The latest statistics show that approximately eight percent       the same political party. The President designates one of
of on-exchange commodity futures and option trading               the Commissioners to serve as Chairman, with the advice
activity occurs in the agricultural sector, while finan-          and consent of the Senate.


                                                                                                                    CFTC        9
The Commission’s functions are divided between program             bilaterally with individual foreign regulators, and participate
policy and internal management. The Office of the Chairman         with country dialogues organized by the Treasury.
oversees the Commission’s principal divisions and offices that
                                                                   Auditors examine records and operations of futures exchanges,
administer the policies, regulations, and guidance regarding
                                                                   clearinghouses, and firms for compliance with financial
the CEA, as amended. The Office of the Executive Director,
                                                                   requirements, while futures trading specialists perform regu-
by delegation of the Chairman, directs the internal manage-
                                                                   latory and compliance oversight to detect potential fraud,
ment of the Commission, ensuring that funds are responsibly
                                                                   market manipulations, and trade practice violations.
accounted for and that program performance is measured and
improved effectively.                                              Economists evaluate filings for new futures and option
                                                                   contracts and amendments to existing contracts, to ensure
Attorneys at the Commission work on complex and novel
                                                                   they meet the Commission’s regulatory standards. Econo-
legal issues in areas such as litigation, regulation, and policy
                                                                   mists also analyze the economic effect of various Commission
development.     Among other things, they participate in
                                                                   and industry actions and events and advise the Commission
administrative and civil proceedings; assist U.S. Attorneys
                                                                   accordingly. In addition, economists monitor trading activity
in criminal proceedings involving futures law violations;
                                                                   and price relationships in futures markets to detect and deter
develop regulations governing clearinghouses, exchanges,
                                                                   price manipulation and other potential market disruptions.
and intermediaries; provide a wide range of analysis, tech-
nical assistance, and guidance on regulatory, legislative, and     The CFTC is headquartered in Washington, D.C. Regional
supervisory issues; and provide legal advice to the Commis-        offices are located in Chicago, Kansas City, and New York.
sion on policy and adjudicatory matters. In recognition of the
globalization of the futures markets, attorneys represent the      Additional information about the Commission and its history
CFTC internationally in multilateral regulatory organizations,     can be obtained from the Commission’s Office of External
                                                                   Affairs or through its Web site, www.cftc.gov.

Organization and Locations




10      CFTC
                                                                      M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Evolving Mission and Responsibilities                           Keeping Pace with Change
Congress created the CFTC in 1974 as an independent             The principles-based regulatory approach codified in the
agency with the mandate to regulate commodity futures           CFMA represents a flexible and fair approach to regulation.
and option markets in the United States. The Commission’s       Since then, the futures industry has experienced unprece-
mandate was renewed and/or expanded in 1978, 1982,              dented growth in the amount of money invested, volume,
1986, 1992, and 1995. In December 2000, the Commission          new products, trading platforms, and market participants.
was reauthorized through FY 2005 with passage of the            However, the phenomenal industry progress carries with it
Commodity Futures Modernization Act of 2000 (CFMA).             new responsibilities, challenges, and opportunities.
The CFMA repealed the ban on futures contracts based on
                                                                The Commission developed its first Strategic Plan in 1997,
individual securities and narrow-based securities indexes
                                                                expressing its mission through three strategic goals, each
and instituted a regulatory framework for such products to
                                                                focusing on a vital area of regulatory responsibility.
be administered jointly by the CFTC and the SEC. It codified
                                                                The 1997 Strategic Plan also set the agency on a course to:
the principal provisions of a new regulatory framework
                                                                1) modernize regulations affecting trading platforms and
adopted earlier by the Commission. It also brought legal
                                                                market intermediaries; 2) permit futures based on single
certainty to the trading done in bilateral, OTC derivatives
                                                                securities or narrow-based securities indexes; and 3) provide
transactions (by decreeing them to be largely outside of the
                                                                legal certainty for OTC derivatives. The plan also reflected
Commission’s jurisdiction) and clarified the CFTC’s anti-
                                                                the enormous and continuing changes in the markets,
fraud authority over retail, off-exchange foreign currency
                                                                including rapid growth in volume and globalization, and
(forex) transactions.
                                                                the movement from open outcry trading floors to all-
This year, the Commission was again reauthorized as part        electronic trading from widely dispersed geographic
of the Farm Bill. The Farm Bill included other amendments       locations.
to the CEA as well—primarily to increase the Commission’s
                                                                Last year, the Commission issued Keeping Pace with Change,
regulatory oversight role with respect to forex transactions
                                                                its Strategic Plan for FY 2007 through FY 2012. With the
and significant price discovery contracts traded on elec-
                                                                2007 Strategic Plan, the Commission adopted a fourth
tronic trading facilities called ECMs.    The Commission
                                                                strategic goal that focuses on assessing and measuring
currently is undertaking the development of rulemakings
                                                                organizational and management excellence. Establishing
required to implement these new statutory responsibilities.
                                                                this fourth strategic goal allows the Commission to extend
Although Congress has changed the Commission’s                  its performance and management framework, which
approach to regulation over time, the Commission’s              requires the Commission to establish and measure its
mission remains the same. The CFTC continues to be              progress in achieving outcome objectives and strategic
responsible for fostering the economic vitality of the regu-    goals, beyond strictly program performance to the perfor-
lated futures markets by encouraging their competitiveness      mance of the organization itself.          Initial performance
and efficiency; ensuring their integrity; and protecting        measures for the fourth strategic goal are published in this
market participants against manipulation, abusive trading       FY 2008 Performance and Accountability Report.
practices, and fraud. Through effective oversight regulation,
                                                                In a marketplace driven by change, it may be helpful to
the CFTC enables the commodity futures and option
                                                                look back at industry and CFTC trends over the past few
markets better to serve their vital function in the Nation’s
                                                                years. The charts that follow reflect many of those changes
economy—providing a mechanism for price discovery and
                                                                affecting the CFTC:
a means of offsetting price risks.
                                                                ■■   Industry growth versus staff growth;
During the past two years, Congress and Federal financial
regulators began a re-examination of the financial regula-      ■■   Growth in actively traded futures and option contracts;
tory structure. The recent economic stress is expected to
result in heightened Congressional scrutiny of Federal          ■■   Enforcement actions to preserve market integrity and
financial regulation in the year ahead.                              protection of market users;



                                                                                                                  CFTC         11
■■   Number of registrants;                                  ■■   Exempt commercial markets (ECMs);

■■   Contract markets designated by the CFTC;                ■■   Exempt boards of trade (XBOTs); and

■■   Number of derivatives clearing organizations (DCOs)     ■■   Amount of customer funds held at futures commission
     registered with the CFTC;                                    merchants (FCMs).


Growth in Volume of Futures & Option Contracts Traded & CFTC Full-time
Equivalents (FTEs), 1998-2008
Trading volume has increased almost six-fold in the last decade while staffing levels at the Commission have trended
downward.




Actively Traded Futures & Option Contracts, 1998-2008
The number of actively traded contracts on U.S. exchanges has more than quintupled in the last decade.




12      CFTC
                                                                    M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Enforcement Actions to Preserve Market Integrity and Protection of Market Users
Manipulation, Attempted Manipulation, and False Reporting

The CFTC utilizes every tool at its disposal to detect and deter against illegitimate market forces. The Commission uses
enforcement actions to preserve market integrity and protect market users, demonstrating that it’s authority is significant
and that the Commission intends to use it.

For example, CFTC enforcement efforts in the energy arena from December 2001 through September 2008 have resulted
in 43 enforcement actions charging 73 companies and individuals and the assessment of approximately $445 million in
penalties.

 Actions Taken Since December 2001 in Energy Markets                                                         Energy Markets
 Number of Cases Filed or Enforcement Actions                                                                              43
 Number of Entities/Persons Charged                                                                                        73
 Number of Dollars in Penalties Assessed
 	   • Civil Monetary Penalties                                                                                $445,465,000




Commodity Pools, Hedge Funds, Commodity Pool Operators (CPOs), and Commodity Trading Advisors (CTAs)

Investors continue to fall prey to unscrupulous CPOs and CTAs, including CPOs and CTAs operating hedge funds. The
majority of the Commission’s pool/hedge fund fraud cases are brought against unregistered CPOs and/or CTAs. These
cases tend to involve Ponzi schemes or outright misappropriation, as opposed to legitimate hedge fund operations. From
October 2000 through September 2008, the Commission filed a total of 73 enforcement actions alleging misconduct in
connection with commodity pools and hedge funds.

 Actions Taken Since October 2000                                                                       Pools/Hedge Funds
 Number of Cases Filed or Enforcement Actions                                                                              73
 	   • Cases/Actions Charging Commission Registrants                                                                       24
 Number of Dollars in Penalties Assessed                                                                       $564,127,597



Forex Fraud

The Commission vigorously uses its enforcement authority to combat the problem of forex fraud. Since passage of the
CFMA in December 2000 through September 2008, the Commission, on behalf of more than 25,000 customers, has
filed 98 cases. Those efforts have thus far resulted in approximately $453 million in restitution and $562 million in civil
monetary penalties.

 Actions Taken Since Passage of the CFMA in December 2000                                         Foreign Currency Markets
 Number of Cases Filed or Enforcement Actions                                                                              98
 	   • Number of Entities/Persons Charged                                                                                 374
 	   • Number of Customers Affected                                                                                   25,859
 Number of Dollars in Penalties Assessed
 	   • Civil Monetary Penalties                                                                                $562,241,267
 	   • Restitution                                                                                             $453,675,335




                                                                                                                CFTC         13
Number of Registrants
Companies and individuals who handle customer funds, solicit or accept orders, or give trained advice must apply for
CFTC registration through the National Futures Association (NFA), an SRO with delegated oversight authority from the
Commission. The Commission regulates the activities of nearly 68,000 registrants.

     Registration Category1                                                                                  Number as of September 30, 2008
     Associated Persons (APs) (Salespersons)                                                                                           53,249
     Commodity Pool Operators (CPOs)                                                                                                    1,353
     Commodity Trading Advisors (CTAs)                                                                                                  2,534
     Floor Brokers (FBs)                                                                                                                7,335
     Floor Traders (FTs)                                                                                                                1,446
     Futures Commission Merchants (FCMs)                                                                                                  1792
     Introducing Brokers (IBs)                                                                                                          1,6473
     TOTAL                                                                                                                             67,743



Contract Markets Designated by the CFTC, 2003-2008
The following designated contract markets (DCMs) are boards of trade or exchanges that meet the CFTC criteria and CFTC
Core Principles for trading futures or options by both institutional and retail participants. Currently, 13 DCMs meet CFTC
criteria and CFTC Core Principles for trading futures and options.

     Commodity
     Exchanges4                                  2003                  2004                 2005      2006           2007            2008
     BTEX
     CBOT
     CCFE
     CFE
     CME
     CSCE
     EPFE
     HedgeStreet
     ICE US
     KCBT
     MACE
     ME
     MGE
     NQLX
                                                                                                                        (continued on next page)


1	   A person who is registered in more than one registration category is counted in each category.
2	   Includes 16 notice-registered FCMs.
3	   Includes 44 notice-registered IBs.
4	   Refer to the CFTC Glossary in the Appendix for full names of organizations.




14           CFTC
                                                                                     M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




     Commodity
     Exchanges (continued)                      2003                 2004          2005           2006              2007             2008
     NYCE
     NYFE
     NYMEX (incl. COMEX)
     NYSE LIFFE
     OCX
     PBOT
     USFE
     TOTAL                                        15                    18          13              12                12               13



Number of Derivatives Clearing Organizations Registered with the CFTC, 2003-2008
Clearinghouses that provide clearing services for CFTC-regulated exchanges must register as DCOs. Currently, 10 DCOs
are registered with the Commission.

              5
     DCOs                                       2003                 2004          2005           2006              2007             2008
     AE
     BTEX
     CBOT
     CCorp
     CME
     EnergyClear
     FCOM
     GCC
     HedgeStreet
     ICC
     KCBT
     LCH
     MGE
     NYCC/ICE Clear
     NYMEX
     OCC
     ONXCC
     TOTAL                                        14                    10          11              11                11               10




5	   Refer to the CFTC Glossary in the Appendix for full names of organizations.




                                                                                                                                 CFTC         15
Exempt Commercial Markets, 2003-2008
Electronic trading facilities that execute principal-to-principal transactions between eligible commercial entities in exempt
commodities may operate as ECMs as set forth under the CEA and the Commission’s regulations. An ECM is subject to
anti-fraud and anti-manipulation provisions and a requirement that, if performing a significant price discovery function,
the ECM must provide pricing information to the public. A facility that elects to operate as an ECM must give notice to the
Commission and comply with certain information, record-keeping, and other requirements. An ECM is prohibited from
claiming that the facility is registered with, or recognized, designated, licensed or approved by, the Commission. A total
of 24 ECMs have filed notices with the Commission and 19 were active in FY 2008.

     Exempt
     Commercial Markets6                        2003                 2004          2005   2006   2007            2008
     CCX
     CDXchange
     ChemConnect
     EOXLIVE
     Flett
     GFI (Energy Match)
     HSE
     ICAP
     ICAP ETC
     ICAP HYDE
     ICE
     IMAREX
     LiquidityPort
     (Options ATS)
     NGX
     Nodel
     NTP
     OPEX
     Parity
     SL
     TCX
     TFS
     TFSE
     Tradition Coal.Com
     TS
     TOTAL                                        11                    11          12     17      19              19




6	   Refer to the CFTC Glossary in the Appendix for full names of organizations.




16            CFTC
                                                                                     M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Exempt Boards of Trade, 2003-2008
Transactions by eligible contract participants in selected commodities may be conducted on an XBOT as set forth under
the CEA and the Commission’s regulations. XBOTs are subject only to the CEA’s anti-fraud and anti-manipulation pro-
visions. An XBOT is prohibited from claiming that the facility is registered with, or recognized, designated, licensed, or
approved, by the Commission. Also, if it is performing a price discovery function, the XBOT must provide certain pricing
information to the public. To date, 14 XBOTs filed notices with the Commission and 10 were active in FY 2008.

     Exempt Boards of
     Trade7                                     2003                 2004          2005           2006              2007             2008
     AE
     CME AM
     Derivatives Bridge, LLC
     GFI ForexMatch
     Intrade
     IRESE
     LiquidityPort
     Longitude
     MATCHBOXX ATS
     Storm
     Swapstream
     WBOT
     WXL
     Yellow Jacket
     TOTAL                                         2                    3           5                8                8                10


Customer Funds Held in Futures Commission Merchant Accounts, 1998-2008
The amount of customer funds held at FCMs has more than quadrupled in the last decade.




7	   Refer to the CFTC Glossary in the Appendix for full names of organizations.

                                                                                                                                 CFTC         17
                      Performance Highlights

T          he following table is an overview of the Commission’s strategic mission, statement, strategic goals and outcome
           objectives.


                                                      Mission Statement

                  The mission of the CFTC is to protect market users and the public
                 from fraud, manipulation, and abusive practices related to the sale
                 of commodity futures and options, and to foster open, competitive,
                    and financially sound commodity futures and option markets.

                                                 Strategic Goal One
                         Ensure the economic vitality of the commodity futures and option markets.
                                                        Outcome Objectives
     1.	 Markets that accurately reflect the forces of supply and demand for the underlying commodity and are free of disruptive
         activity.
     2.	 Markets that are effectively and efficiently monitored to ensure early warning of potential problems or issues that could
         adversely affect their economic vitality.
                                                    Strategic Goal Two
                                              Protect market users and the public.
                                                        Outcome Objectives
     1.	 Violations of Federal commodities laws are detected and prevented.
     2.	 Commodities professionals meet high standards.
     3.	 Customer complaints against persons or firms falling within the jurisdiction of the CEA are handled effectively and
         expeditiously.
                                               Strategic Goal Three
              Ensure market integrity in order to foster open, competitive, and financially sound markets.
                                                        Outcome Objectives
     1.	 Clearing organizations and firms holding customer funds have sound financial practices.
     2.	 Commodity futures and option markets are effectively self-regulated.
     3.	 Markets are free of trade practice abuses.
     4.	 Regulatory environment is responsive to evolving market conditions.
                                                                                                             (continued on next page)

18       CFTC
                                                                         M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                                          Strategic Goal Four
     Facilitate Commission performance through organizational and management excellence, efficient use of
                                  resources, and effective mission support.
                                                      Outcome Objectives
   1.	 Productive, technically competent, competitively compensated, and diverse workforce that takes into account current and
       future technical and professional needs of the Commission.
   2.	 Modern and secure information system that reflects the strategic priorities of the Commission.
   3.	 Organizational infrastructure that efficiently and effectively responds to and anticipates both the routine and emergency
       business needs of the Commission.
   4.	 Financial resources are allocated, managed, and accounted for in accordance with the strategic priorities of the
       Commission.
   5.	 Commission’s mission is fulfilled and goals are achieved through sound management and organizational excellence
       provided by executive leadership.



Summary of CFTC Mission Statement, Strategic Goals & Outcomes
The mission of the CFTC is accomplished through four strategic goals, each focusing on a vital area of regulatory respon-
sibility: 1) to ensure the economic vitality of the commodity futures and option markets; 2) to protect market users and
the public; 3) to ensure market integrity in order to foster open, competitive, and financially sound markets; and 4) to
facilitate Commission performance through organizational and management excellence, efficient use of resources, and
effective mission support. Under each of these goals, the Commission has identified several desirable outcome objectives.
To more accurately assess progress towards these outcome objectives, the Commission sets performance targets for various
measures under each desired outcome objective.

Due to the broad economic functions that the Commission oversees, it is not easy to identify detailed objectives and
performance metrics that will be accomplished each year. While some measures do reflect specific performance (e.g., the
number of days to process a reparations complaint), other measures identify conditions that, if present, are indicators that
the Commission’s activities are contributing successfully to the health of the industry it regulates (e.g., the increase in the
number of products traded).




Annually, the performance metrics are analyzed to determine the measure of success the program’s activities have achieved
in accomplishing the Commission’s overall strategic mission.

Because many of the Commission’s performance metrics are subject to external influences, metrics alone cannot fully
measure performance. The Commission, therefore, further analyzes the progress of each performance metric using adjec-
tival ratings. On the following page is a summary outline of adjectival ratings used by Lead Program Offices to evaluate
the results of each performance metric:




                                                                                                                     CFTC          19
                                    Summary Outline of Adjectival Ratings
 EFFECTIVE:                Significantly exceeds the standards of performance and achieves noteworthy results.

 MODERATELY                Exceeds the standards of performance; although there may be room for improvement in some
 EFFECTIVE:                elements, better performance in all other elements more than offsets this.

 ADEQUATE:                 Meets the standard of performance; deficiencies do not substantially affect performance.

 MARGINAL:                 Below the standard of performance; deficiencies require attention and corrective action.
                           Significantly below the standard of performance; deficiencies are serious, may affect overall results,
 UNSATISFACTORY:           urgently require senior management attention, and prompt corrective action.

 RESULTS NOT               Data is not available to evaluate the performance.
 DEMONSTRATED:



FY 2008 Performance Results
In FY 2008, the Commission met or exceeded, metrically, 83 percent of its 52 performance metrics and rated 81 percent, of
the 52 performance metrics, as effective or moderately effective. Two percent of the performance metrics did not provide
sufficient data to rate and 15 percent of the performance metrics that were rated as adequate were mainly located in the
newly added Strategic Goal 4.




Resource Investment by Strategic Goal
In FY 2008, the Commission invested 30 percent of its resources in economic vitality, 24 percent in protecting market
users and the public, 23 percent in market integrity, and 23 percent in organizational and management excellence.




20     CFTC
 Introduction to Strategic Goal One


T         he focus of this goal is the marketplace. If U.S. commodity futures and option markets are protected from, and
        are free of, abusive practices and influences, they will fulfill their vital role in the U.S. market economy, accurately
reflecting the forces of supply and demand and serving market users by fulfilling an economic need.


                                              Strategic Goal One
                      Ensure the economic vitality of the commodity futures and option markets.
                                               Annual Performance Goal One
                    No price manipulation or other disruptive activities that would cause loss of confidence
                                     or negatively affect price discovery or risk shifting.
                                        Outcome Objectives and Performance Measures
   1.1	 Markets that accurately reflect the forces of supply and demand for the underlying commodity and are free of
        disruptive activity.
       1.1.1.	 Percentage growth in market volume.
       1.1.2.	 Percentage of novel or innovative market proposals or requests for CFTC action addressed within six months
               to accommodate new approaches to, or the expansion in, derivatives trading, enhance the price discovery
               process, or increase available risk management tools.
       1.1.3.	Percentage increase in number of products traded.
       1.1.4.	Percentage of new exchange and clearinghouse organization applications completed within expedited review
              period.
       1.1.5.	Percentage of new contract certification reviews completed within three months to identify and correct
              deficiencies in contract terms that make contracts susceptible to manipulation.
       1.1.6.	Percentage of rule certification reviews completed within three months, to identify and correct deficiencies in
              exchange rules that make contracts susceptible to manipulation or trading abuses or result in violations of law.
   1.2	 Markets that are effectively and efficiently monitored to ensure early warning of potential problems or issues that could
        adversely affect their economic vitality.
       1.2.1	 Percentage of derivatives clearing organization applications demonstrating compliance with CFTC Core
              Principles.
       1.2.2	 Ratio of markets surveilled per economist.
       1.2.3	 Percentage of contract expirations without manipulation.




                                                                                                                    CFTC            21
Performance Trends for Goal One
Monitoring market activity represents one of the ways the Commission seeks to protect the economic function of the
markets. Market surveillance is conducted to detect attempted manipulation and other abusive practices that could
undermine the capacity of these markets to perform their economic function. The Commission takes preventive measures
to ensure that market prices accurately reflect fundamental supply and demand conditions, including the routine daily
monitoring of large trader positions, futures and cash prices, price relationships, and supply and demand factors in order
to detect threats of price manipulation.


Market Volume

With increased demand realized for products traded on
exchanges, contract trading volume peaked to almost 3.5
billion in FY 2008, as shown in the chart Growth in Volume
of Futures & Option Contracts Traded & CFTC FTEs on page
12. The FY 2008 actual is driven by changes in economic
fundamentals, success of newly launched products, new
participants using these markets, and other changes in the
marketplace. As such, these factors may impact the precision
of any prediction of future trading volume.


New Products

The actual percentage of new products offered on the
exchanges in FY 2008 increased but not above projections.
These results are driven by customer demand for new
products,   exchange   innovation,    opportunities   made
available by the increasing use of electronic trading, and
other changes in the marketplace. As such, these factors
may impact the number of products introduced.




22     CFTC
 Introduction to Strategic Goal Two

W            hile the United States is the beneficiary of explosive growth in the futures industry, the risk of fraud and
          manipulation is always present. The trend toward electronic trading platforms and the expanding complexity
of trading instruments have challenged the Commission to reconfigure its ability to identify, investigate, and take action
against parties involved in violating applicable laws and regulations. If evidence of criminal activity is found, matters are
referred to state or Federal authorities for criminal prosecution.

Over the years, the Commission has taken action in a number of cases involving manipulation or attempted manipulation
of commodity prices. A variety of administrative sanctions, such as bans on futures trading, civil monetary penalties, and
restitution orders, is available to the Commission. The Commission may also seek Federal court injunctions, asset freezes,
and orders to disgorge ill-gotten gains.


                                                  Strategic Goal Two
                                            Protect market users and the public.
                                                Annual Performance Goal Two
                                 To have an effective and efficient market surveillance program.
                                        Outcome Objectives and Performance Measures
   2.1	 Violations of Federal commodities laws are detected and prevented.
       2.1.1.	 Number of enforcement investigations opened during the fiscal year.
       2.1.2.	 Number of enforcement cases filed during the fiscal year.
       2.1.3.	 Percentage of enforcement cases closed during the fiscal year in which the Commission obtained sanctions,
               e.g., civil monetary penalties, restitution and disgorgement, cease and desist orders, permanent injunctions,
               trading bans, and registration restrictions.
       2.1.4.	 Cases filed by other criminal and civil law enforcement authorities during the fiscal year that included
               cooperative assistance from the Commission.
   2.2	 Commodity professionals meet high standards.
       2.2.1.	 Percentage of self-regulatory organizations that comply with CFTC Core Principles.
       2.2.2.	 Percentage of derivatives clearing organizations that comply with CFTC Core Principles.
       2.2.3.	 Percentage of professionals compliant with standards regarding testing, licensing, and ethics training.
       2.2.4.	 Percentage of self-regulatory organizations that comply with requirement to enforce their rules.
       2.2.5.	 Percentage of total requests receiving CFTC responses for guidance and advice.
   2.3	 Customer complaints against persons or firms registered under the Act are handled effectively and expeditiously.
       2.3.1.a	 Percentage of filed complaints resolved within one year of the filing date for Voluntary Proceedings.
       2.3.1.b	 Percentage of filed complaints resolved within one year and six months of the filing date for Summary
                Proceedings.
       2.3.1.c	 Percentage of filed complaints resolved within one year and six months of the filing date for Formal
                Proceedings.
       2.3.2.	 Percentage of appeals resolved within six months.



Performance Trends for Goal Two
An ever larger segment of the population has money at risk in the futures markets, either directly or indirectly through
pension funds or ownership of shares in publicly held companies that participate in the markets.


                                                                                                                    CFTC       23
Commission staff work to protect market users and the public by promoting compliance with, and deterring violations of,
the CEA and Commission regulations. DOE investigates potential misconduct, brings administrative and civil injunctive
enforcement actions to prosecute such misconduct, seeks sanctions against wrongdoers, and publicly reports the outcome
of those enforcement actions. The majority of the work in this area involves investigating and prosecuting manipulation,
attempted manipulation, and fraud. The Commission’s enforcement actions send a message to industry professionals
and participants about the kinds of conduct that will not be tolerated.

Enforcement Investigation and Litigation

In FY 2008, the Commission filed 40 enforcement actions and DOE staff opened 215 investigations of potential violations
of the Act and Commission regulations. The Commission obtained near record relief against enforcement action defen-
dants and respondents—monetary penalties imposed during FY 2008 included more than $402 million in restitution and
disgorgement, and $234 million in civil monetary penalties.

While DOE continues to perform at a high level, current resource constraints continue to have had an adverse impact and
may affect the precision of any prediction of future performance. Staff are operating at full capacity. Unprecedented market
activity during FY 2008 shifted resources to investigations. With increased investigation demands, DOE staff may be unable
to bring actions because of insufficient resources, and other authorities will not be available to step in and fill the void.
SROs can take action only against their own members, and their sanctions cannot affect conduct outside their jurisdiction
or markets. In addition, other Federal regulators and state regulators have limited jurisdiction and expertise in handling
futures-related misconduct. Finally, while criminal prosecutions by the U.S. Department of Justice (DOJ) are an important
adjunct to effective enforcement of the CEA, cooperative enforcement still requires the active use of Commission FTEs to
assist DOJ in its criminal prosecutions.




24     CFTC
Introduction to Strategic Goal Three


T         he Commission focuses on issues of market integrity, seeking to protect: 1) the economic integrity of the markets
        so that markets may operate free from manipulation; 2) the financial integrity of the markets so that the insolvency
of a single participant does not become a systemic problem affecting other market participants; and 3) the operational
integrity of the markets so that transactions are executed fairly and proper disclosures to existing and prospective customers
are made.


                                             Strategic Goal Three
            Ensure market integrity in order to foster open, competitive, and financially sound markets.
                                             Annual Performance Goal Three
                        No loss of customer funds as a result of firms’ failure to adhere to regulations.
                       No customers prevented from transferring funds from failing firms to sound firms.
                                        Outcome Objectives and Performance Measures
   3.1	 Clearing organizations and firms holding customer funds have sound financial practices.
       3.1.1.	 Lost funds:
       	       a)	 Number of customers who lose funds.
       	       b)	 Amount of funds lost.
       3.1.2.	 Number of rulemakings to ensure market integrity and financially sound markets.
       3.1.3.	 Percentage of clearing organizations that comply with requirement to enforce their rules.
   3.2	 Commodity futures and option markets are effectively self-regulated.
       3.2.1.	 Percentage of intermediaries who meet risk-based capital requirements.
       3.2.2.	 Percentage of self-regulatory organizations that comply with requirement to enforce their rules.
   3.3	 Markets are free of trade practice abuses.
       3.3.1.	 Percentage of exchanges deemed to have adequate systems for detecting trade practice abuses.
       3.3.2.	 Percentage of exchanges that comply with requirement to enforce their rules.
   3.4	 Regulatory environment is flexible and responsive to evolving market conditions.
       3.4.1.	 Percentage of CFMA Section 126(b) objectives addressed.
       3.4.2.	 Number of rulemakings, studies, interpretations, and guidances to ensure market integrity and exchanges’
               compliance with regulatory requirements.
       3.4.3.	 Percentage of requests for no-action or other relief completed within six months related to novel market or
               trading practices and issues to facilitate innovation.
       3.4.4.	 Percentage of total requests receiving CFTC responses for guidance and advice.




                                                                                                                  CFTC       25
Performance Trends for Goal Three
In fostering open, competitive, and financially sound markets, the Commission’s two main priorities are to avoid
disruptions to the system for clearing and settling contract obligations and to protect the funds that customers entrust to
FCMs. Clearing organizations and FCMs are the backbone of the clearing and settlement system; together, they protect
against the possibility that the financial difficulties of one trader may become a systemic problem for other traders.

Commission staff also work with the SROs and NFA to monitor closely the financial condition of FCMs, which must
provide the Commission, designated SRO, and NFA with various monthly and annual financial reports. The SROs and
NFA also conduct audits and daily financial surveillance of their respective member FCMs. Part of this financial
surveillance involves looking at each FCM’s exposure to losses from large customer positions that it carries. As an
oversight regulator, the Commission not only reviews the audit and financial surveillance work of the SROs and NFA, but
also monitors the financial strength of FCMs directly, as appropriate. The Commission also periodically reviews clearing
organization procedures for monitoring risks and protecting customer funds.


Protecting Customer Funds

Staff monitor the operations of registrants in possession of customer funds through a number of financial oversight and
risk surveillance activities. Staff review monthly financial reports submitted by FCMs, review annual reports of FCMs
certified by independent public accountants, and conduct onsite examinations of FCMs. In FY 2008, staff processed the
monthly and annual financial reports filed by approximately 150 FCMs, and performed examinations and onsite reviews
of several FCMs to test compliance with the Commission’s financial requirements for safekeeping customer funds.

The financial and risk surveillance activities performed by staff have taken on greater importance in recent years due to
the number of instances of market volatility and their impacts on market intermediaries and the clearing system. During
FY 2008, staff conducted nearly 40 market move reviews to monitor the potential for, and instances of, market volatility,
market disruptions, or emergencies that have the potential to impact: 1) the proper capitalization of firms; 2) the proper
segregation of customer funds; and 3) the ability of financial intermediaries to make payments to a DCO in a timely
manner. Staff also addressed issues with respect to systemic risk.

As a result of these and other ongoing financial oversight
and risk surveillance activities, in FY 2008, there were no
losses of regulated customer funds as a result of an FCM
failure or the inability of customers to transfer their funds
from a failing FCM to a financially sound FCM.            The
performance result indicates that the program’s objectives
of   ensuring   sound    financial   practices   of   clearing
organizations and firms holding customer funds, and the
protection of customer funds are being met.


Oversight of SROs and DCOs

A key aspect of assuring effective self-regulation is oversight by the Commission of futures industry SROs, which include
exchanges and NFA, to ensure fulfillment of their responsibilities for monitoring and ensuring the financial integrity of
market intermediaries and the protection of customer funds. Toward this end, Commission staff oversee, review, and
report to the Commission concerning SRO self-policing programs to evaluate their compliance with applicable
provisions of the Act and Commission regulations.            Commission staff also oversee, review, and report to the




26     CFTC
                                                                  M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Commission concerning DCO’s compliance with CFTC Core Principles, including maintaining adequate arrangements
and resources for the effective monitoring and enforcement of compliance with their rules. Similar to the approach of
other Federal financial regulators and certain overseas financial supervisors, the Commission employs a risk-based
approach to its examination cycles of SROs and DCOs, i.e., both the scheduling and scope of the risk-based reviews are
based on an analysis of the underlying risks to which an institution is exposed and the controls that it has in place to
address those risks.

Substantial staff resources were committed to the examination of selected SROs and DCOs in FY 2008. Staff completed
examinations of compliance programs of two SROs. One examination focused on an SRO’s financial surveillance
program, and the second examination focused on another SRO’s program for the oversight of disclosure documents
issued by CPOs and CTAs.     Staff determined that the SROs’ programs were meeting the requirements of the Act and
Commission regulations. Three other reviews of SROs’ compliance programs were initiated in FY 2008, but completion
of these reviews will not occur until the next fiscal year. In addition, DCIO staff continued a joint review with DMO to
assess business continuity plans of six DCOs, and staff initiated reviews of two DCO programs for compliance with
CFTC Core Principles. All three of these DCO reviews will not be completed until FY 2009. The performance results
indicate that the Commission’s oversight program objectives of ensuring the financial integrity of market intermediaries
and the protection of customer funds are being met in FY 2008.




                                                                                                              CFTC         27
 Introduction to Strategic Goal Four

T          he Commission introduced a new strategic goal in FY 2008, which focuses on facilitating mission delivery through
           organizational and management excellence. Under this strategic goal, the role of CFTC program support functions
becomes more transparent and better aligned with strategic plan priorities. Performance measures provide metrics on
human capital, technology, and financial management.

                                                 Strategic Goal Four
                Facilitate Commission performance through organizational and management excellence,
                               efficient use of resources, and effective mission support.
                                                Annual Performance Goal Four
 Recruit, retain, and develop a skilled and diversified staff to keep pace with attrition and anticipated losses due to retirement.
                                          Outcome Objectives and Performance Measures
     4.1	 Productive, technically competent, competitively compensated, and diverse workforce that takes into account current
          and future technical and professional needs of the Commission.
         4.1.1.	 Percentage of fiscal year program development objectives met under CFTC pay for performance authority.
         4.1.2.	 Average number of days between close of vacancy announcement and job offer, per Federal standards of 45
                 days or less.
         4.1.3.	 Rate of employee turnover, exclusive of retirements.
         4.1.4.	 Percentage of employees in mission-critical positions rating themselves at “extensive” or higher level of
                 expertise on Strategic Workforce Planning Survey.
         4.1.5.	 Percentage of underrepresented groups among new hires.
     4.2	 Modern and secure information system that reflects the strategic priorities of the Commission.
         4.2.1.	 Percentage of CFTC information technology resources directly tied to Commission resource priorities as stated
                 in the Strategic Plan.
         4.2.2.	 Percentage of major information technology investments having undergone an investment review within the last
                 three years.
         4.2.3.	 Percentage of Customer Support Center inquiries resolved within established performance metrics.
         4.2.4.	 Percentage of employees with network availability.
         4.2.5.	 Percentage of employees who require remote network availability that have it.
         4.2.6.	 Percentage of major systems and networks certified and accredited in accordance with National Technology of
                 Standards and Technology (NIST) guidance.
         4.2.7.	 Percentage of information technology E-Government initiatives on target for compliance with implementation
                 schedule.
         4.2.8.	 Percentage of network users who have completed annual security and privacy training.
     4.3	 Organizational infrastructure that efficiently and effectively responds to and anticipates both the routine and emergency
          business needs of the Commission.
         4.3.1.	 Number of hours required to deploy staff and begin mission essential functions at the Continuity of Operations
                 Plan (COOP) site.
     4.4	 Financial resources are allocated, managed, and accounted for in accordance with the strategic priorities of the
          Commission.
         4.4.1.	 Audit opinion of the Commission’s annual financial statements as reported by the CFTC’s external auditors.
         4.4.2.	 Number of material internal control weaknesses reported in the Performance and Accountability Report.
         4.4.3.	 Number of non-compliance disclosures in audit report.
     4.5	 Commission’s mission is fulfilled and goals are achieved through sound management and organizational excellence
          provided by executive leadership.
         4.5.1.	 Percentage of 18 Strategic Plan priorities that are on track to completion by FY 2012.



28       CFTC
                                                                       M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Performance Trends for Goal Four
The performance metrics for human capital and financial management are relatively straight-forward and as a consequence are
largely effective. Ensuring that the CFTC can attract and retain the best and the brightest has been a high priority for over six
years. Moving to a new financial management system, in compliance with laws and regulations, has also been a high priority
since FY 2006. A chronic lack of funding for technology
investments is reflected in its performance metrics, which are
for the most part rated as adequate. Effective performance in
the technology area is the highest priority items under Goal
Four.


IT Resources Dedicated to Strategic Priorities

The planning and procurement process tracks planned
versus actual budgets, and aligns priorities as needed.
Because of tight budget constraints, the CFTC has been
forced to postpone some infrastructure upgrades.


IT Infrastructure

The CFTC continues to upgrade its network to meet the
growing needs of the CFTC. In the past, the CFTC has been
forced to cut back on infrastructure upgrades due to budget
constraints.


Continuity of Operations Readiness

An evaluation tool that tested the agency’s compliance with
elements defined in Federal Continuity Directive 1, Federal
Executive Branch Continuity Program and Requirements
found that, of the 13 communications requirements
assessed for headquarters, the CFTC fully complied with
six, partially complied with two, and did not comply with
five. For the agency’s continuity facility, the CFTC fully
complied with nine requirements and did not comply with
four. The CFTC was rated as 72 percent compliant with
critical requirements and 94 percent compliant with
operational and implementation requirements.




                                                                                                                   CFTC         29
                             Financial Highlights

T       he following chart is an overview of the Commission’s financial position, preceding a discussion of the agency’s
        financial highlights for FY 2008.

                                                                                  2008                   2007
 Condensed Balance Sheet Data
 	   Fund Balance with Treasury                                            $	    27,666,831       $	    19,507,914
 	   Property, Equipment, and Software, Net                                       2,810,441              2,850,911
 	   Accounts Receivable                                                            11,534                126,276
 	   Prepayments                                                                   461,552                131,142
 	   Other (Custodial)                                                            1,721,526               620,311
 Total Assets                                                              $	    32,671,884       $	    23,236,554
 	   FECA Liabilities                                                             $218,888               $223,003
 	   Payroll, Benefits and Annual Leave                                           8,029,377              7,415,622
 	   Contingent & Deposit Fund Liabilities                             	                 —                357,563
 	   Other Deferred Lease Liabilities                                             3,294,324              3,169,541
 	   Accounts Payable                                                             2,496,958              2,960,373
 	   Custodial Liabilities                                                        1,721,526               620,311
 	   Other                                                                            9,957                 10,001
 Total Liabilities                                                               15,771,030             14,756,414
 Cumulative Results of Operations                                                (5,224,895)            (5,700,823)
 Unexpended Appropriations                                                       22,125,749             14,180,963
 Total Net Position                                                              16,900,854              8,480,140
 Total Liabilities and Net Position                                        $	    32,671,884       $	    23,236,554
 Condensed Statements of Net Cost
 	   Total Cost                                                            $	   105,583,743       $	   101,824,806
 	   Net Revenue                                                                    (67,479)               (91,763)
 Total Net Cost of Operations                                              $	   105,516,264       $	   101,733,043
 Net Cost by Strategic Goal
 	   Goal One - Economic Vitality                                      $         31,654,879       $	    30,519,913
 	   Goal Two - Market User and Public                                           25,323,903             24,415,930
 	   Goal Three - Industry                                                       24,268,741             23,398,600
 	   Goal Four - Organizational Excellance                                       24,268,741             23,398,600
                                                                           $	   105,516,264       $	   101,733,043



30    CFTC
                                                                     M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Financial Discussion and Analysis                               For the year ended September 30, 2008, the balance sheet
                                                                reflects total assets of $32.7 million. This reflects a 41
The CFTC prepares annual financial statements in
                                                                percent increase from FY 2007. The Commission’s fund
accordance with GAAP for Federal government entities and
                                                                balance with the Treasury was $7.2 million more in
subjects the statements to an independent audit to ensure
                                                                FY 2008 than it was at the end of FY 2007. A majority of
their integrity and reliability in assessing performance.
                                                                the increase was attributable to information technology

Management recognizes the need for performance and              (IT) investments.      Although these funds have been

accountability reporting, and fully supports assessments of     obligated, the majority of equipment and services will be

risk factors that can have an impact on its ability to do so.   received in FY 2009.

Improved reporting enables managers to be accountable
                                                                The CFTC litigates against defendants for alleged violations
and supports the concepts of the Government Performance
                                                                of the CEA and Commission’s regulations. Violators may
and Results Act (GPRA), which requires the Commission to:
                                                                be subject to a variety of sanctions including civil monetary
1) establish a strategic plan with programmatic goals and
                                                                penalties, injunctive orders, trading and registration bars
objectives; 2) develop appropriate measurement indicators;
                                                                and suspensions, and orders to pay disgorgement and
and 3) measure performance in achieving those goals.
                                                                restitution to customers. When collectible custodial

The financial summary as shown on the preceding page            receivables (non-entity assets) are high, the civil monetary

highlights changes in financial position between September      penalties that have been assessed and levied against
30, 2008 and September 30, 2007. This overview is               businesses for violation of law dominate the balance sheet.

supplemented with brief descriptions of the nature of each      Custodial accounts receivable balances increased to $1.7

required financial statement and its relevance. Certain         million. In FY 2008, approximately $1.2 million in net

significant balances or conditions featured in the graphic      custodial receivables was attributable to new civil monetary

presentation are explained in these sections to help clarify    penalties. This balance is largely explained by the timing

their relationship to Commission operations. Readers are        of civil monetary penalty collections. In FY 2008, two

encouraged to gain a deeper understanding by reviewing          collections in the amount of $125 million from BP

the Commission’s financial statements and notes to the          Products North America and $10 million from Energy

accompanying audit report presented in the Financial            Transfer Partners were processed and transferred into the
Section of this report.                                         Treasury’s general fund at year-end. For FY 2007, $264
                                                                thousand in net custodial receivables was attributable to
                                                                civil monetary sanctions. In addition, the net value of
Understanding the Financial Statements                          general property, plant, and equipment decreased by $40
                                                                thousand, as the Commission added $893 thousand in
The CFTC presents financial statements and notes in the
                                                                capitalized assets and depreciated $593 thousand of
format required for the current year by Office of Management
                                                                internally-developed software for the eLaw Program.
and Budget (OMB) Circular A-136, Financial Reporting
Requirements, which is revised annually by OMB in               As should be expected from a small regulatory agency,
coordination with the U.S. Chief Financial Officers Council.    payroll, benefits, and annual leave make up the majority of
The CFTC’s current year and prior year financial statements     CFTC liabilities. Several factors influenced the change in
and notes are presented in a comparative format.                the Commission’s net position, during FY 2008. This, as
                                                                noted above, includes the timing of prior year write-offs of
Balance Sheet                                                   old debt, and the overall case management and analysis of
The balance sheet presents, as of a specific point in time,     debt by the Commission’s DOE.
the economic value of assets and liabilities retained or
managed by the Commission. The difference between
assets and liabilities represents the net position of the
Commission.



                                                                                                                 CFTC         31
Statement of Net Cost                                            Strategic Goal Three is representative of efforts to ensure
                                                                 market integrity. In FY 2008, the net cost of operations for
This statement is designed to present the components of
                                                                 this goal was $24.3 million or 23 percent.     Productivity
the Commission’s net cost of operations. Net cost is the
                                                                 improvements continued to be achieved through the use
gross cost incurred less any revenues earned from
                                                                 of automated audit and reporting tools. For example,
Commission activities. The statement of net cost is catego-
                                                                 Commission staff completed examinations of compliance
rized by the Commission’s strategic goals. A fourth strategic
                                                                 programs of two SROs. One examination focused on an
goal measuring organizational and management excel-
                                                                 SRO’s financial surveillance program, and the second
lence, efficient use of resources, and effective mission
                                                                 examination focused on another SRO’s oversight of disclo-
support was added in FY 2008. The comparative presenta-
                                                                 sure documents issued by CPOs and CTAs. In addition,
tion in the financial statements uses an allocation to reclas-
                                                                 staff continued a joint assessment of business continuity
sify FY 2007 to conform to the FY 2008 presentation.
                                                                 plans for six clearing operations and initiated two other
The Commission experienced a 3.71 percent increase in            reviews for compliance with CFTC Core Principles.
the total net cost of operations during FY 2008. This is not     Moreover, the Commission was increasingly called upon
consistent with the 13.6 percent budget increase the             to register overseas clearinghouses to approve complex
Commission received for its appropriation. The difference        cross-border trading and clearing linkages and to perform
reflects unexpended obligations for $5 million for an IT         effective ongoing supervision.
equipment refresh and $6 million for IT support and
                                                                 Strategic Goal Four is representative of efforts to achieve
advisory services. Therefore, these costs will be reflected in
                                                                 organizational excellence and accountability over human
the FY 2009 Statement of Net Cost.
                                                                 capital efforts, financial management, and technology. In
Strategic Goal One, which tracks activities related to market    FY 2008, the net cost of operations for this goal was $24.3
oversight, continues to require a significant share of           million or 23 percent.     This is the first year that the
Commission resources at 30 percent of net cost of opera-         Commission has measured this goal. The costs are reflec-
tions, in FY 2008. The $31.7 million reflects a substantial      tive of the planning and execution of human capital and
effort over the summer months to address market vola-            technology initiatives. For example, the Commission fully
tility, which includes 4,000 work hours applied towards          implemented a new pay for performance system, ramped
collecting and assembling data for staff reports on swap         up hiring, and performed in-depth acquisition planning
dealers and index traders.                                       for information technology.

Strategic Goal Two is representative of efforts to protect
                                                                 Statement of Budgetary Resources
market users and the public. In FY 2008, the net cost of
operations for this goal was $25.3 million or 24 percent.        This statement provides information about the provision
This funding level was primarily impacted by the DOE,            of budgetary resources and its status as of the end of the
which conducted a very high level of enforcement investi-        year.   Information in this statement is consistent with
gations in response to unusual market activity in FY 2008,       budget execution information and the information
including price volatility in energy and agricultural            reported in the Budget of the U. S. Government, FY 2008.
commodities. Another key DOE initiative was the forma-
                                                                 The $112.0 million appropriation level received in FY 2008
tion of a forex team, which was publicly announced in the
                                                                 represented a significant increase for the Commission. As
last quarter of the fiscal year.
                                                                 a consequence, even with a $784 thousand enacted reduc-
                                                                 tion, the level was 13.6 percent higher than the enacted




32      CFTC
                                                                    M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




FY 2007 level of $98 million. This permitted the               activity reflects total non-exchange revenue collected (cash
Commission, for the first time in over five years, to do       collections) in the amount of $141.8 million and a transfer
more than maintain a “steady state” and fund benefits and      of the collections to the Treasury in the same amount.
compensation, lease expenses, printing, and services to
                                                               Historical experience has indicated that a high percentage
support systems users, telecommunications, operations,
                                                               of custodial receivables prove uncollectible. The method-
and maintenance of IT equipment.        In FY 2008, gross
                                                               ology used to estimate the allowance for uncollectible
outlay was not in line with the net cost increase because
                                                               amounts related to custodial accounts is that custodial
hiring and technology spending was delayed until the end
                                                               receivables are considered 100 percent uncollectible unless
of the fiscal year due to the funding restrictions from the
                                                               otherwise noted in the judgment. An allowance for uncol-
FY 2008 Continuing Resolution.
                                                               lectible accounts has been established and included in the
                                                               accounts receivable on the balance sheet. The allowance is
Statement of Custodial Activity
                                                               based on past experience in the collection of accounts
This statement provides information about the sources and      receivables and an analysis of outstanding balances.
disposition of non-exchange revenues.        Non-exchange      Accounts are re-estimated quarterly based on account
revenue at the CFTC is primarily represented by fines,         reviews and a determination that changes to the net realiz-
penalties, and forfeitures assessed and levied against busi-   able value are needed. The re-estimate can cause wide
nesses and individuals for violations of the CEA. Other        swings in the statement line that reports change in accounts
non-exchange revenues include registration, filing, appeal     receivable.
fees, and general receipts.   The statement of custodial




                                                                                                                CFTC         33
                      Management Assurances

Management Overview                                            Monitoring is the assessment of internal control perfor-



T
                                                               mance to ensure the internal control processes are properly
        he CFTC is committed to management excellence          executed and effective.
        and recognizes the importance of strong financial
systems and internal controls to ensure accountability, in-    Information and Communication ensures the agency’s

tegrity, and reliability. This operating philosophy has per-   control environment, risks, control activities, and perfor-

mitted the Commission to make significant progress in          mance results are communicated throughout the agency.

documenting and testing its internal controls over finan-
cial reporting for next year, as prescribed in OMB Circular
A-123, Management’s Responsibility for Internal Control. The
graph below depicts all five components of the internal
control process that must be present in an organization to
ensure an effective internal control process.

Control Environment is the commitment to encourage
the highest level of integrity and personal and professional
standards, and promotes internal control through leader-
ship philosophy and operation style.

Risk Assessment is the identification and analysis of risks
associated with business processes, financial reporting,
technology systems, and controls and legal compliance in
the pursuit of agency goals and objectives.                    The Commission relies on its performance management
                                                               and internal control framework to:
Control Activities are the actions supported by manage-
ment policies and procedures to address risk, e.g., perfor-    ■■   Ensure that its divisions and mission support offices
mance reviews, status of funds reporting, and asset man-            achieve their intended results efficiently and effectively;
agement reviews.                                                    and

                                                               ■■   Ensure the maintenance and use of reliable, complete,
                                                                    and timely data for decision-making at all levels.




34     CFTC
                                                                           M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




The Commission strongly believes that the rapid                    Statement of Assurances
implementation of audit recommendations is essential
                                                                   The Statement of Assurance is required by the Federal Man-
to improving its operations. Integration of Commission
                                                                   agers’ Financial Integrity Act (FMFIA) and OMB Circular
strategic,   budget,    and    performance      data   permits
                                                                   A-123, Management’s Responsibility for Internal Control. The
management to make individual assurance statements with
                                                                   assurance is for internal controls over operational effective-
confidence. Moreover, data-driven reporting provides the
                                                                   ness (we do the right things to accomplish our mission)
foundation for Commission staff to monitor and improve
                                                                   and operational efficiency (we do things right).
its control environment.



                                                    Statement of Assurance

     “CFTC management is responsible for establishing and maintaining effective internal control and financial management
     systems that meet the objectives of the Federal Managers’ Financial Integrity Act (FMFIA). The CFTC conducted its
     assessment of the internal control over effectiveness and efficiency of operations, and compliance with applicable laws
     and regulations, in accordance with OMB Circular A-123, Management’s Responsibility for Internal Control. Based
     on the results of this evaluation, the CFTC can provide reasonable assurance that its internal control over operations,
     and compliance with applicable laws and regulations, as of September 30, 2008 was operating effectively and no
     material weaknesses were found in the design or operation of the internal controls.

     In addition, the CFTC conducted its assessment of the effectiveness of internal control over financial reporting,
     which includes safeguarding of assets and compliance with applicable laws and regulations, in accordance with the
     requirements of Appendix A of OMB Circular A-123. Based on the results of this evaluation, the CFTC can provide
     reasonable assurance that its internal control over financial reporting as of June 30, 2008 was operating effectively and
     no material weaknesses were found in the design or operation of the internal control over financial reporting.”




                                                                        Walter L. Lukken
                                                                        Acting Chairman

                                                                        November 17, 2008



During FY 2008, in accordance with the FMFIA, and using                 permit the preparation of accounts and reliable financial
the guidelines of OMB, the Commission reviewed key                      and statistical reports and to maintain accountability
components of its management and internal control                       over assets; and
system.
                                                                   ■■   All programs are efficiently and effectively carried out
The objectives of the Commission’s internal controls are to             in accordance with applicable laws and management
provide reasonable assurance that:                                      policy.

■■   Obligations and costs are in compliance with applicable       The efficiency of the Commission’s operations is continu-
     laws;                                                         ally evaluated using information obtained from reviews
                                                                   conducted by the Government Accountability Office
■■   Assets are safeguarded against waste, loss, unauthorized
                                                                   (GAO) and the Office of Inspector General (OIG), specifi-
     use, or misappropriation;
                                                                   cally    requested      studies,   or   observations      of   daily
■■   Revenues and expenditures applicable to Commission            operations.
     operations are properly recorded and accounted for to



                                                                                                                       CFTC         35
These reviews ensure that the Commission’s systems and         ■■   Conducting management control reviews with the
controls comply with the standards established by FMFIA.            express purpose of assessing internal controls;
Moreover, managers throughout the Commission are
                                                               ■■   Developing and implementing the CFTC’s Property
responsible for ensuring that effective controls are imple-
                                                                    Management Information System to record and
mented in their areas of responsibility. Individual assur-
                                                                    monitor the agency’s assets; and
ance statements from division and office heads serve as a
primary basis for the Chairman’s assurance that manage-        ■■   Participating in the U.S. Department of Transportation’s
ment controls are adequate. The assurance statements are            (DOT) annual review on system security controls over
based upon each office’s evaluation of progress made in             Delphi, which was conducted in compliance with the
correcting any previously reported problems, as well as             American Institute of Certified Public Accountants’
new problems identified by the OIG, GAO, other manage-              Statement on Auditing Standards (SAS) 70.
ment reports, and the management environment within
each office.
                                                               Summary of Material Weaknesses (FMFIA § 2)
Commission organizations that have material weaknesses
are required to submit plans for correcting those weak-        In FY 2008, the Commission has no declared material
nesses. The plans, combined with the individual assurance      weaknesses under FMFIA in the area of financial reporting
statements, provide the framework for continually moni-        that hinders preparation of timely and accurate financial
toring and improving the Commission’s management and           statements. The Commission did not declare any material
internal controls. The agency strengthened internal controls   weaknesses in FY 2007.
during FY 2008 by addressing the following:

■■   Implementing pay and benefits authority under Section     Summary of Non-Conformances (FMFIA § 4)
     10702 of the Public Law 107-171, Farm Security and        During FY 2008 and FY 2007, the Commission declared
     Rural Invest Act of 2002;                                 that no systems were in nonconformance under FMFIA.

■■   Meeting information security requirements under           The independent auditors’ report for FY 2008 and FY 2007

     the Federal Information Security Management Act           disclosed no instances of noncompliance or other matters

     (FISMA);                                                  that were required to be reported under Government Audit
                                                               Standards and OMB Bulletin 07-04, Audit Requirements for
■■   Remediating a significant deficiency identified in the    Federal Financial Statements.
     FY 2007 independent auditor’s report of the agency’s
     financial statements and related internal controls;




36      CFTC
             Forward Looking –
      Future Business Trends and Events

T         he futures industry has undergone enormous
          growth and change during the last 20 years from
the products that are traded to the platforms on which they
                                                                to effectively oversee today’s larger and more complex
                                                                markets.

                                                                Without a staffing increase, Commission efforts will be
are traded. As the Commission looks ahead, it expects that
                                                                scaled back to the extent increased productivity cannot
technology, globalization, and innovation will continue to
                                                                offset resource deficits. As noted in the discussion of the
drive growth in the markets it regulates. Due to the current
                                                                net cost of operations, the Commission attempts to balance
economic stress, Congress may examine and consider
                                                                its investment in four strategic goals, each focusing on a
revising the existing regulatory structures of the financial
                                                                vital area of regulatory responsibility. To continue to be an
services sector. The Commission and the entities within its
                                                                effective regulator, the Commission will need to place
oversight could be affected by such Congressional action.
                                                                greater reliance on risk management. It will also need to
During this period of rapid change, the Commission              continue to leverage systems and data maintained by other
expects to continue losing many experienced career staff,       Federal agencies and, where possible, by SROs.           The
primarily through retirement.       During FY 2006, the         Commission will also need to confront the jurisdictional
Commission experienced its first wave of these retirements.     challenges created by innovation and the expansion of
From a resources perspective, the Commission has strug-         futures and option markets on a worldwide basis. These
gled to operate at the level needed to do the job expected      challenges coupled with a wide array of new surveillance
of it by Congress, the Administration, and the public. The      issues, are expected to significantly change the way the
Commission has found itself repeatedly having to make           Commission uses and allocates resources across its perfor-
difficult choices about how to use its limited resources to     mance goals.
fulfill its statutory mission.
                                                                Technology
During FY 2008, the Commission was able for the first
                                                                ■■   Technology makes it possible for market participants
time in several years, to replenish its staff. The new hires,
                                                                     to trade globally 24 hours a day on a multitude of
while needed and welcomed, did not return the
                                                                     newly designed platforms. This presents a challenge
Commission to the peak staffing level it reached a number
                                                                     to the Commission to maintain a robust, yet flexible,
of years ago when the futures industry was smaller than it
                                                                     regulatory framework as market participants have an
is today. The Commission needs to continue to increase
                                                                     increasing number of choices available to them as to
staffing levels to counter attrition and to have staff needed
                                                                     where, when, and how to trade.




                                                                                                              CFTC       37
■■   The expansion of electronic trading requires an increase        forensics, and audio analytics technology is being
     in Commission staff trained to carry out oversight of           evaluated to further support the DOE’s investigation
     more technologically driven markets and self-regulatory         and litigation work. In addition, the Commission’s
     systems.                                                        attorneys began complying with court-mandated
                                                                     eDiscovery practices. The eLaw program will continue
■■   With electronic trading of commodity futures and
                                                                     to support the Commission’s legal practice in the areas
     option contracts on Commission-regulated exchanges
                                                                     of case planning, case management, litigation support,
     becoming the norm, the Commission must continue
                                                                     and document management.
     to upgrade its own technology and infrastructure
     in order to deter and prevent manipulation and             ■■   In FY 2009, the Commission will continue to maintain,
     other disruptions to the integrity of the markets the           support, and enhance the eLaw solution and consider
     Commission regulates.                                           expansion into other areas of the Commission that
                                                                     would benefit from the automated technology.
■■   The continuing shift of market volume to the electronic
     trading environment poses new data processing              ■■   The Commission continues to implement a new Trade
     challenges to the CFTC.        Because this medium              Surveillance System    (TSS), which replaces its older
     allows exchanges to gather and transmit much more               trade surveillance system. The old system was designed
     information about trading activity, the CFTC must               for open outcry trading and has not been significantly
     increase its capacity for processing and storage.    In         upgraded since its inception in the mid-1980s. TSS will
     addition to the significant increase in the amount of           give the Commission the ability to deter and prevent
     information transmitted to the CFTC, there has been             manipulation and other disruptions to the integrity of
     a large increase in the number of contracts traded.             the markets the Commission regulates. Specifically,
     To meet these challenges, the Commission’s Office               TSS will enhance staff’s ability to effectively detect and
     of Information and Technology Services (OITS) will              deter trade practice violations in a rapidly changing
     continue to improve its computational performance.              environment, especially with respect to electronic
     A variety of projects are underway that address specific        trading data. Trade violation detection software will
     CFTC business needs using the data and market                   perform sophisticated pattern recognition and data
     information the Commission receives.                            mining to automate basic trade practice surveillance, and
                                                                     detect novel and complex abusive practices in today’s
■■   Commission work continues on Project eLaw, an effort
                                                                     high-speed, high-volume global trading environment.
     that provides law office automation and modernization
                                                                     TSS also will fill a vacuum in inter-market surveillance
     to the Commission’s DOE, Office of the General Counsel
                                                                     that only the Commission can address, e.g., trading of
     (OGC), and Office of Proceedings. Project eLaw is a
                                                                     the same or similar contracts on different exchanges.
     Commission-wide initiative that seamlessly integrates
     technology and work processes to support managers          ■■   Technology improvements will continue to empower
     and staff across the Commission in their investigative,         the Commission by increasing the availability of its
     trial, and appellate work. In FY 2008, the eLaw program         most critical resource: time.      Through technology
     implemented several major enhancements.         A new           improvements, executive management may spend
     litigation support model was introduced to provide              additional time on policy analysis and decision-making
     attorneys and investigators with the maximum benefit            rather than on processing and compiling key data.
     from the new technology. Electronic trial support was           The Commission will increasingly leverage business
     implemented to support the trial teams in the new               processes, services, and systems of larger agencies for
     electronic court rooms. The case management solution            internal operations, while externally relying more
     (Practice Manager) continued to be customized to                on exchange databases when conducting reviews and
     further meet the needs and evolving requirements                investigations.
     of the users.   Advancement continued in computer




38      CFTC
                                                                        M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Globalization                                                     ■■   Expansion of these markets results in strong competition
                                                                       for employees with the skills the Commission requires
■■   The futures and option markets continue to become
                                                                       to meet its mission, continually challenging the agency
     more globalized through electronic linkages and
                                                                       to offer competitive compensation.
     strategic alliances and mergers. The Commission has
     received an increasing number of requests to participate
                                                                  Government
     in U.S. government initiatives with economically
     important jurisdictions and to provide technical             ■■   Congress could pass new legislation impacting the
     assistance to developing markets. The agency requires             markets and the role of the Commission.
     additional experienced staff to meet these demands.
                                                                  ■■   Congress might require an investigation of certain
■■   In an integrated global marketplace, market disruptions           markets.
     in one jurisdiction could result in global market systemic
                                                                  ■■   Congress might not appropriate adequate funds for
     concerns. The trading of economically linked contracts
                                                                       the Commission to effectively discharge its statutorily-
     in different jurisdictions raises significant surveillance
                                                                       mandated and mission-critical functions.
     issues. Because no one regulator will have all of the
     needed information or jurisdiction over markets, firms,      ■■   Prompt implementation of enhanced E-Government
     and persons to ensure customer and market protections,            business processes is a continual challenge with limited
     the Commission’s challenge will be to coordinate with             staff and financial resources.
     global regulators.
                                                                  Human Capital
Marketplace
                                                                  ■■   The agency continues to emphasize the strategic
■■   Development and growth of renewable energy sources                management of human capital, building the staff
     (i.e., biofuels) could impact existing energy markets.            resources necessary to support its mission by planning
                                                                       for the competencies required, leveraging existing
■■   Disruption of oil exports to the United States may
                                                                       resources, and making effective use of contractor
     disrupt energy markets.
                                                                       support.
■■   A significant portion of the power grids may be disabled
                                                                  ■■   Competition to hire and retain staff is intense in a job
     for an extended period of time, crippling markets.
                                                                       market where scarce mission-critical skills command
■■   Changes in the structure of the futures and options               premium compensation levels. Even at “pay parity”
     industry, such as the conversion of exchanges from                salaries, the Commission must continually seek to
     member-owned entities to publicly-owned corporations,             improve the work environment so it can attract,
     exchange mergers, and the introduction of new                     engage, and retain a workforce that is equal to the
     derivative contracts will mean that the Commission                evolving challenges of market oversight and customer
     will require more staff to review novel and increasingly          protection.
     complex legal and regulatory issues.
                                                                  Management
■■   Convergence of products and markets and new
     Congressional grants of anti-manipulation authority          ■■   Compliance with the future demands and uncertainties
     requires increased interagency coordination with                  of Homeland Security Presidential Directives 12 and 20,
     the SEC, FTC, and the Federal Energy Regulatory                   as well as Pandemic Influenza preparedness, requires
     Commission. This coordination can address areas of                additional management and staff focus to ensure
     mutual interest related to cross-jurisdictional issues,           that the agency is ready to continue mission essential
     such as those presented by credit event products,                 functions in an emergency.
     commodity exchange-traded funds, and potential
     manipulation in the energy markets.


                                                                                                                    CFTC         39
Inspector General’s FY 2008 Assessment

                                U.S. COMMODITY FUTURES TRADING COMMISSION
                                                     Three Lafayette Centre
                                          1155 21st Street, NW, Washington, DC 20581
                                                  Telephone: (202) 418-5110
                                                   Facsimile: (202) 418-5522



           Office of the
        Inspector General



                                                 MEMORANDUM


             TO:             Walter Lukken
                             Acting Chairman

             FROM:           A. Roy Lavik
                             Inspector General

             DATE:          NNovember 14, 2008

             SUBJECT:        Inspector General’s Assessment Of The Most Serious Management
                             Challenges Facing the Commodity Futures Trading Commission (CFTC,
                             Agency)


            Introduction

            The Reports Consolidation Act of 2000 (RCA) authorizes the CFTC to provide financial and
            performance information in a more meaningful and useful format for Congress, the President,
            and the public, through publication of the Performance and Accountability Report (PAR). The
            RCA requires the Inspector General to summarize the “most serious” management and
            performance challenges facing the CFTC and to assess the CFTC’s progress in addressing those
            challenges, all for inclusion in the PAR. This memorandum fulfills our duties under the RCA.

            In order to identify and describe the most serious management challenges, as well as the CFTC’s
            progress in addressing them, we have relied on data contained in the CFTC financial statement
            audit and PAR, as well as our knowledge of industry trends and CFTC operations. Since
            Congress left the determination and threshold of what constitutes a most serious challenge to the
            discretion of the Inspector General, we applied the following definition in preparing this
            statement:

            Serious management challenges are mission critical areas or programs that have the potential for
            a perennial weakness or vulnerability that, without substantial management attention, would
            seriously impact Agency operations or strategic goals.

            This memorandum summarizes the results of the CFTC’s current financial statement audit,
            describes the Agency’s progress on last year’s management challenges, and finally discusses the




40   CFTC
                                                                 M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




most serious management challenges that we have identified: Modernization of Electronic
Market Surveillance, and Efficient Acquisition and Integration of Skilled Human Capital.

CFTC Financial Statement Audit Results

In accordance with the Accountability of Tax Dollars Act, CFTC, along with numerous other
federal entities, is required to submit to an annual independent financial statement audit by the
Inspector General, or by an independent external auditor as determined by the Inspector General.
In 2004, the Office of the Inspector General (OIG) selected KPMG LLP, an independent public
accounting firm, to conduct the required audit. Since then, KPMG LLP has annually conducted
an audit of the CFTC’s financial statements on the OIG’s behalf and has rendered an opinion on
the statements. The results of the KPMG audit are discussed in the PAR, and I am pleased to
state that, for fiscal year 2008, the financial statement audit resulted in an unqualified audit
opinion.

CFTC’s Progress on Last Year’s Challenges

Last year we identified the two most serious management challenges: Modernization of
Electronic Market Surveillance, and Expansion of CFTC Oversight into New Markets. Events in
2008 have reinforced our prior assessment of the serious management challenges facing the
CFTC. During the past year, the Agency has expended approximately $11 million dollars (more
than 10% of its FY 2008 budget) to update its antiquated electronic surveillance systems. In
addition Congress, with the passage of the Farm Bill in May 2008,1 codified and expanded the
Agency’s responsibilities over the Exempt Commercial Market with Significant Price Discovery
Contracts (ECM-SPDC). The passage of this legislation addressed the FY 2008 Assessment of
the Agency’s Most Serious Management Challenges. Nonetheless, we remain concerned about
two areas that are an extension of last year’s Management Challenges.

Most Serious Management Challenges for Fiscal Year 2009

During the past year, the industry has continued its inexorable march towards a completely
electronic marketplace. For example, the Minneapolis Grain Exchange will close its trading
floor on December 19, 2008. Thus, we will restate our concern about Modernization of
Electronic Market Surveillance. Our second concern is the Efficient Acquisition and Integration
of Skilled Human Capital to address expanding Congressional mandates.

Modernization of Electronic Market Surveillance

Prices for exchange traded commodities directly affect the global economy. Effective market
surveillance techniques necessary to detect and prevent trading and price distortions are therefore
essential to the CFTC’s mission. While market surveillance has always been an integral part of
CFTC operations, the past years have witnessed the transformation of futures trading from an
open outcry trading floor based system to an electronic system. And in 2008, electronic trading

1
 The formal name of the Farm Bill is the “Food, Conservation, and Energy Act of 2008,” which is HR 2419. The
citation is Public Law 110-234, 122 Stat. 923. The CFTC Provisions are in Title XIII of the legislation, titled the
“CFTC Reauthorization Act of 2008.”


                                                          2




                                                                                                                  CFTC    41
            continued to expand, accounting for over 84%2of total exchange traded derivatives. This
            structural change demands that the Agency redefine its market surveillance techniques.

            Although the Agency has dramatically expanded its financial commitment to modernizing its
            electronic surveillance systems, we are not convinced that it has strategically evaluated its
            market surveillance mission. Thorough analysis of evolving oversight markets, mission and
            resources can enhance the development of updated surveillance techniques. Enhanced
            surveillance techniques, coupled with the efficient allocation of Agency resources, will serve the
            mission of protecting the financial marketplace against artificial prices for global commodities.

            Our review of the Agency’s fiscal year 2009 budget revealed that the Agency will increase its
            spending on information technology to nearly $26 million. We look forward to monitoring the
            Agency’s efforts in this area to assure that taxpayer funds will be prudently and efficiently
            allocated to protect the integrity of the marketplaces under the oversight of the CFTC.

            Efficient Acquisition and Integration of Skilled Human Capital

            Recent economic turbulence has stimulated an interest in applying the historically successful
            centralized clearing mechanism to the bilateral and complex swap markets. It has also stirred
            debate about the current financial market regulatory structure. Should Congress elect to assign
            the CFTC a specific oversight role for the financial swaps markets, we are skeptical that the
            Agency currently has the human capital sufficient to monitor these complex markets. Moreover,
            reorganization of the financial market regulators could result in additional challenges.

            Our evaluations of Congressional statements indicate that, presuming CFTC does not undergo
            significant change, the Agency may be allocated additional budgetary resources that may expand
            its full time equivalent (FTE) staff by nearly 23 percent over the fiscal year 2008 level of 448
            FTE. The complexity of the derivatives marketplace may demand reevaluation of existing hiring
            procedures (flexibility). It may also require astute evaluation of potential employees in order to
            develop a workforce that can significantly aid the Agency in addressing additional
            responsibilities granted by Congress and the significant complexity of the markets under CFTC
            oversight.

            We view the possibility of a dramatic increase in new employees, as well as the possible
            restructuring of the financial market regulatory agencies, as potentially significant management
            challenges.

            Conclusion

            This year’s activities in the derivatives markets have stimulated members of Congress, the
            Government Accountability Office, and average citizens all to increase their awareness of the
            CFTC. As a result, both the OIG and the Agency have received numerous requests for
            information and assistance. So far, this Office has responded to all the queries it has received

            2
              Electronic futures and options trading on all domestic exchanges accounted for 74% of trading volume during 2007
            (through August 2007), compared with 64% last year [2006]. Source: Inspector General’s Assessment Of The Most
            Serious Management Challenges Facing the Commodity Futures Trading Commission (CFTC) November 15, 2007.


                                                                    3




42   CFTC
                                                      M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




with fact based and independent analyses that seek to address all concerns posed by these and
other stakeholders. In fiscal year 2009, we look forward to additional questions and stand ready
to offer an independent assessment of the operational status of the Agency. The OIG takes its
mission and authority seriously and remain committed to promote integrity, accountability and
transparency at the CFTC.




                                                4




                                                                                                  CFTC         43
    PERFORMANCE SECTION




Introduction to the Performance Section.................45

Strategic Goal One: Economic Vitality...................46

Strategic Goal Two: Market Users and Public.........56

Strategic Goal Three: Industry...............................74

Strategic Goal Four: Organizational Excellence....... 91
Introduction to the Performance Section


  This section includes details of Commission efforts to meet its strategic and

  performance goals. The Commission scrutinizes performance measures to

  ensure that the metrics adequately challenge the programs to reach the

  desired results, ensure accountability, and provide information that can be

  used to make financial decisions and develop future budgets.




  Photo above is of staff from the CFTC Headquarters located in Washington, D.C.
Strategic Goal One: Economic Vitality

     Goal One: Ensure the economic vitality of the commodity futures and option markets.




     Outcome Objective 1.1: Futures and option markets that accurately reflect the forces
     of supply and demand for the underlying commodity and are free of disruptive activity.
        n	   Annual Performance Goal 1.1: No price manipulation or other disruptive activities
             that would cause loss of confidence or negatively affect price discovery or risk
             shifting.


     Outcome Objective 1.2: Markets are effectively and efficiently monitored to ensure
     early warning of potential problems or issues that could adversely affect their economic
     vitality.
        n	   Annual Performance Goal 1.2: To have an effective and efficient market surveil-
             lance program.




46    CFTC
     Photo above is of staff from the CFTC Regional Office located in Chicago.
                                                               P E RF O R M A N C E S E C T I O N




  Performance Measure 1.1.1 Percentage growth In market volume.




    Measurement: Percentage
    Status:         Effective
    Data Source:    Exchange’s Trading
                    Volume Data.
    Verification:   Exchange Data compared
                    to Futures Industry
                    Association (FIA) Report.




Lead Program Office                                       Performance Highlights
Division of Market Oversight (DMO)                        Growth in the volume and complexity of trading in energy
                                                          futures markets, including trading in related OTC and
                                                          foreign markets, has been met by expanded data collec-
Performance Analysis & Review                             tion, enhanced IT capabilities, more detailed analyses of
Growth in the futures markets continued in FY 2008 with   transaction data, reassignment of current economists to
increased demand for products traded on the exchanges.    energy market surveillance, and additional hires of econo-
The actual FY 2008 number is driven by changes in         mists for energy market surveillance.
economic fundamentals, success of newly launched
products, the number of new participants using these
markets, and other changes in the marketplace.




                                                                                                     CFTC       47
  Performance Measure 1.1.2 Percentage of novel or innovative proposals or requests for CFTC action
  addressed within six months to accommodate new approaches to, or the expansion in, derivatives trading, enhance the
  price discovery process, or increase available risk management tools.




     Measurement: Percentage
     Status:         Effective
     Data Source:    Formal filings and signed
                     letter responses by the
                     Commission.
     Verification:   Formal filing and
                     disposition dates
                     maintained in internal
                     tracking system.




Lead Program Office                                           Performance Highlights
Division of Market Oversight                                  DMO was responsible for two particular actions that
                                                              dramatically increased the availability of risk-management
                                                              tools. On August 20, 2008, DMO issued a no-action relief
Performance Analysis & Review                                 letter to the Oslo-based Nord Pool ASA to make its elec-
DMO handled a number of proposals or requests for             tronic trading and order matching system available to Nord
Commission action during the fiscal year that included        Pool members in the United States and U.S. customers that
newer approaches to derivatives trading or enhancements       qualify as eligible contract participants (as defined in
to the price-discovery process. The items, which included     Section 1a (12) of the CEA) without obtaining contract
innovative products and exchange processes, were all          market designation or registration as a derivatives transac-
addressed within six months of formal receipt.                tion execution facility (DTEF) pursuant to Sections 5 and
                                                              5a of the Act. The relief letter enabled U.S.-based traders to
                                                              directly access Nord Pool’s products, including various
                                                              electricity and carbon-based futures and options contracts.

                                                              DMO also issued on September 26, 2008 a similar
                                                              no-action relief letter to Bovespa S.A.—Bolsa de Valores,
                                                              Mercadorias e Futuros (BM&F), a Sao Paolo, Brazil-based
                                                              futures exchange.    BM&F received permission to allow
                                                              direct access by its U.S.-based trading members to trade
                                                              various agricultural, metal currency and equity under
                                                              futures products.




48       CFTC
                                                                            P E RF O R M A N C E S E C T I O N




  Performance Measure 1.1.3 Percentage increase in number of products traded.




    Measurement: Percentage
    Status:         Effective
    Data Source:    Exchanges submit data on
                    trading volume, open
                    interest, delivery notices,
                    exchange of futures and
                    prices for all products
                    traded.
    Verification:   Data is validated by internal
                    program edits and quality
                    checks in central database.




Lead Program Office                                                    Performance Highlights
Division of Market Oversight                                           The number of products traded grew by approximately
                                                                       11.4 percent in FY 2008, as futures innovation of energy
                                                                       products, security futures products (SFPs), and weather
Performance Analysis & Review                                          derivative products continued at a rapid pace.
The growth in the number of new products offered on the
exchanges continued in FY 2008.                   The actual FY 2008
number is driven by customer demand for new products,
exchange innovation, opportunities made available by the
increasing use of electronic trading, and other changes in
the marketplace. As such, these factors may not be foresee-
able with high precision.




                                                                                                                   CFTC    49
  Performance Measure 1.1.4 Percentage of new exchange or clearinghouse organization applications
  completed within expedited review period.




  Measurement: Percentage
  Status:         Effective
  Data Source:    New exchange(s) and DCO
                  application(s).
  Verification:   Filings and Actions automated
                  database tracks and calculates
                  processing time from receipt
                  date through to date of
                  designation or registration.
                  Agency files containing
                  applications, staff reviews,
                  memoranda to the Commis-
                  sion, and proposed Orders.




                                                              Performance Highlights
Lead Program Offices
                                                              DMO staff reviewed several draft filings by applicants,
Division of Clearing and Intermediary Oversight
                                                              including one that stayed its application, and also provided
Division of Market Oversight                                  responsive feedback to other entities working on draft
                                                              applications.

Performance Analysis & Review
The normal processing time for an application is 90 days.
DMO staff reviewed one DCM application in less than 90
days.   Two DCO applications were filed in the fourth
quarter of FY 2008, therefore, staff reviews of the two DCO
applications will not be completed until FY 2009.




50      CFTC
                                                                      P E RF O R M A N C E S E C T I O N




  Performance Measure 1.1.5 Percentage of new contract certification reviews completed within three months to
  identify and correct deficiencies in contract terms that make contracts susceptible to manipulation.




    Measurement: Percentage
    Status:         Effective
    Data Source:    Exchange certification
                    filings, certified rule
                    amendments, and agency
                    memoranda.
    Verification:   Filings and Actions
                    automated database
                    tracks and calculates
                    processing time from
                    receipt date through to
                    date of designation or
                    registration.




Lead Program Office                                              10 Northeastern and Mid-Atlantic States designed to reduce
                                                                 greenhouse gas emissions from power plants. The Chicago
Division of Market Oversight                                     Mercantile Exchange certified a futures contract based on
                                                                 the three-month Overnight Index Swap that is designed to
Performance Analysis & Review                                    closely replicate OTC swap contracts.        It is reasonable to
                                                                 expect that exchanges will continue to introduce novel and
In FY 2008, as in the previous fiscal year, an unusually large   complex products in the future.
proportion of new contract certifications concerned
weather indexes and SFPs. Those contracts typically are
easier to review than other contracts and, thus, the             Performance Highlights
percentage of completed reviews for contracts certified in
                                                                 Commission staff: 1) completed reviews of nearly 600 new
FY 2008 was significantly higher than anticipated.
                                                                 contract certifications, 2) approved one commodity-based
U.S. exchanges continued to innovate in FY 2008.                 ETF SFP, 3) identified several exchange-certified SFPs
OneChicago requested approval of a SFP based on the              that were based on securities that failed to meet listing
streetTracks Gold Trust exchange traded fund (ETF). This         standards, and 4) identified contract design flaws in several
contract raised issues with respect to the jurisdictional        other contracts. In addition, Commission staff completed
boundary between the CFTC and the SEC. The New York              economic reviews of 20 foreign stock index futures
Mercantile Exchange and the Chicago Climate Exchange             contracts   to   ensure   that   the      contracts   meet   the
expanded their product lines of pollution allowances,            Commission’s cash-settlement price standards, are not
including contracts based on the Regional Greenhouse Gas         readily susceptible to manipulation, and are based on
Initiative (RGGI). RGGI is a cap-and-trade program among         broad-based stock indexes.




                                                                                                                  CFTC        51
  Performance Measure 1.1.6 Percentage of rule change certification reviews completed within three months, to
  identify and correct deficiencies in exchange rules that make contracts susceptible to manipulation or trading abuses or
  result in violations of law.




     Measurement: Percentage
     Status:         Effective
     Data Source:    Exchange certification
                     filings and agency
                     memoranda.
     Verification:   Filings and Actions
                     automated database
                     tracks and calculates
                     processing time from
                     receipt date through to
                     date of designation or
                     registration.




Lead Program Office                                              Performance Highlights
Division of Market Oversight                                     Commission staff completed reviews of 119 product
                                                                 rule amendments and 224 substantive trading rule
                                                                 amendments.
Performance Analysis & Review
The percentage of trading rule amendment certification
reviews completed within three months of receipt by the
Commission increased slightly over last year. This increase
in performance is mainly due to the support this year of a
temporary intern.

In spite of DMO’s accomplishments, for much of FY 2008
the Division was understaffed relative to the volume of
reviews it is required to accomplish. At times completion
of certain rule amendment reviews, for example, those
regarding contracts with very low trading volume, was
delayed to allow staff to focus on more important matters,
such as rule changes that created less risk to the markets. It
is unlikely, given the submission of complex contracts and
multifaceted trading rule submissions, and in light of the
additional review responsibilities included in the Farm
Bill, that performance will improve in the absence of
increased staffing.




52       CFTC
                                                                                   P E RF O R M A N C E S E C T I O N




    Performance Measure 1.2.1 Percentage of derivatives clearing organization applications demonstrating
    compliance with CFTC Core Principles.




     Measurement: Percentage
     Status:         Results Not Demonstrated
     Data Source:    DCO applications(s) for
                     registration.
     Verification:   Agency files containing
                     applications, staff reviews,
                     memoranda to the
                     Commission, and
                     proposed Orders.




Lead Program Office                                                          Performance Highlights
Division of Clearing and Intermediary Oversight                              None to report.



Performance Analysis & Review
Two DCO applications were filed in the fourth quarter of
FY 2008. The normal processing time for a DCO applica-
tion is 90 days. Therefore, staff reviews of the two DCO
applications will not be completed until FY 2009.
Consequently, data is insufficient to evaluate performance
this fiscal year.




	 No applications for registration as a DCO were received in FY 2006 or FY 2007.
9




                                                                                                                        CFTC   53
  Performance Measure 1.2.2 Ratio of contracts surveilled per economist.




     Measurement: Ratio
     Status:         Adequate
     Data Source:    Exchanges submit data to
                     the Commission on all
                     traded contracts, which
                     are maintained in the
                     Commission’s database.
     Verification:   Data is validated by
                     internal program edits and
                     quality checks in central
                     database.




Lead Program Office                                            Performance Highlights
Division of Market Oversight                                   The ratio of contracts surveilled per economist is too high
                                                               to ensure full surveillance coverage of all futures markets.
                                                               The efficiency and productivity of surveillance economists
Performance Analysis & Review                                  are very high, but they are being stretched too thin, with
The target ratio of contracts surveilled per economist is      consequential effects on the adequacy of surveillance
above ideal levels. For this reason, an “Adequate” Status of   coverage for some markets.
Performance Result has been selected in spite of the fact
that the actual number of contracts surveilled per econo-
mist did meet expectations. To increase the efficiency of
DMO’s surveillance efforts, similar contracts on the same
underlying commodity are generally analyzed together.
Even though the number of contracts increased during the
year, the increase was mostly due to additional products
on existing commodities. These additional products may
not materially add to the economists’ surveillance burden.
Thus, they were not counted as distinct contracts for the
purpose of arriving at the relevant ratio.




54       CFTC
                                                                                         P E RF O R M A N C E S E C T I O N




      Performance Measure 1.2.3 Percentage of contract expirations without manipulation.




        Measurement: Percentage
        Status:         Effective
        Data Source:    Surveillance reports and
                        large trader position
                        reports.
        Verification:   Economists daily track
                        and monitor futures
                        expirations and economic
                        fundamentals.




Lead Program Office                                                               Performance Highlights
Division of Market Oversight                                                      Surveillance of energy markets has been the greatest chal-
                                                                                  lenge during FY 2008.           During this year, DMO has
                                                                                  enhanced its data collection, information processing, and
Performance Analysis & Review                                                     surveillance analyses to keep pace with the rapidly growing
This measurement examines the number of contract expi-                            and changing energy markets. Special calls were issued to
rations without manipulation compared to the total                                IntercontinentalExchange to obtain daily large trader
number of futures and option expirations.                         The total       reports on this OTC market. DMO started to receive and
number of expirations may vary throughout the year as                             analyze daily NYMEX transaction data to detect possible
different contracts enter and exit the market.                                    manipulative schemes. Software enhancements were made
                                                                                  to Integrated Surveillance System10 (ISS) to better display
                                                                                  and analyze positions in deferred futures months.




10
     	Refer to the CFTC Information Technology Systems in the Appendix for a description of functionality.




                                                                                                                               CFTC      55
Strategic Goal Two: Market Users and Public

       Goal Two: Protect market users and the public.




       Outcome Objective 2.1: Violations of Federal commodities laws are detected and
       prevented.
          n	   Annual Performance Goal 2.1: Violators have a strong probability of being
               detected and sanctioned.


       Outcome Objective 2.2: Commodity professionals meet high standards.
          n	   Annual Performance Goal 2.2: No unregistered, untested, or unlicensed
               commodity professionals.


       Outcome Objective 2.3: Customer complaints against persons or firms registered
       under the Act are handled effectively and expeditiously.
          n	   Annual Performance Goal 2.3: Customer complaints are resolved within one
               year from the date filed and appeals are resolved within six months.




  56   CFTC
       Photo above is of staff from the CFTC Regional Office located in New York.
                                                                              P E RF O R M A N C E S E C T I O N




  Performance Measure 2.1.1 Number of enforcement investigations opened during the fiscal year.




       Measurement: Number
       Status:         Effective
       Data Source:    Agency documentation
                       and reports maintained in
                       the Practice Manager
                       litigation management
                       system.
       Verification:   Internal reports on
                       investigations and
                       litigation documented and
                       maintained in internal
                       Enforcement systems.




Lead Program Office                                                     Performance Highlights
Division of Enforcement                                                 Although the Commission ordinarily conducts enforce-
                                                                        ment investigations on a confidential basis, in light of the
                                                                        unprecedented market conditions during FY 2008, the
Performance Analysis & Review                                           Commission took the unusual step of publicly disclosing
DOE met the performance target for FY 2008. Commencing                  the existence of several ongoing investigations of market
in 2002, the complexity of Commission’s investigations                  misconduct including:
has increased substantially over prior fiscal years (e.g., the
                                                                        ■■   Silver Market Investigation. In September 2008, the
Commission’s investigation of alleged energy market
                                                                             Commission confirmed that DOE has been investi-
manipulation). As a result of these investigations, the
                                                                             gating complaints of misconduct in the silver market.
complexity of the Commission’s cases filed and litigated
also      has     increased        substantially   since   FY   2002.   ■■   Cotton Futures Market Investigation. In June 2008, the
The Commission’s FY 2008 Plan target for this perfor-                        Commission announced that DOE has been conducting
mance measure took into account both these factors and                       an ongoing investigation of the February/March 2008
DOE’s FTE constraints.                 Despite these factors and             price run-up in the cotton futures markets.
constraints, the Commission exceeded its target for this
                                                                        ■■   National Crude Oil Investigation. In May 2008, the
performance measure, in part due to the unprecedented
                                                                             Commission announced that in December of 2007,
market conditions during FY 2008.
                                                                             DOE launched a nationwide crude oil investigation
                                                                             into practices surrounding the purchase, transporta-
                                                                             tion, storage, and trading of crude oil and related deriv-
                                                                             ative contracts.

                                                                        The specifics of these ongoing investigations remain confi-
                                                                        dential. All Commission enforcement inquiries are focused
                                                                        on ensuring that the markets are properly policed for
                                                                        manipulation and abusive practices.




                                                                                                                       CFTC        57
     Performance Measure 2.1.2 Number of enforcement cases filed during the fiscal year.




       Measurement: Number
       Status:         Effective
       Data Source:    Agency documentation and
                       reports maintained in the
                       Practice Manager litigation
                       management system.
       Verification:   Final complaints for each
                       litigation are recorded in
                       internal Enforcement system
                       and made public via the
                       Commission’s Web site.




Lead Program Office                                                            (Christopher Dowson (head trader of Optiver), Randal
                                                                               Meijer (head of trading and supervisor of Optiver and
Division of Enforcement                                                        Optiver VOF) and Bastiaan van Kempen (Chief
                                                                               Executive Officer of Optiver)) with manipulation and
Performance Analysis & Review                                                  attempted manipulation of NYMEX Light Sweet Crude
                                                                               Oil, New York Harbor Heating Oil, and New York
DOE met the performance target for FY 2008. Commencing                         Harbor Gasoline futures contracts during March 2007.
in 2002, the complexity of Commission investigations has                       The complaint further charges Optiver and van Kempen
increased substantially over prior fiscal years (e.g., the                     with concealing the manipulative scheme and making
Commission’s investigation of alleged energy market                            false statements in response to an inquiry from NYMEX.
manipulation).          As a result of these investigations, the               CFTC v. Optiver US, LLC, No. 08 CIV 6560 (S.D.N.Y.
complexity of the Commission’s cases filed and litigated                       filed July 24, 2008)
also      has     increased        substantially     since   FY   2002.
The Commission’s FY 2008 Plan target for this perfor-                     ■■   In re Kelly
mance measure took into account both these factors and                         On October 25, 2007, the Commission found that Paul
the Division’s FTE constraints.                                                K. Kelly, a former gasoline trader for British Petroleum
                                                                               (BP) Products North America Inc. attempted to manip-
                                                                               ulate the price spread between the November and
Performance Highlights
                                                                               December 2002 NYMEX unleaded gasoline futures
Among the significant enforcement actions filed by the                         contracts traded on October 31, 2002, the last day of
Commission during FY 2008 are the following:                                   trading for the November 2002 unleaded gasoline
                                                                               futures contract. Sanctions assessed included a civil
■■    CFTC v. Optiver US, LLC
                                                                               monetary penalty ($400,000), and an order to comply
      On July 24, 2008, the Commission charged Optiver                         with certain undertakings, including not applying for
      Holding BV, two of its subsidiaries (Optiver US, LLC                     registration with the Commission. In re Kelly, CFTC
      (Optiver) and Optiver VOF), and three employees                          Docket No. 08-01 (CFTC filed Oct. 25, 2007)




58         CFTC
                                                                       P E RF O R M A N C E S E C T I O N




■■   CFTC v. Lake Shore Asset Management Limited                 ■■   In re MF Global Inc.

     On February 19, 2007, the Commission charged Philip              On December 26, 2007, the Commission found that
     J. Baker and the companies he controlled, registered             MF Global Inc. (MFG), a registered FCM, and Thomas
     CPO and CTA Lake Shore Asset Management Limited,                 Gilmartin, a registered AP of MFG, committed supervi-
     the Lake Shore Group of Companies Inc., Ltd., Hanford            sion and record-keeping violations arising out of their
     Investments Ltd., and at least 12 commodity pools                mishandling of hedge fund accounts that were carried
     controlled by Baker, which operated as a common                  by MFG and managed by Paul Eustace and the
     enterprise under variations of the name Lake Shore               Philadelphia Alternative Asset Management Company,
     Alternative Financial Asset Fund; alleging that the              LLC (PAAM) that sustained net losses of approximately
     defendants defrauded hundreds of commodity pool                  $133 million.      Sanctions assessed included civil
     participants who collectively invested at least $300             monetary penalties (MFG $2 million; and Gilmartin
     million to trade commodity futures contracts on U.S.             $250,000), and an order that Gilmartin comply with
     futures markets. CFTC v. Lake Shore Asset Management             certain undertakings, including agreeing to never apply
     Limited, No. 07 C 3598 (N.D. Ill. amended Feb. 19,               for registration or claim exemption from registration
     2007)                                                            with the CFTC in any capacity. In re MF Global Inc.,
                                                                      CFTC Docket No. 08-02 (CFTC filed Dec. 26, 2007)
■■   CFTC v. Hudgins
                                                                 ■■   In re Karvellas
     On May 13, 2008, the Commission charged George D.
     Hudgins with fraud in connection with his operation              On April 8, 2008, the Commission found that Steven
     of a commodity pool, which traded exchange-traded                Karvellas, a registered floor broker and former board
     commodity futures and option contracts. Hudgins’s                member of the NYMEX, diverted profitable NYMEX
     false representations included a declaration that the            natural gas futures trades that had been filled for
     pool had an investment portfolio of approximately                customers to his own account and also found that
     $80 million, when, in fact, the net value of the accounts        Karvellas ordered the destruction of an order ticket to
     associated with the pool was negative $100,199.38; i.e.,         conceal his involvement in the scheme.       Sanctions
     the accounts were operating at a loss; the accounts              included a cease and desist order, permanent trading
     associated with the pool suffered losses of more than            ban, order to never apply for registration with the
     $25 million from 2005 through 2007. CFTC v. Hudgins,             Commission, and a $375,000 civil monetary penalty.
     No. 608CV187 (E.D. Tex. filed May 13, 2008)                      In re Karvellas, CFTC Docket No. 08-08 (CFTC filed
                                                                      April 8, 2008)
■■   CFTC v. Sentinel Management Group, Inc., et al.

     On April 28, 2008, the Commission charged registered
     FCM Sentinel Management Group, Inc. and its presi-
     dent and chief executive officer, Eric A. Bloom, and
     former senior vice-president, Charles K. Mosley, with
     fraud and segregation violations involving their
     handling of $562 million in commodity customer
     segregated funds. CFTC v. Sentinel Management Group,
     Inc., et al., No. 08CV2410 (N.D. Ill. filed April 28,
     2008)




                                                                                                              CFTC       59
      Performance Measure 2.1.3 Percentage of enforcement cases closed during the fiscal year in which the
      Commission obtained sanctions (e.g. civil monetary penalties, restitution and disgorgement, cease and desist orders,
      permanent injunctions, trading bans, and registration restrictions).




      Measurement: Percentage
      Status:         Effective
      Data Source:    Agency documentation and
                      reports maintained in the
                      Monthly Status Report,
                      Practice Manager litigation
                      management system,
                      Commission Proceedings
                      Bulletin, and press releases.
      Verification:   Final orders for each litigation
                      recorded in internal Enforce-
                      ment system.




Lead Program Office                                                              Performance Highlights
Division of Enforcement                                                          Among the significant enforcement actions filed by the
                                                                                 Commission during FY 2008 are the following:

Performance Analysis & Review                                                    ■■   CFTC v. BP Products North America Inc.

Performance target was almost met for FY 2008. During                                 On October 25, 2007, the court approved a consent
the FY 2008, DOE closed a total of 66 enforcement cases.                              order of permanent injunction and other relief settling
In all but two of these closed cases, the Commission                                  charges brought by the Commission against BP for
obtained sanctions (e.g., civil monetary penalties, restitu-                          manipulating and attempting to manipulate the price
tion and disgorgement, cease and desist orders, permanent                             of TET propane in February 2004, for cornering the
injunctions, trading bans, and registration restrictions)                             market for TET propane in February 2004, and for
against one or more of the respondents/defendants.                                    attempting to manipulate the price of TET propane in
The two cases closed without sanctions involved adverse                               April 2003. The consent order requires that BP pay a
rulings on the Commission’s jurisdiction over certain forex                           $125 million civil monetary penalty to the CFTC,
transactions. The recent legislation reauthorizing the CFTC                           establish a compliance and ethics program, and install
provides the agency with enhanced authority with respect                              a monitor to oversee BP’s trading activities in the
to off-exchange retail foreign currency.                                              commodities markets. The consent order also recog-
                                                                                      nizes the payment of approximately $53 million by BP
Staff are required to submit all final orders for each litiga-
                                                                                      into a restitution fund for victims. CFTC v. BP Products
tion as part of closing activities for their files. These orders
                                                                                      North America Inc., No. 06-C-3503 (N.D. Ill.)
are recorded in internal Enforcement systems (Practice
Manager).




11
     	This performance result was misstated as 100 percent in the FY 2007 Performance and Accountability Report; rather, of the 63 enforcement actions
      closed during FY 2007, one enforcement action was closed without sanctions due to an adverse trial court ruling on factual grounds, which decreased
      results to 98 percent.




60           CFTC
                                                                         P E RF O R M A N C E S E C T I O N




■■   CFTC v. Energy Transfer Partners, L.P., et al.                ■■   CFTC v. Eustace, et al.

     On March 17, 2008, the court entered an order settling             On August 13, 2008, the court ordered Eustace to pay
     charges against Energy Transfer Partners, L.P. (ETP) and           more than $279 million in restitution and a $12 million
     three ETP subsidiaries (Energy Transfer Company,                   civil penalty in this commodity pool fraud action.
     Houston Pipeline Company, and ETC Marketing, Ltd.).                The court also ordered PAAM to pay restitution of approx-
     The defendants were charged with attempting to                     imately $276 million, subject to offset by prior disburse-
     manipulate natural gas prices at the Houston Ship                  ments and payments by Eustace, and a $8.8 million civil
     Channel (HSC) delivery hub from September 2005 to                  monetary penalty. At the outset of the litigation, the
     early December 2005. Sanctions assessed included a                 CFTC’s action froze all the assets under the control of
     permanent injunction against all defendants and an                 PAAM and Eustace and preserved more than $70 million
     order that they pay, jointly and severally, a $10 million          for return to pool participants. The CFTC also obtained
     civil monetary penalty. CFTC v. Energy Transfer Partners,          the appointment of a receiver to recover and distribute
     L.P., et al., No. 3-07CV1301-K (N.D. Tex. filed July 26,           funds to defrauded participants. Through related receiv-
     2007, settled March 17, 2008)                                      ership litigation, an additional $96 million has been
                                                                        obtained to date for the benefit of defrauded pool partici-
■■   CFTC v. Equity Financial Group LLC, et al.
                                                                        pants. CFTC v. Eustace, et al., No. 05CV2973 (E.D. Pa.)
     On February 4, 2008, the Commission announced a
                                                                   ■■   CFTC v. FxTrade Financial, LLC
     judgment against CFTC defendants Robert W. Shimer,
     Vincent J. Firth, and Equity Financial Group LLC                   On October 18, 2007, the court issued a decision
     following a two-week trial that ended September 6,                 against Gordon Jack Vandeveld, a broker with FxTrade
     2007. The court ordered more than $8 million in sanc-              Financial, LLC (FxTrade), finding that he committed
     tions, including disgorgement of ill-gotten gains                  forex futures fraud. The court also issued an order of
     totaling $2,514,930 and payment of a civil monetary                default judgment and permanent injunction against:
     penalties totaling $5,529,900. The court found that                FxTrade; FxTrade principal Jeffrey A. Mischler; FxTrade
     the penalties were warranted by the egregious nature of            brokers Mary Jo Sibbitt and Ernst H. Behr; and Reverie
     the defendants’ roles in fraudulently soliciting millions          LLC. The court had earlier entered an order of default
     of dollars from investors in Shasta Capital Associates             judgment and permanent injunction against FxTrade
     for investment in Tech Traders, a fraudulently run                 principal and broker Lee N. Romano II after he failed
     commodity pool that routinely touted double-digit                  to participate in the pretrial process. With issuance of
     monthly gains trading commodity futures, when it                   these orders, the defendants in this CFTC anti-fraud
     actually lost millions of dollars. CFTC v. Equity Financial        forex action were ordered to pay collectively $9,946,000
     Group LLC, et al., No. 04 CV 1512 (D.N.J.)                         in monetary sanctions, which includes $9,120,000 in
                                                                        civil monetary penalties and $826,000, jointly and
                                                                        severally, in restitution to defrauded customers. CFTC
                                                                        v. FxTrade Financial, LLC, No. 04-2181 (W.D. Tenn.)




                                                                                                                   CFTC        61
  Performance Measure 2.1.4 Cases filed by other criminal and civil law enforcement authorities during the
  fiscal year that included cooperative assistance from the Commission.




  Measurement: Number
  Status:         Effective
  Data Source:    Cooperating authorities provide
                  notice to DOE of related civil
                  complaints, criminal information,
                  and indictments. Cooperative
                  enforcement matters are noted in
                  the Practice Manager litigation
                  management system.
  Verification:   Internal Enforcement system and
                  the U.S. Judiciary Public Access
                  to Court Electronic Records
                  Services Center.




Lead Program Office                                          Performance Highlights
Division of Enforcement                                      Among the significant enforcement actions filed by the
                                                             Commission during FY 2008 are the following:

Performance Analysis & Review                                ■■   CFTC v. BP Products North America Inc.

Performance target was met for FY 2008. The Commission            On October 25, 2007, in a filing related to the
believes that its performance in cooperative criminal and         Commission’s settlement of its charges against BP, the
civil enforcement was effective. During the rating period,        Criminal Division, Fraud Section of DOJ simultane-
the Commission continued to devote significant resources          ously filed an information and entered into a deferred
to cooperative enforcement with other criminal and civil          prosecution agreement with BP America Inc. based
law enforcement authorities. DOE’s performance, during            upon the same underlying conduct as the Commission
FY 2008, was influenced by the culmination of a joint             action. DOJ deferred prosecution agreement requires
effort by the Commission and the New York County                  BP America Inc. to pay a $100 million criminal penalty,
District Attorney’s Office (NYCDA) to investigate abusive         plus $25 million into a consumer fraud fund, as well as
trading practices on the NYMEX, which resulted in seven           payments to a restitution fund and installment of a
related criminal actions (see discussion in Performance           monitor. Accordingly, the total monetary sanction that
Highlights, below).                                               BP is required to pay to resolve the civil and criminal
                                                                  aspects of the unlawful conduct in the TET propane
                                                                  market is approximately $303 million. CFTC v. BP
                                                                  Products North America Inc., No. 06-C-3503 (N.D. Ill.)




62       CFTC
                                                                        P E RF O R M A N C E S E C T I O N




■■   CFTC v. Eustace, et al.                                           NYMEX resulting in a series of related civil and criminal
                                                                       actions. The Commission’s actions found violations
     On December 26, 2007, the Receiver ad litem for PAAM
                                                                       related to fraudulent trade allocations (Steven Karvellas,
     announced that he had settled his action against MFG
                                                                       Thomas Maloney, and Ryan Tremblay) and the
     and Gilmartin arising from the same misconduct as the
                                                                       improper disclosure of material, non-public NYMEX
     Commission’s action; the court entered the settlement
                                                                       information (Alvin Perez).       Based upon the same
     that requires MFG and Gilmartin to pay a total of $75
                                                                       misconduct, the NYCDA’s criminal actions charged
     million, consisting of $69 million for the benefit of the
                                                                       these individuals with violation of the Martin Act, a
     receivership estate, which the receiver manages on behalf
                                                                       New York State statute that prohibits, among other
     of investors in the funds traded by Eustace and PAAM;
                                                                       things, the fraudulent sale of commodities products
     $6 million to reimburse the estate for the litigation costs
                                                                       (Karvellas, Maloney, and Tremblay) and with the misde-
     of pursuing the claims against MFG and Gilmartin.
                                                                       meanor crime of Commercial Bribe Receiving in the
     CFTC v. Eustace, et al., No. 05CV2973 (E.D. Pa.)
                                                                       Second Degree (Perez). In re Karvellas, CFTC Docket
                                                                       No. 08-08 (CFTC filed Apr. 8, 2008); In re Maloney,
■■   In re Karvellas, In re Maloney, In re Tremblay, In re Rosenthal
                                                                       CFTC Docket No. 08-09 (CFTC filed Apr. 8, 2008); In re
     Collins Group, L.L.C., and In re Perez
                                                                       Tremblay, CFTC Docket No. 08-13 (CFTC filed Aug. 28,
     In an extensive cooperative law enforcement effort, in            2008); In re Rosenthal Collins Group, L.L.C., CFTC Docket
     FY 2008, the Commission and the NYCDA conducted                   No. 08-12 (CFTC filed Aug. 26, 2008); In re Perez, CFTC
     an investigation of abusive trading practices on the              Docket No. 08-11 (CFTC filed Aug. 26, 2008)




                                                                                                                 CFTC        63
  Performance Measure 2.2.1 Percentage of self-regulatory organizations that comply with CFTC Core
  Principles.




     Measurement: Percentage
     Status:         Effective
     Data Source:    Documentation from SROs
                     and FCMs under review,
                     agency reports, and files
                     from reviews and analyses.
     Verification:   Review and analysis of
                     systems, data, procedures,
                     policies, practices, and
                     manuals, including on-site
                     visits at SROs and FCMs.




Lead Program Office                                                    Performance Highlights
Division of Clearing and Intermediary Oversight                        The completed review assessed the SRO’s financial surveil-
                                                                       lance program, including staffing levels and the conduct of
                                                                       examinations of member FCMs. DCIO concluded that the
Performance Analysis & Review                                          SRO’s program was compliant with Commission regula-
DCIO met the performance target for FY 2008.                 DCIO      tions and applicable CFTC Core Principles.
conducts periodic, routine examinations of the financial
and sales practice programs of the SROs for the purpose of
assessing the SROs’ compliance with Commission regula-
tions,    including      applicable     CFTC      Core   Principles.
With respect to applicable CFTC Core Principles, DCIO
completed a review of the financial surveillance program of
one SRO in FY 2008. In addition, DCIO initiated an exami-
nation of the financial surveillance program of another SRO
during FY 2008, and the examination’s focus is on the SRO’s
oversight of their member FCMs. DCIO has not identified
any issues that would indicate a failure of the SRO’s program
to satisfy Commission regulations and applicable CFTC
Core Principles. DCIO staff will continue the examination
and report its findings to the Commission in FY 2009.




64       CFTC
                                                                   P E RF O R M A N C E S E C T I O N




  Performance Measure 2.2.2 Percentage of derivatives clearing organizations that comply with CFTC Core
  Principles.




    Measurement: Percentage
    Status:         Effective
    Data Source:    Documentation from
                    DCOs, agency reports and
                    files, and financial
                    surveillance materials.
    Verification:   Review and analysis of
                    systems, data, procedures,
                    policies, practices, and
                    manuals, including on-site
                    visits at DCOs.




Lead Program Office                                           In addition to conducting these reviews, DCIO staff conduct
                                                              financial surveillance of DCOs and clearing members on a
Division of Clearing and Intermediary Oversight               daily basis. Staff have identified no instances of noncompli-
                                                              ance. Another component of DCO oversight is the review
Performance Analysis & Review                                 of rules and rules changes of DCOs. During the past fiscal
                                                              year, 63 rule submissions, many containing multiple rules,
DCIO met the performance target for FY 2008. Two reviews      were filed by DCOs under the self-certification provisions of
to assess compliance with certain CFTC Core Principles were   the Act. Staff reviewed each of the submissions and found
undertaken during FY 2008. One review of two DCOs             none that violated CFTC Core Principles.
focused on CFTC Core Principles of financial resources and
risk management, while a second review of three DCOs
focused on the Core Principle of default procedures.          Performance Highlights
In addition to these reviews, DCIO staff continued a joint    None to report.
review with DMO to assess business continuity plans of six
DCOs. DCIO staff will continue to conduct these reviews
and report its findings to the Commission in FY 2009.




                                                                                                            CFTC       65
  Performance Measure 2.2.3 Percentage of professionals compliant with standards regarding testing, licensing,
  and ethics training.




     Measurement: Percentage
     Status:         Effective
     Data Source:    NFA’s audit reports.
     Verification:   NFA audits and the
                     agency’s ongoing
                     oversight of NFA’s
                     compliance and
                     registration programs.




Lead Program Office                                              provides financial requirements for FCMs, FCM affiliates,
                                                                 and RFEDs, who act as counterparties in retail forex trans-
Division of Clearing and Intermediary Oversight                  actions; and permits the intermediation of such transac-
                                                                 tions by registrants. In general, the Farm Bill establishes
Performance Analysis & Review                                    that those involved in offering forex products to retail
                                                                 customers should be registered with the Commission
DCIO met the performance target for FY 2008: 100 percent         unless they are otherwise regulated. DCIO staff are drafting
of professionals were compliant with standards regarding         proposed regulations for Commission consideration that
testing, licensing, and ethics training.                         will address off-exchange retail forex transactions and
                                                                 require the registration of all intermediaries and RFEDs,
                                                                 and that will establish financial requirements for the new
Performance Highlights
                                                                 entities. Staff are also reviewing the Commission’s existing
In May 2008, the Farm Bill became effective. Within the          regulations regarding registration, maintenance of books
Farm Bill are several amendments to the Act concerning           and records, anti-fraud, risk-disclosure and supervisory
off-exchange retail forex transactions. Among other things,      requirements in an effort to identify those sections that
the legislation:      creates a new category of Commission       will have to be amended or addressed in light of the
registrant eligible to act as a counterparty in these transac-   legislation.
tions, known as a “retail foreign exchange dealer” (RFED);




66       CFTC
                                                                      P E RF O R M A N C E S E C T I O N




  Performance Measure 2.2.4 Percentage of self-regulatory organizations that comply with requirement to
  enforce their rules.




    Measurement: Percentage
    Status:         Effective
    Data Source:    Documentation from
                    SROs, agency reports, and
                    files from reviews and
                    analyses.
    Verification:   Review and analysis of
                    systems, data, procedures,
                    policies, practices, and
                    manuals, including on-site
                    visits at SROs.




Lead Program Office                                              CFTC Core Principle 11 provides, in relevant part, that a
                                                                 DCM shall establish and enforce rules to ensure the finan-
Division of Clearing and Intermediary Oversight                  cial integrity of FCMs and the protection of customer funds.
                                                                 DCMs, in their capacity as SROs, receive and review monthly
Performance Analysis & Review                                    financial reports submitted by FCMs for the purpose of
                                                                 assessing whether the FCMs are in compliance with the
DCIO met the performance target for FY 2008.           DCIO      Commission’s and SROs’ minimum financial requirements,
conducts periodic, routine examinations of the financial         including requirements relating to the safeguarding of
and sales practice programs of the SROs for the purpose of       customer funds. In addition, Commission regulations and
assessing the SROs’ compliance with Commission regula-           SRO rules require an FCM to file a notification with the
tions, including applicable CFTC Core Principles. During         Commission and its designated SRO whenever such FCM
FY 2008, DCIO completed examinations on the compliance           fails to meet its minimum capital or segregation require-
programs of two SROs. One examination focused on the             ment. DCIO’s review and analysis of FCM financial reports
SRO’s financial surveillance program, and the second exam-       and notifications, including appropriate coordination with
ination focused on the SRO’s program for the oversight of        the SROs during FY 2008, demonstrates that the SROs are
disclosure documents issued by CPOs and CTAs. DCIO also          complying with CFTC Core Principle 11.
initiated examinations of the financial surveillance programs
of two other SROs during FY 2008, and the examinations’
                                                                 Performance Highlights
focus is on the SROs’ oversight of their member FCMs. In
addition, DCIO staff initiated a review of an SRO’s arbitra-     The two completed reviews assessed an SRO’s financial
tion program. At this stage of the examinations, DCIO has        surveillance program including staffing levels, and the
not identified any issues that would indicate a failure of the   conduct of examinations of member FCMs, and another
SROs’ programs to satisfy Commission regulations,                SRO’s program for the oversight of disclosure documents
including applicable CFTC Core Principles. DCIO staff will       issued by CPOs and CTAs. DCIO concluded that the SROs’
continue to conduct these examinations and report its            compliance programs were compliant with Commission
findings to the Commission in FY 2009.                           regulations.




                                                                                                              CFTC       67
  Performance Measure 2.2.5 Percentage of total requests receiving CFTC responses for guidance and advice.




     Measurement: Percentage (rounded to the
                  nearest 5%)
     Status:         Effective
     Data Source:    Signed letters (formal) and
                     email and telephone
                     responses (informal).
     Verification:   Agency files maintained in
                     chronological files and
                     responses to formal
                     requests published on the
                     Commission’s Web site.




Lead Program Office                                               Performance Highlights
Division of Clearing and Intermediary Oversight                   In FY 2008, DCIO responded to requests for interpreta-
                                                                  tions of the Commission’s registration requirements, and
                                                                  issued two interpretative letters addressing whether certain
Performance Analysis & Review                                     types of conduct required registration as an IB. In the two
DCIO met the performance target for FY 2008. DCIO staff           interpretations, DCIO responded that technology providers
respond to numerous requests for guidance and advice on           who provide customers with software applications with
the CEA and Commission regulations each year. Requests            the ability to route orders for the purchase and sale of
are received from members of the public, market partici-          commodity futures need not register as IBs. The interpreta-
pants, intermediaries, SROs, foreign entities, and others.        tions were based, in part, on representations that customers
These requests may be formal, such as written requests for        would establish relationships with IBs or FCMs of their
no-action, interpretative, or exemption letters. DCIO also        own choosing, the platforms would not produce express
receives numerous informal requests for guidance and              “buy” or “sell” signals, and the providers would not have
advice via email and phone calls. Although DCIO responds          membership with trading privileges on a DCM or DTEF.
to all requests received, it is not always possible for DCIO to
                                                                  DCIO also issued a letter providing guidance to CPOs on
respond within the fiscal year that it receives a request.
                                                                  complying with the financial reporting requirements set
                                                                  forth in Part 4 of the Commission’s regulations. The letter
                                                                  assisted CPOs in meeting their regulatory requirements by
                                                                  highlighting recent regulatory changes affecting the finan-
                                                                  cial filings required of CPOs, and identified common defi-
                                                                  ciencies observed in prior year financial filings.




68       CFTC
                                                                      P E RF O R M A N C E S E C T I O N




  Performance Measure 2.3.1(a) Percentage of filed complaints resolved within one year of the filing date for
  Voluntary Proceedings.




    Measurement: Percentage
    Status:         Effective
    Data Source:    Reparations case tracking
                    system and Judgment
                    Officer Disposition report.
    Verification:   Weekly and monthly
                    reports and statistics
                    submitted by Judgment
                    Officer.




Lead Program Office                                              The voluntary proceedings tend to take less time because,
                                                                 given the non-appealable nature of the proceedings and the
Office of Proceedings                                            more informal nature of the resolution process, the parties
                                                                 are more inclined to settle and the proceeding is completed
Performance Analysis & Review                                    through a review of written documentation.

A claim of any size can be adjudicated through the volun-        The summary and formal proceedings take more time
tary proceeding if all complainants and respondents consent      because of the evidentiary and hearing requirements of the
to use this approach and if the complainant submits the          proceedings; the summary tend to take slightly longer, in
required $50 filing fee. All evidence is submitted in writing    part, because more parties are pro se. A variety of other
and there is no oral hearing. The decision issued by the         factors can affect the length of the proceeding, including
Judgment Officer (JO) is final and is not appealable.            motions for extensions of time and stays pending payment
                                                                 of penalties agreed to in settlement.
Prior to FY 2007, data for the voluntary, summary, and
formal proceedings were combined with a goal of completing
all proceedings within one year of the date the complaint        Performance Highlights
was received. In FY 2007, the performance goal was re-exam-      In FY 2008, the JO issued three decisions in voluntary cases.
ined and revised to provide goals and results for each of the    Of those, two were completed in less than one year and the
different types of proceedings. The change reflects the impact   third case was completed in just over one year (367 days).
of the time required to correct complaint deficiencies,          Therefore, although the percentage of cases resolved within
prepare and submit documentary evidence, and prepare for         one year or less of filing is 67 percent, the resolution of
the hearings, as well as the complexity of the cases.            voluntary proceedings complaints is still timely and effec-
                                                                 tive, supporting the outcome measure, objective, and goal.




                                                                                                               CFTC       69
  Performance Measure 2.3.1(b) Percentage of filed complaints resolved within one year and six months of the
  filing data for Summary Proceedings.




     Measurement: Percentage
     Status:         Effective
     Data Source:    Reparations case tracking
                     system and Judgment
                     Officer Disposition report.
     Verification:   Weekly and monthly
                     reports and statistics
                     submitted by Judgment
                     Officer.




Lead Program Office                                                  Performance Highlights
Office of Proceedings                                                In FY 2008, 57 percent of the summary proceeding
                                                                     complaints were resolved in one year and six months.
                                                                     Of the 14 cases resolved, eight were resolved in under one
Performance Analysis & Review                                        year and six months. The delays in the remaining six cases
If the complainant does not select the voluntary proceeding          included, for example, multiple deficiencies in the original
and the claim amount is $30,000 or less, the complainant             complaint that required correction, multiple deficient
must select the summary proceeding and submit a $125                 answers from respondents that required correction, and
filing fee. In the summary proceeding process, evidence is           requests for extension of time by the parties. Because this
submitted in writing and an oral hearing may be held by              percentage is only slightly under the goal, and given the
telephone. The decision by the JO is appealable to the               small number of cases decided, the resolution of these cases
Commission and, ultimately, to the U.S. Court of Appeals.            effectively supports Strategic Goal Two.

As explained in Performance Measure 2.3.1(a) above, the
Commission previously measured all cases together, with a
goal of resolving all types of cases (voluntary, summary, and
formal) within one year of filing.             However, because of
differences in the three decisional processes and the external
factors that can affect them, a new goal of resolving 50
percent of summary complaints within one year and six
months was set in FY 2007. In FY 2008, the goal was
increased to 60 percent. In resolving the summary
proceeding complaints, various external factors, including
complaint deficiencies, requests for extension of time, and
discovery issues may impact the ability to resolve the
complaint in a speedy manner.




70       CFTC
                                                                        P E RF O R M A N C E S E C T I O N




  Performance Measure 2.3.1(c) Percentage of filed complaints resolved within one year and six months of the
  filing date for Formal Proceedings.




    Measurement: Percentage
    Status:         Effective
    Data Source:    Reparations case tracking
                    system and Administrative
                    Law Judge’s Disposition
                    reports.
    Verification:   Weekly and monthly
                    reports and statistics
                    submitted by Administra-
                    tive Law Judges.




Lead Program Office                                                Various external factors affect the timely processing and
                                                                   resolution of complaints, including: the facts and complexity
Office of Proceedings                                              of the case, whether the parties are cooperative in discovery
                                                                   and prepare and submit their evidence quickly, whether any
Performance Analysis & Review                                      procedural disputes arise, and whether an oral hearing is
                                                                   required (and, if so, when it can be scheduled.) Pro se
The formal proceeding can be selected if the complainant           complainants and inexperienced attorneys also impact the
does not select the voluntary proceeding and if the claim          amount of time it takes to process this type of case.
amount is more than $30,000.              The complainant must
submit a $250 filing fee. In addition to the submission of
documentary evidence, an oral hearing may be held in a             Performance Highlights
location that is, to the extent possible, convenient to the        In FY 2008, 73 percent of the formal proceeding complaints
parties. The decision is appealable to the Commission and          were resolved in one year and six months. The Administrative
ultimately to the U.S. Court of Appeals.                           Law Judges resolved a total of 11 formal complaints during
As explained in Performance Measure 2.3.1(a) above, the            FY 2008. Of those, two cases skewed the statistics: one case,
Commission previously measured all cases together, with a          even excluding a period during which the case was stayed,
goal of resolving all types of cases (voluntary, summary, and      took 1,038 days; the other case took a total of 1,019 days to
formal) within one year of filing. However, because of differ-     resolve. Excluding those two cases, eight of the cases were
ences in the three decisional processes and the external factors   resolved within one year and six months and the ninth case
that can affect them, a new goal of resolving 50 percent of        took only 16 days longer than that period. The two outlying
formal complaints within one year and six months was set in        cases were lengthy for a number of reasons: deficiencies in
FY 2007. Because of the success in meeting this goal in            the complaint that took several months to resolve; post-
FY 2007, the goal was increased to 90 percent in FY 2008.          ponement and rescheduling of hearings, which occurred
                                                                   seven times in one case; and a lengthy discovery period.
                                                                   With those cases as exceptions, the goal of resolving cases
                                                                   within one year and six months was effectively met.




                                                                                                                  CFTC       71
  Performance Measure 2.3.2 Percentage of appeals resolved within six months.




     Measurement: Percentage
     Status:         Effective
     Data Source:    Opinions and orders
                     issued by the Commission.
     Verification:   Final opinions and orders
                     are posted on the
                     Commission’s Web site.
                     Pending cases are
                     maintained by the
                     Secretariat, status reports
                     are issued monthly.




Lead Program Office                                             OGC will exceed its planned goal for the second year in a
                                                                row, although this year’s margin is smaller than that achieved
Office of General Counsel                                       in FY 2007. As was the case last year, the increased number
                                                                of cases resolved within six months resulted primarily from
Performance Analysis & Review                                   the disposition of matters through delegated authority.

The performance of OGC under this measure is effective,
exceeding the goal for the year (5o percent of appeals          Performance Highlights
resolved within six months). The performance also is effec-     In FY 2008, the Commission reiterated the importance of
tive because OGC exceeded its goal despite substantial          maintaining the user-friendly nature of the customer repa-
constraints on its ability to control ultimate outcomes under   rations forum.
this measure. Once an appeal is filed, its resolution may be
delayed by one or more appealing parties, who may seek          The Commission confirmed its longstanding interpretation
extensions of filing deadlines. After OGC staff review a case   of Section 14(d) of the CEA as allowing prevailing repara-
and make a recommendation to the Commission regarding           tion complainants to have their awards enforced in federal
its resolution, OGC no longer controls the case. The case       district courts expeditiously as “local judgments” under 28
rests with the Commissioners and their advisors, who face       U.S.C. 1963. (Numbers v. Moore). At the CFTC’s request,
competing priorities and who may take time to attempt to        Congress subsequently amended Section 14(d) to state
reconcile any differences in viewpoint among them. Finally,     expressly that reparation awards shall be treated as local
the performance of OGC this year particularly warrants          judgments.
being deemed effective because the performance measure          The Commission, exercising its rarely used authority to take
was exceeded in a year when OGC continued operating with        sua sponte review of an initial decision, determined that
a substantially reduced professional staff.                     sanctions imposed on the complainant and a respondent
                                                                for deficient responses to a prehearing order constituted an
                                                                abuse of discretion. The Commission offered complainant
                                                                an opportunity for a hearing. Wade v. Chevalier.




72       CFTC
                                                                       P E RF O R M A N C E S E C T I O N




The Commission vacated an initial decision on remand,             to a CTA that gave advice resulting in losses to complain-
holding that the ALJ, ignoring earlier guidance, again held       ant’s customers. The Commission held that complainant
the parties to overly strict litigating standards and abused      sought relief not available under Section 14(a) of the CEA,
his discretion by imposing sanctions prohibiting them from        which limits reparation awards to “actual damages proxi-
testifying and cross-examining each other. The Commission         mately caused” by a violation of the CEA. The Commission
vacated the initial decision and remanded and reassigned          also held that as a NFA member, the complainant was
the case. Anderson v. Beach.                                      required to resolve its claims against the clearing broker
                                                                  and the advisor (also NFA members) through an NFA arbi-
Also, the Commission affirmed an initial decision
                                                                  tration. Los Angeles Trading Group, Inc. v. Peregrine Financial
dismissing an IB’s complaint against its clearing FCM and
                                                                  Group, Inc.
others for lost commission revenue.         The complainant
alleged that the clearing broker required it to refer customers




                                                                                                                 CFTC        73
            Strategic Goal Three: Industry
 Goal Three: Ensure market integrity in order to foster open, competitive, and financially
 sound markets



 Outcome Objective 3.1: Clearing organizations and firms holding customer funds have sound
 financial practices.
     n	   Annual Performance Goal 3.1: No loss of customer funds as a result of firms’
          failure to adhere to regulations. No customers prevented from transferring funds from
          failing firms to sound firms.


 Outcome Objective 3.2: Commodity futures and option markets are effectively self-regulated.
     n	   Annual Performance Goal 3.2: No loss of funds resulting from failure of self-regulated
          organizations to ensure compliance with their rules.


 Outcome Objective 3.3: Markets are free of trade practice abuses.
     n	    Annual Performance Goal 3.3: Minimize trade practice abuses.


 Outcome Objective 3.4: Regulatory environment is flexible and responsive to evolving market
 conditions.
     n	   Annual Performance Goal 3.4: Rulemakings issued and requests responded to reflect
          the evolution of the markets and protect the interests of the public.

74   CFTC
 Photo above is of staff from the CFTC Regional Office located in Kansas City.
                                                                                         P E RF O R M A N C E S E C T I O N




      Performance Measure 3.1.1(a) Lost Funds: Number of customers who lost funds.




        Measurement: Number
        Status:         Effective
        Data Source:    Agency database of financial
                        information from 1-FR-FCM
                        and FOCUS reports, and
                        related regulatory notices.
        Verification:   Exchanges’ daily trading
                        data and FCMs’ financial
                        filings are maintained in
                        Stressing Positions at Risk
                        (SPARK12) and 1-FR data
                        systems.




      Performance Measure 3.1.1(b) Lost Funds: Amount of funds lost.




        Measurement: Dollars
        Status:         Effective
        Data Source:    Agency database of financial
                        information from 1-FR-FCM
                        and FOCUS reports, and
                        related regulatory notices.
        Verification:   Exchanges’ daily trading
                        data an d FCMs’ financial
                        filings are maintained in
                        SPARK and 1-FR data
                        systems.




Lead Program Office                                                               FCMs are required to segregate their own assets from all
                                                                                  customer funds deposited for trading on DCMs in desig-
Division of Clearing and Intermediary Oversight
                                                                                  nated accounts with a bank, trust company, clearing organi-
                                                                                  zation, or other FCM. FCMs holding funds for customers
Performance Analysis & Review                                                     trading on non-U.S. contract markets are required to comply
                                                                                  with Part 30 of the Commission’s regulations with respect
Performance target was met for FY 2008. During FY 2008, no                        to the custody of the customers’ funds.
customers who deposited funds with FCMs for trading on
DCMs experienced any losses as a result of the FCM’s failure                      FCMs also are required to prepare daily calculations demon-
to adhere to Commission regulations. However, a registered                        strating compliance with the customer funds custody
FCM filed for bankruptcy protection in August 2007. DCIO                          requirements. These calculations must be prepared by 12:00
is continuing to monitor the FCM’s bankruptcy proceedings                         Noon and must demonstrate compliance as of the end of
and, as of September 30, 2008, no customers trading on                            business on the previous business day.
DCMs have lost funds due to the FCM’s bankruptcy.

11
     	Refer to CFTC Information Technology Systems in the Appendix for a description of functionality.



                                                                                                                              CFTC       75
DCIO conducts financial and risk surveillance activities to       Performance Highlights
closely monitor the operations of FCMs in possession of
                                                                  There were no losses of regulated customer funds due to
customer funds. These surveillance activities include DCIO’s
                                                                  firm failures or the inability of customers to transfer their
SPARK system, combined with required financial warning
                                                                  funds from a failing firm to a sound firm in FY 2008.
notices from the FCMs and constant market monitoring.




  Performance Measure 3.1.2 Number of rulemakings to ensure market integrity and financially sound markets.




     Measurement: Number
     Status:         Adequate
     Data Source:    Code of Federal Regula-
                     tions; proposed and final
                     amendments to regulations.
     Verification:   Proposed and final
                     regulations are published in
                     the Federal Register and
                     posted on the Commission’s
                     Web site.




Lead Program Office                                               In addition, the need for a rulemaking may not be known,
                                                                  or may not have reached a decision-making point until
Division of Clearing and Intermediary Oversight
                                                                  further analysis, study and other actions or events take place.
                                                                  This also can account for a difference between the fiscal year
Performance Analysis & Review                                     plan and the actual outcome. In this connection, DCIO initi-
                                                                  ated an in-depth review of FCM investment of customer
The failure to meet the FY 2008 performance plan is not           funds pursuant to Commission regulation 1.25, and assessed
viewed as a performance deficiency. The number of rulemak-        possible amendments to the FCM capital requirement
ings to ensure market integrity and financial soundness is not    pursuant to Commission regulation 1.17 as a result of
a number that can be precisely predetermined. The final           market developments that have taken place in 2008.
number of rulemakings is driven, in part, by changes in the       The analysis of the data and follow-up work will not be
marketplace, or in the structure of exchanges, clearing organi-   completed until FY 2009. DCIO staff will likely recommend
zations, and intermediaries that operate within that market-      to the Commission that it amend regulations 1.25 and 1.17
place. The number can be a function of what is needed to          as a result of its review.
allow appropriate market interrelationships to be maintained
and to allow registered entities to operate in the most effi-
cient manner possible. These factors may not be foreseeable       Performance Highlights
at the time the performance estimate is prepared.
                                                                  None to report.




76       CFTC
                                                                    P E RF O R M A N C E S E C T I O N




  Performance Measure 3.1.3 Percentage of clearing organizations that comply with requirement to enforce
  their rules.




    Measurement: Percentage
    Status:         Effective
    Data Source:    Documentation from
                    DCOs under review,
                    agency reports, files, and
                    financial surveillance
                    materials.
    Verification:   Review and analysis of
                    systems, data, procedures,
                    policies, practices, and
                    manuals, including on-site
                    visits at DCOs.




Lead Program Office                                            In addition to conducting these reviews, DCIO staff conduct
                                                               financial surveillance of DCOs and clearing members on a
Division of Clearing and Intermediary Oversight                daily basis. Staff have identified no instances of noncompli-
                                                               ance. Another component of DCO oversight is the review
Performance Analysis & Review                                  of rules and rules changes filed by DCOs with the
                                                               Commission. During the past fiscal year, 63 rule submis-
Performance target was met for FY 2008. Two reviews to         sions, many containing multiple rules, were filed by DCOs
assess compliance with Commission regulations, including       under the self-certification provisions of the Act.     Staff
applicable CFTC Core Principles, were undertaken during        reviewed each of the submissions and found none that
FY 2008. One review of two DCOs focuses on CFTC Core           violated Commission regulations.
Principles of financial resources and risk management, while
a second review of three DCOs focuses on the Core Principle
of default procedures. In addition to these reviews, DCIO      Performance Highlights
staff continued a joint review with DMO to assess the          None to report.
business continuity plans of six DCOs. DCIO staff will
continue to conduct these reviews and report its findings to
the Commission in FY 2009.




                                                                                                             CFTC       77
  Performance Measure 3.2.1 Percentage of intermediaries who meet risk-based capital requirements.




     Measurement: Percentage
     Status:         Effective
     Data Source:    Agency database of
                     financial information from
                     1-FR-FCM and FOCUS
                     reports, and related
                     regulatory notices.
     Verification:   Review and analysis of
                     exchanges’ daily trading
                     data and FCMs’ financial
                     filings in SPARK and 1-FR
                     data systems.




Lead Program Office                                                 The Commission and SROs monitor FCMs’ compliance
                                                                    with the risk-based capital requirement through review of
Division of Clearing and Intermediary Oversight                     monthly financial reports, regulatory notices, and the
                                                                    conduct of in-field examinations.       DCIO also uses the

Performance Analysis & Review                                       SPARK system, combined with required financial warning
                                                                    notices and market monitoring, to closely monitor the
Performance target was met for FY 2008.                  The Act,   financial condition of FCMs.
Commission regulations, and SRO rules require FCMs to
comply with minimum financial requirements and related
                                                                    Performance Highlights
reporting requirements at all times.              Included in the
minimum financial requirements is the Commission’s and              DCIO staff reviewed all regulatory notices received from
SROs’ risk-based capital requirement.                               FCMs during FY 2008. This review included assessing each
                                                                    firm’s actions to ensure that all firms that reported a failure
Any FCM failing to meet the risk-based capital requirement
                                                                    to maintain the minimum capital requirement either took
must provide immediate notice to the Commission and to
                                                                    the necessary steps to bring themselves back into compli-
the firm’s designated SRO. Furthermore, Commission regu-
                                                                    ance or properly transferred their customers’ accounts to
lations provide that any FCM that fails to meet minimum
                                                                    other, adequately capitalized FCMs. DCIO staff reviewed
capital requirements, including the risk-based capital
                                                                    financial reports submitted by every registered FCM on a
requirement, and cannot timely come back into compliance
                                                                    monthly basis to assess compliance with the minimum
with these requirements must transfer all customer accounts
                                                                    financial requirements. DCIO staff also reviewed audited
and immediately cease operating as an FCM until it can
                                                                    annual financial reports for every FCM during FY 2008.
demonstrate compliance.
                                                                    Finally, DCIO staff conducted examinations of several
                                                                    FCMs during FY 2008 to assess the firms’ compliance with
                                                                    Commission and SRO capital requirements.




78       CFTC
                                                                      P E RF O R M A N C E S E C T I O N




  Performance Measure 3.2.2 Percentage of self-regulatory organizations that comply with requirement to
  enforce their rules.




    Measurement: Percentage
    Status:         Effective
    Data Source:    Documentation from
                    DCMs/SROs under
                    review, agency reports and
                    files, and financial
                    surveillance materials.
    Verification:   Review and analysis of
                    systems, data, procedures,
                    policies, practices, and
                    manuals, including on-site
                    visits.




Lead Program Offices                                             CFTC Core Principle 11 provides, in relevant part, that a
                                                                 DCM shall establish and enforce rules to ensure the finan-
Division of Clearing and Intermediary Oversight                  cial integrity of FCMs and the protection of customer funds.
Division of Market Oversight                                     DCMs, in their capacity as SROs, receive and review monthly
                                                                 financial reports submitted by FCMs for the purpose of
                                                                 assessing whether the FCMs are in compliance with the
Performance Analysis & Review                                    Commission’s and SROs’ minimum financial requirements,
                                                                 including requirements relating to the safeguarding of
Division of Clearing and Intermediary Oversight: Performance
                                                                 customer funds. In addition, Commission regulations and
target was met for FY 2008.            DCIO conducts periodic,
                                                                 SRO rules require an FCM to file a notification with the
routine examinations of the financial and sales practice
                                                                 Commission and its designated SRO whenever such FCM
programs of the SROs for the purpose of assessing the SROs’
                                                                 fails to meet its minimum capital or segregation require-
compliance with Commission regulations, including appli-
                                                                 ment. DCIO’s review and analysis of FCM financial reports
cable CFTC Core Principles.            During FY 2008, DCIO
                                                                 and notifications, including appropriate coordination with
completed two examinations of SROs compliance programs.
                                                                 the SROs during FY 2008, demonstrated that the SROs were
One examination focused on the SRO’s financial surveil-
                                                                 complying with CFTC Core Principle 11.
lance program and the second examination focused on the
SRO’s program for the oversight of disclosure documents          Division of Market Oversight:       DMO staff conduct rule
issued by CPOs and CTAs. DCIO also initiated examina-            enforcement reviews (RERs) of DCMs on a regular cycle to
tions of the financial surveillance programs of two other        ensure that exchanges enforce their rules.         CEA Core
SROs during FY 2008 and these examinations focused on            Principle 2 specifically requires that exchanges monitor and
the SROs’ oversight of their member FCMs. In addition,           enforce compliance with their rules. DMO reviews exchange
DCIO staff initiated a review of an SRO’s arbitration            compliance with CEA Core Principle 2 when it conducts an
program. At this stage of the examinations, DCIO has not         RER of an exchange’s trade practice surveillance program.
identified any issues that would indicate a failure of the       RERs also examine the adequacy of an exchange’s market
SROs’ programs to satisfy Commission regulations,                surveillance, audit trail, disciplinary, and dispute resolution
including applicable CFTC Core Principles. DCIO staff will       programs. When DMO examines these programs, its review
continue to conduct these examinations and report its            includes an analysis to ensure that an exchange is enforcing
findings to the Commission in FY 2009.                           its rules that relate to the particular program under review.



                                                                                                                CFTC        79
During FY 2008, DMO completed RERs of the Chicago               Performance Highlights
Climate Futures Exchange (CCFE), HedgeStreet, and the
                                                                Division of Clearing and Intermediary Oversight: The two
U.S. Futures Exchange (USFE). Because NFA provides regu-
                                                                completed reviews assessed an SRO’s financial surveillance
latory services for all three exchanges pursuant to separate
                                                                program including staffing levels and the conduct of exami-
Regulatory Services Agreements and uses similar systems,
                                                                nations of member FCMs, and another SRO’s program for
methods, and personnel to provide these services, DMO
                                                                the oversight of disclosure documents issued by CPOs and
issued a single report rather than three separate reports to
                                                                CTAs. DCIO concluded that the SROs’ compliance programs
avoid unnecessary duplication.       DMO’s review of these
                                                                were compliant with Commission regulations.
exchanges included, among other things, careful examina-
tion of the exchanges’ trade practice surveillance programs,    Division of Market Oversight: DMO found in its combined
including a detailed analysis of the systems used by NFA for    RER report for CCFE, HedgeStreet, and USFE that all three
conducting    surveillance.        DMO   found   that   CCFE,   exchanges maintain adequate trade practice surveillance
HedgeStreet, and USFE all maintain adequate trade practice      programs to detect trading abuses. NFA uses automated
surveillance programs that include the use of sophisticated     exception reports and tools to identify potential trading
surveillance systems. DMO also completed reviews of the         violations and conduct initial inquiries on behalf of the
Chicago Board of Trade’s (CBOT) and NYMEX’s market              three exchanges and the exchanges all coordinate with NFA
surveillance programs during FY 2008. DMO found that            when potential rule violations are identified. NFA conducts
both CBOT and NYMEX maintain effective and comprehen-           inquiries and works with the exchanges to complete investi-
sive market surveillance programs and did not identify any      gations when appropriate. DMO made one recommenda-
major deficiencies. Although these RERs focused on market       tion for improvement with respect to HedgeStreet. DMO’s
surveillance, market surveillance issues sometimes directly     RERs of CBOT’s and NYMEX’s market surveillance programs
relate to trade practice abuses.                                found that both exchanges maintain effective and compre-
                                                                hensive market surveillance programs.     Both CBOT and
DMO also conducts ongoing daily surveillance of all
                                                                NYMEX maintain sophisticated large trade reporting
exchanges to ensure that exchanges are enforcing their rules.
                                                                systems that are the exchanges’ principal tool for moni-
                                                                toring positions and conducting market surveillance.




80      CFTC
                                                                         P E RF O R M A N C E S E C T I O N




  Performance Measure 3.3.1 Percentage of exchanges deemed to have adequate systems for detecting trade
  practice abuses.




    Measurement: Percentage
    Status:         Effective
    Data Source:    Agency reports and files
                    from reviews and analyses,
                    and documentation from
                    exchanges subject to a
                    rule enforcement review.
    Verification:   Review and analysis of
                    systems, data, procedures,
                    policies, practices, and
                    manuals, including on-site
                    visits.




Lead Program Office                                                 DMO also conducts ongoing daily surveillance of all
                                                                    exchanges to ensure that exchanges are enforcing their rules.
Division of Market Oversight

                                                                    Performance Highlights
Performance Analysis & Review
                                                                    DMO found in its NYMEX and CBOT market surveillance
DMO staff conduct RERs of DCMs on a regular cycle that              RER reports that each exchange maintains an adequate,
includes review and analysis of exchange programs for               effective, and comprehensive market surveillance program.
detecting trading abuses and violations of exchange rules.          Both exchanges conduct daily monitoring of prices and
During FY 2008, DMO completed RERs of the market surveil-           available supply and demand, the trading and positions of
lance programs at NYMEX and CBOT. DMO also completed                large traders, and trader compliance with Exchange rules,
an RER of CCFE, USFE, and HedgeStreet that focused on the           and heighten surveillance of expiring contracts to detect and
audit trail, market surveillance, trade practice surveillance,      prevent price manipulations and facilitate orderly liquida-
and disciplinary programs of those exchanges. Since NFA             tions. Market surveillance investigations at both exchanges
performs trade practice surveillance for those exchanges on a       were thorough and timely, and resulted in sanctions suffi-
contract basis, this RER included review of NFA’s automated         cient to deter violations. DMO recommended that NYMEX
surveillance system. During FY 2008, DMO also initiated a           further improve its market surveillance program by
review of MGEX’s audit trail, market surveillance, trade            increasing market surveillance staff size to keep pace with
practice surveillance, and disciplinary programs, and a review      growth in trading volume and product offerings; adjusting
of the audit trail, trade practice surveillance, and disciplinary   position limit exemption procedures to ensure that all
programs maintained by ICE Futures U.S. DMO expects to              exemptions are based on demonstrated cash market or swap
complete these RERs during FY 2009 or shortly thereafter.           exposure; and ensuring that serious position and exemption
While these RERs are still in progress, staff have not identi-      limit violations by non-members as well as members result
fied any material deficiencies at either exchange.                  in sanctions sufficient to deter future violations.




                                                                                                                    CFTC      81
  Performance Measure 3.3.2 Percentage of exchanges that comply with requirement to enforce their rules.




     Measurement: Percentage
     Status:          Effective
     Data Source:     Agency reports and files
                      from reviews and analyses,
                      and documentation from
                      exchanges subject to a
                      review.
     Verification:    Review and analysis of
                      systems, data, procedures,
                      policies, practices, and
                      manuals, including on-site
                      visits.




Lead Program Offices                                                 purpose of assessing whether the FCMs are in compliance
                                                                     with the Commission’s and SRO’s minimum financial
Division of Clearing and Intermediary Oversight                      requirements, including requirements relating to safe-
Division of Market Oversight                                         guarding customer funds. In addition, Commission regula-
                                                                     tions and SRO rules require an FCM to file a notification
                                                                     with the Commission and its designated SRO whenever such
Performance Analysis & Review                                        FCM fails to meet its minimum capital or segregation
                                                                     requirement. DCIO’s review and analysis of FCM financial
Division of Clearing and Intermediary Oversight: Performance
                                                                     reports and notifications, including appropriate coordina-
target was met for FY 2008. DCIO conducts periodic, routine
                                                                     tion with the SROs during FY 2008, demonstrated that the
examinations of the financial and sales practice programs of
                                                                     SROs were complying with CFTC Core Principle 11.
the SROs for the purpose of assessing the SROs’ compliance
with Commission regulations, including applicable CFTC
                                                                     Division of Market Oversight: DMO staff conduct RERs of
Core Principles. DCIO completed a review of the financial
                                                                     DCMs on a regular cycle to ensure that exchanges monitor
surveillance program of one SRO during FY 2008.                 In
                                                                     and enforce compliance with their rules, as required by CFTC
addition, DCIO initiated an examination of the financial
                                                                     Core Principle 2. Such RERs may examine some or all of a
surveillance program of another SRO during FY 2008, and
                                                                     DCMs audit trail, market surveillance, trade practice surveil-
the examination’s focus is on the SROs’ oversight of their
                                                                     lance, disciplinary, and dispute resolution programs. When
member FCMs. DCIO has not identified any issues that
                                                                     DMO examines any of these programs, its review includes an
would indicate a failure of the SROs’ programs to satisfy
                                                                     analysis designed to ensure that the DCM is enforcing its
Commission           regulations   and    applicable   CFTC   Core
                                                                     rules that relate to the particular program under review.
Principles. DCIO staff will continue the examination and
                                                                     During FY 2008, DMO completed RERs of the market surveil-
report its findings to the Commission in FY 2009.
                                                                     lance programs at NYMEX and CBOT. DMO also completed
CFTC Core Principle 11 provides, in relevant part, that a            an RER of CCFE, USFE, and HedgeStreet that focused on the
DCM shall establish and enforce rules to ensure the financial        audit trail, market surveillance, trade practice surveillance,
integrity of FCMs and the protection of customer funds.              and disciplinary programs of those exchanges. Since NFA
DCIO, and DCMs in their capacity as SROs, receive and                performs trade practice surveillance for those exchanges on a
review monthly financial reports submitted by FCMs for the           contract basis, this RER included review of NFA’s automated




82       CFTC
                                                                         P E RF O R M A N C E S E C T I O N




surveillance system. During FY 2008, DMO also initiated a           Division of Market Oversight: DMO found in its NYMEX
review of MGEX’s audit trail, market surveillance, trade            and CBOT Market Surveillance RER reports that each
practice surveillance, and disciplinary programs, and a review      exchange maintains an adequate, effective, and comprehen-
of the audit trail, trade practice surveillance, and disciplinary   sive market surveillance program. Both exchanges conduct
programs maintained by ICE Futures US. DMO expects to               daily monitoring of prices and available supply and demand,
complete these RERs during FY 2009 or shortly thereafter.           the trading and positions of large traders, and trader compli-
While these RERs are still in progress, staff have not identi-      ance with Exchange rules, and heighten surveillance of
fied any material deficiencies at either exchange.                  expiring contracts to detect and prevent price manipulations
                                                                    and facilitate orderly liquidations. Market surveillance inves-
DMO also conducts ongoing daily surveillance of all
                                                                    tigations at both exchanges were thorough and timely, and
exchanges to ensure that exchanges are enforcing their rules.
                                                                    resulted in sanctions sufficient to deter violations. DMO
                                                                    recommended that NYMEX further improve its market
Performance Highlights                                              surveillance program by increasing the market surveillance
                                                                    staff size to keep pace with the growth in trading volume
Division of Clearing and Intermediary Oversight:             The
                                                                    and product offerings; adjusting position limit exemption
completed review assessed the SRO’s financial surveillance
                                                                    procedures to ensure that all exemptions are based on
program, including staffing levels and the conduct of exami-
                                                                    demonstrated cash market or swap exposure; and ensuring
nations of member FCMs. DCIO concluded that the SRO’s
                                                                    that serious position and exemption limit violations by
program was compliant with Commission regulations.
                                                                    non-members as well as members result in sanctions suffi-
                                                                    cient to deter future violations.




                                                                                                                   CFTC        83
  Performance Measure 3.4.1 Percentage of CFMA Section 126(b) objectives addressed.




     Measurement: Percentage
     Status:         Effective
     Data Source:    Agency reports, files, and
                     documentation.
     Verification:   Formal Memoranda of
                     Understanding (MOUs) or
                     seriatim approvals are
                     published in the Federal
                     Register and posted on the
                     Commission’s Web site.




Lead Program Office                                               These performance measures have been met by: 1) engaging
                                                                  in discussions with foreign regulators, both on a bilateral
Executive Direction and Support                                   basis and within Treasury’s country dialogues, on an “as
                                                                  needed” basis to address regulatory issues, as well as by
                                                                  carrying forward discussions with the Committee of
Performance Analysis & Review
                                                                  European Securities Regulators (CESR); 2) participating in
The Commission’s Office of International Affairs (OIA)            meetings and working groups organized by multi-lateral
assists the Commission in formulating and implementing its        organizations such as the International Organization of
international policy. OIA’s activities track the objectives set   Securities Commissions (IOSCO), and the Council of
forth in section 126(b) of the CFMA, which endorsed the           Securities Regulators of the Americas (COSRA); 3) organizing
Commission’s international activities and encouraged the          the annual Commission training symposium and interna-
Commission to continue to: 1) coordinate with foreign             tional regulators meeting; and 4) coordinating technical
regulatory authorities; 2) participate in international regula-   assistance missions to foreign market authorities.
tory organizations and forums; and 3) provide technical
                                                                  OIA can anticipate certain recurring activities such as partici-
assistance to foreign governmental bodies. These efforts are
                                                                  pating in the IOSCO Technical Committee and its constit-
intended to facilitate cross-border transactions and the
                                                                  uent working groups, participating in Treasury’s country
supervision of such transactions by developing internation-
                                                                  dialogues, and organizing the annual training seminar and
ally accepted standards, enhancing international supervisory
                                                                  international regulators’ meeting.       Other international
cooperation, and improving the quality and timelines of
                                                                  matters are event-driven, such as the need to engage in bilat-
international information sharing.
                                                                  eral discussions with a foreign regulator to negotiate a market




84       CFTC
                                                                        P E RF O R M A N C E S E C T I O N




surveillance arrangement, or ad hoc in nature, such as                 These meetings will be designed to promote investor
requests for technical assistance. Even within the recurring           protection, market integrity, and the supervision of
forums of IOSCO and COSRA, for example, market events                  derivatives trading occurring on a cross-border basis
may result in the development of a new task force project,             between China and the United States. Such coopera-
which, if it affects Commission regulatory interests, warrants         tive efforts support the U.S. Treasury’s Strategic
Commission involvement.                                                Economic Dialogue with China.

To date, OIA has been able, within the limits of its staff        ■■   OIA participated in and provided staff support to the
resources, to provide international coordination, representa-          Chairman in meetings with various global market
tion and technical assistance at acceptable levels as approved         authorities including, the European Commission (EC)
by the Chairman. However, the electronic integration of                and senior level directors at the EC, members of the
global markets, cross-border mergers, market alliances and             Technical Committee of IOSCO, the Committee of
requests by foreign entities for regulated status under the            European Securities Regulators (CESR), the Chairman
CEA, as well as increasing calls on the CFTC to participate in         of the Securities and Exchange Board of India (SEBI),
Treasury-organized dialogues with commercially important               the French market regulator, and European Union (EU)
jurisdictions such as India and China, have led to increasing          officials and industry representatives. These meetings
demands that are straining the capacity of OIA to provide              establish relationships and provide a forum for raising
adequate levels of international coordination, representation          and resolving regulatory issues.
and technical assistance services to and on behalf of the
                                                                  ■■   OIA submitted various forms of “good standing” repre-
Commission. Although these demands can be met by the
                                                                       sentations to support numerous applications by US
additional staff resources allocated to OIA for FY 2009, the
                                                                       futures exchanges for recognition in foreign jurisdic-
failure to fund these potential resources will make it unlikely
                                                                       tions (Singapore; Quebec, Canada; Brazil; Netherlands;
that OIA will be able to address the increasing demands
                                                                       and Dubai).
resulting from the globalization of U.S. futures markets.
                                                                  Participation in international regulatory organizations and
                                                                  forums
Performance Highlights
                                                                  ■■   Staff participated actively in the standing committees
Coordination with foreign regulatory authorities
                                                                       on secondary markets and intermediaries, and provided
■■   Revisions to the MOU (2006) between the CFTC and                  support for the work of the standing committee on
     United Kingdom (U.K.) Financial Services Authority                collective investments, which addressed issues such as
     (FSA), which established a framework for the CFTC                 regulatory issues surrounding direct market access,
     and FSA to share information that the respective                  outsourcing, point of sale disclosure issue, and over-
     authorities need to detect potential abusive or manipu-           sight of intermediaries. Staff also supported the work
     lative trading practices that involve trading in related          of the IOSCO Implementation Task Force, which
     contracts on U.K. and U.S. derivatives exchanges.      In         encourages IOSCO’s member jurisdictions to undergo
     order to address increased concerns as to the role of             assisted assessment of compliance with the IOSCO
     speculation in linked commodity markets, in 2008 OIA              Principles. These projects help foster a higher level of
     negotiated revisions to the MOU that require coordi-              global regulation.
     nated position limits and reporting requirements in
                                                                  ■■   Participated in Treasury-led dialogues on China, India
     linked contracts trading on U.S. and U.K. exchanges.
                                                                       and the EU, which supports Treasury’s policy goals,
■■   In February 2008, the CFTC and the CSRC announced                 and encourages foreign jurisdictions to foster condi-
     that the agencies have agreed to hold regular meetings            tions favoring access to products and market. Staff also
     to promote enhanced cooperation and collaboration.                participated in discussions under the North American



                                                                                                                CFTC       85
     Free Trade Agreement (NAFTA). As a result of the India       ■■   OIA coordinated numerous training internships for
     dialogue, India permitted foreign firms to become                 staff from foreign regulators at the CFTC’s offices.
     members of India’s national commodity exchanges                   Recent internships were provided to staff from the
     and U.S. CPOs to register with the India regulator as             following foreign regulatory agencies:    CSRC, Korea
     “foreign institutional investors.” Within the NAFTA               Financial Services Commission, Securities Commission
     Dialogue OIA promoted greater access by U.S.                      of El Salvador, Securities and Surveillance Commission
     exchanges to Mexico.     Within the EU Dialogue, OIA              of Japan (SESC), and representatives sponsored by the
     staff discussed issues related to the recognition of              government of Yemen under a Financial Services
     exchanges and brokers, exchange mergers and imple-                Volunteer Program.
     mentation of EU market legislation. Within the China
                                                                  ■■   In November 2007, CFTC staff provided technical
     Dialogue, OIA raised a number of issues that focused
                                                                       training to a delegation of 20 representatives from
     on promoting greater access by U.S. firms to Chinese
                                                                       CSRC.
     markets and the ability of Chinese nationals to access
     U.S. markets. OIA staff also provided issues of concern      ■■   CFTC staff provided comments to the Egyptian Ministry
     to staff at Treasury in connection with Treasury’s partic-        of Investments and Capital Market Authority on draft
     ipation in the Financial Stability Forum and discussed            commodities regulations.
     futures-related issues related to the Doha round of
                                                                  ■■   In August 2008, CFTC staff presented a three-day
     trade negotiations.
                                                                       training program on market surveillance, including the
■■   As a follow-up to the China Dialogue, OIA met with                CFTC large trader reporting system. Approximately 30
     Treasury’s financial attaché in Beijing to discuss                regulators from Brazil; China; Colombia; Ethiopia;
     ongoing negotiations in the Strategic Economic                    Hong Kong; India; Japan; Quebec, Canada; and
     Dialogue, including issues relating to access by U.S.             Romania attended.
     firms and market participants to the Chinese markets.
                                                                  ■■   The annual International Symposium and Training
■■   OIA participated with the CFTC Acting Chairman in a               Program on Regulation of Derivative Products, Markets,
     meeting with CESR’s Chairman to discuss common                    and Financial Intermediaries (October 2007), which
     points of interest, including an agreement to work on a           was attended by over 100 participants from 30 coun-
     project to facilitate Internet-based searches of the regu-        tries, allows the CFTC to share its experiences and
     latory registration statutes of the CFTC and CESR                 exchange ideas concerning how derivatives regulators
     member agencies.                                                  can better meet new risks and challenges. This training
                                                                       program helps facilitate cooperation and essential
■■   OIA coordinated and participated in meetings between
                                                                       dialogue so that the CFTC may continue to ensure
     CFTC senior staff and International Monetary Fund
                                                                       customer and market protections.
     staff to discuss heightened concerns with regard to
     activity in agricultural and energy commodities.             ■■   The annual International Regulators Meeting held in
                                                                       conjunction with the FIA annual conference, brought
Providing technical assistance
                                                                       together over 40 global regulators to address regulatory
■■   CFTC senior staff, funded by the U.S. Agency for                  challenges of a changing marketplace. Such meetings
     International Development (USAID) in 2008, provided               allow regulators to identify issues of common concern
     on-site technical assistance in Ethiopia for approxi-             and to share ideas about different approaches to
     mately 30 staff from the newly formed Ethiopian                   address such issues.
     Commodity Exchange Authority.




86       CFTC
                                                                        P E RF O R M A N C E S E C T I O N




  Performance Measure 3.4.2 Number of rulemakings, studies, interpretations, and guidances to ensure market
  integrity and exchanges’ compliance with regulatory requirements.




    Measurement: Number
    Status:         Effective
    Data Source:    Federal Register, proposed
                    and final amendments to
                    regulations, notices and
                    orders, and staff statements
                    of guidance.
    Verification:   Proposed and final
                    regulations are published in
                    the Federal Register and
                    posted on the Commission’s
                    Web site.




Lead Program Offices                                               interpretation, or guidance may not be known or may not
                                                                   have reached a decision-making point until further analysis
Division of Clearing and Intermediary Oversight                    and other actions or events have taken place. This also can
Division of Market Oversight                                       account for a difference between the fiscal year plan and
                                                                   actual.

Performance Analysis & Review                                      Division of Market Oversight: The number of rulemakings,
                                                                   studies, interpretations, and statements of guidance is not a
Division of Clearing and Intermediary Oversight:          DCIO
                                                                   number that can be forecasted precisely. The final number is
completed a combined total of 25 rulemakings, interpreta-
                                                                   driven, in part, by changes in the marketplace or in the oper-
tions, orders, and statements of guidance that addressed
                                                                   ations of exchanges that may not be foreseeable at the time
regulatory efforts to ensure market integrity and exchanges’
                                                                   the performance estimate is prepared.
compliance with regulatory requirements.           The combined
total exceeded DCIO’s fiscal year plan of 17.
                                                                   Performance Highlights
The number of rulemakings, studies, orders, interpretations,
and statements of guidance to ensure market integrity and          Division of Clearing and Intermediary Oversight: The
exchanges’ compliance with regulatory requirements is not a        Commission amended its regulations concerning the regis-
number that can be precisely predetermined.            The final   tration of firms outside the United States that are engaged in
number of these combined statistics reported by DCIO is            intermediating commodity interest transactions on U.S.
driven, in part, by changes in the marketplace, or in the struc-   DCMs and DTEFs. The amended regulations codify past
ture of the exchanges, clearing organizations, and intermedi-      actions of the Commission or its staff to permit certain
aries that operate within that marketplace. The number can         foreign firms, specifically, those that limit their customers to
be a function of what is needed to allow appropriate market        foreign customers, and submit U.S. DCM and DTEF business
interrelationships to be maintained and to allow the               on behalf of those customers for clearing on an omnibus
exchanges, clearing organizations, and intermediaries to           basis through a registered FCM, to be exempt from registra-
operate in the most efficient manner possible. These factors       tion as an FCM pursuant to Section 4d of the Act.
may not be foreseeable at the time the performance estimate        The amended regulation similarly extends the relief from
is prepared. In addition, the need for a rulemaking, study,        registration to those foreign persons acting in the capacity of




                                                                                                                   CFTC        87
an IB, CTA, and CPO solely on behalf of foreign customers.       function are subject to large trader position reporting,
The amendment brought greater clarity and legal certainty to     position limits and/or accountability level regimes, self-regu-
Commission registration requirements by codifying the            latory oversight, and the Commission’s emergency authority.
longstanding Commission policy, known as the “foreign            Notably, the Commission’s recommended CEA revisions
broker exemption,” on the activities of certain foreign inter-   served as the basis for significant portions of the Farm Bill.
mediaries engaged in soliciting or accepting commodity
interest transactions solely on behalf of customers located      In September 2008, the Commission issued a public report
outside the United States.                                       regarding the role of commodity index traders and swap
                                                                 dealers in trading on regulated futures exchanges and related
DCIO prepared an interpretative statement issued by the
                                                                 OTC markets. The report, which was based upon an analysis
Commission regarding the bankruptcy treatment of customer
                                                                 of trading data provided in response to a comprehensive set
funds related to cleared-only contracts. The interpretation
                                                                 of Commission-issued special calls, included various regula-
concluded that claims arising out of cleared-only contracts
                                                                 tory and operational recommendations such as removing
are properly included within the meaning of “net equity” for
                                                                 swap dealers from the commercial category and creating a
purposes of the U.S. Bankruptcy Code and Commission
                                                                 new swap dealer classification for Commitments of Traders
regulations.
                                                                 (COT) reporting purposes; publishing a new periodic supple-
Division of Market Oversight:        In October 2007, the        mental report on OTC swap dealer activity; creating a new
Commission delivered to Congress a report that included          CFTC Office of Data Collection with enhanced procedures
recommendations to increase the oversight of some trading        and staffing; developing “long form” reporting for certain
activity on ECMs.     The report, which was issued after         large traders to more accurately assessing types of trading
analyzing a substantial number of comments and conducting        activity; and reviewing whether to eliminate bona fide hedge
a public hearing, recommended legislative changes to ensure      exemptions for swap dealers and create a new limited risk
that ECMs contracts that serve a significant price discovery     management exemption.




88     CFTC
                                                                                          P E RF O R M A N C E S E C T I O N




      Performance Measure 3.4.3 Percentage of requests for no-action or other relief completed within six months
      related to novel market or trading practices and issues to facilitate innovation.




        Measurement: Percentage
        Status:         Effective
        Data Source:    Applicant’s letter requesting
                        relief and Commission letter
                        of response.
        Verification:   Applicant’s letter and
                        supporting documentations
                        maintained in internal
                        tracking system, FILAC13.
                        Responses to formal
                        request published on the
                        Commission’s Web site.




Lead Program Office                                                                On August 20, 2008, DMO issued a letter granting no-action
                                                                                   relief to permit Nord Pool ASA (Nord Pool or the Exchange)
Division of Market Oversight                                                       to make its electronic trading and order matching system
                                                                                   (ETS) and its Application Program Interface (API), available

Performance Analysis & Review                                                      to Exchange members in the United States without obtaining
                                                                                   contract market designation or registration as a derivatives
In FY 2008, DMO issued four no-action letters in response to                       transaction execution facility pursuant to Sections 5 and 5a
requests for formal no-action relief from requirements of the                      of the CEA.
CEA. Each letter was issued by DMO within six months of
the receipt of the relief request.                                                 DMO also issued on September 26, 2008 a similar no–action
                                                                                   relief letter to BM&F, a Sao Paolo, Brazil-based futures
                                                                                   exchange. BM&F received permission to allow direct access
Performance Highlights                                                             by its U.S.-based trading members to trade various agricul-
                                                                                   tural, metal currency and equity under futures products.
On June 17, 2008 and July 3, 2008, DMO issued letters to
ICE Futures Europe and the Dubai Mercantile Exchange,
respectively, amending their no-action relief to provide that,
to the extent that their contracts settle against the price of
any DCM or DTEF contract, the exchanges must set compa-
rable position limits or position accountability levels on
these contracts, publish daily trading information, and
provide the Commission with a daily report of large trader
positions.




13
     	Refer to CFTC Information Technology Systems in the Appendix for a description in functionality.




                                                                                                                                CFTC          89
  Performance Measure 3.4.4 Percentage of total requests receiving CFTC responses for guidance and advice.




     Measurement: Percentage
     Status:         Effective
     Data Source:    Signed letters (formal) and
                     email and telephone
                     responses (informal).
     Verification:   Agency files maintained in
                     chronological files and
                     responses to formal request
                     are published on
                     Commission’s Web site.




Lead Program Offices                                              Staff respond to informal guidance and advice request in a
                                                                  very short period of time, usually no longer than a period of
Division of Clearing and Intermediary Oversight                   days.   To the extent that staff are unable to provide an
Division of Market Oversight                                      informal response to such requests, the requester is advised
                                                                  to submit a formal request for guidance. DMO staff strive to
                                                                  address such formal requests within six months of receipt.
Performance Analysis & Review
Division of Clearing and Intermediary Oversight: Performance      Performance Highlights
target was met for FY 2008. DCIO staff respond to numerous
requests for guidance and advice on the Act and Commission        Division of Clearing and Intermediary Oversight: In FY 2008,
regulations each year. Requests are received from members         DCIO responded to several requests for exemptive relief by
of the public, market participants, intermediaries, SROs,         registered CPOs of commodity pools, whose shares of which
foreign entities, and others. These requests may be formal,       the CPOs intended to publicly offer and to list for trading on
such as written requests for no-action, interpretative, or        national securities exchanges. The relief granted by DCIO
exemption letters. DCIO also receives numerous informal           was based on the requirement that the CPOs complied with
requests for guidance and advice via email and phone calls.       comparable disclosure, reporting and recordkeeping require-
Although DCIO responds to all requests received, it is not        ments imposed by securities regulators. (See Staff Letters
always possible for DCIO to respond within the fiscal year        08-01, dated January 11, 2008; 08-02, dated January 29,
that it receives a request.                                       2008; 08-15, dated August 20, 2008; and 08-16, dated
                                                                  September 3, 2008.) The Commission’s flexible approach
Division of Market Oversight:              DMO staff respond to   allows new products to develop while it ensures that its regu-
numerous requests for guidance and advice on the CEA and          latory requirements are met, in this case through a substi-
Commission regulations each year. These requests may be           tuted compliance program.
informal, via email or phone calls, or formal in the form of
requests for no-action, interpretative, or exemptive letters.




90       CFTC
Strategic Goal Four: Organizational Excellence
   Goal Four: Facilitate Commission performance through organizational and management
   excellence, efficient use of resources, and effective mission support.



   Outcome Objective 4.1: A productive, technically competent and diverse workforce that takes
   into account current and future technical and professional needs of the Commission.
      n	   Annual Performance Goal 4.1: Recruit, retain, and develop a skilled and diversified staff to
           keep pace with attrition and anticipated losses due to retirement.


   Outcome Objective 4.2: A modern and secure information system that reflect the strategic
   priorities of the Commission.
      n	   Annual Performance Goal 4.2: Link business decisions on information technology
           resources to CFTC strategic goals by establishing a decision-making and review process
           for allocation of information technology resources.


   Outcome Objective 4.3: An organizational infrastructure that efficiently and effectively responses
   to and anticipates both the routine and emergency business needs of the Commission.
      n	   Annual Performance Goal 4.3: A fully operational Contingency Planning Program to
           ensure the CFTC is prepared for emergencies and is fully capable of recovery and
           reconstitution.


   Outcome Objective 4.4: Financial resources are allocated, managed, and accounted for in
   accordance with the strategic priorities of the Commission.
      n	    Annual Performance Goal 4.4: A clean audit opinion for CFTC.


   Outcome Objective 4.5: The Commission’s mission is fulfilled and goals are achieved through
   sound management and organizational excellence provided by executive leadership.
      n	   Annual Performance Goal 4.5: Progress in completing the 18 priorities established in the
           Commission Strategic Plan for FY 2007 through FY 2012.                         CFTC      91
  Performance Measure 4.1.1 Percentage of fiscal year program development objectives met under CFTC pay for
  performance authority.




 Measurement: Percentage
 Status:         Effective
 Data Source:    Memoranda and policy documents published by
                 the Chairman, Pay Parity Governance
                 Committee, and Office of the Executive Director,
                 which are posted on the CFTC Intranet.
 Verification:   The NFC personnel/payroll system documents
                 that the first pay for performance base pay
                 changes took effect on July 6, 2008. The new
                 incentive awards program policy was published
                 on May 1, 2008, in coordination with on-site
                 training sessions in all regions on its use that
                 also incorporated employee focus groups to
                 solicit ideas for future benefits programs
                 modifications under this authority.




Lead Program Office                                                 Performance Highlights
Office of Human Resources (OHR)                                     ■■   The CFTC pay, performance management, and incen-
                                                                         tive awards policies were updated to respond to
                                                                         employee input and to ensure that the policies work
Performance Analysis & Review
                                                                         together to support an environment of shared account-
The Commission met all objectives for FY 2008. These objec-              ability for meeting CFTC goals and objectives. In
tives are part of a multi-year plan to implement pay for                 support of these programs, the first Chairman’s
performance under the agency’s statutory compensation                    honorary awards ceremony took place on September 25,
authority. All employees contributed to this goal by providing           2008, with participation by all regions.
input to the development of the pay for performance program
                                                                    ■■   The Pay Parity Governance Committee continued its
and by successfully implementing new provisions, such as
                                                                         review of compensation program options in the areas
quarterly discussions of performance, goals, objectives, and
                                                                         of benefits and position classification, based on input
outcomes. This participative, transparent approach, which
                                                                         from employee focus groups and interviews with
included employee focus groups and the publication of statis-
                                                                         managers. The committee, which includes representa-
tics on awards and performance rating, contributed to the
                                                                         tives from all segments of the CFTC, completed its
agency’s success in using its compensation authority. The
                                                                         initial recommendations on benefits program options
CFTC efforts have resulted in recruitment and retention of
                                                                         that would best serve to enhance employee recruitment
skilled employees and in the positive results of the last two
                                                                         and retention. This will allow continued incremental
all-employee surveys on the CFTC work environment.
                                                                         improvements and set the stage for meeting the
                                                                         objectives set for this performance element for the
                                                                         coming year.




92      CFTC
                                                                           P E RF O R M A N C E S E C T I O N




  Performance Measure 4.1.2 Average number of days between close of vacancy announcement and job offer,
  per Federal standards of 45 days or less.




  Measurement: Number
  Status:         Effective
  Data Source:    Running account on status of the priority hiring
                  initiative is updated and distributed weekly to
                  agency offices and divisions.
  Verification:   Vacancy announcements with opening and
                  closing dates are published on the
                  Commission’s Web site. Offer letters to
                  candidates are filed in the candidate’s official
                  personnel folder and maintained in OHR
                  according to Office of Personnel Management
                  (OPM) guidelines.




Lead Program Office                                                  Performance Highlights
Office of Human Resources                                            ■■   Built an agency priority hiring team that effectively
                                                                          responded to ambitious recruitment goals with timely
                                                                          identification and appointment of high-quality candi-
Performance Analysis & Review
                                                                          dates.   Actions included rigorous examination and
The FY 2008 priority hiring initiative to fill 65 positions is the        update of recruitment tools and processes, including
first major recruitment effort by the agency in several years.            job analyses and crediting plans used to rate and rank
This required a significant level of effort by the Commission’s           candidates, and contact listings for targeted recruitment
program offices and OHR at a time when the agency was                     efforts to increase the diversity and overall strength of
understaffed and experiencing extreme demands on its time                 the applicant pools.
to respond to market events. The selecting officials and the
                                                                     ■■   In addition to the strenuous efforts to rapidly fill
OHR staff successfully updated recruitment strategies and
                                                                          permanent positions, the Commission dedicated
efficiently processed the large number of qualified candidates
                                                                          significant resources to filling approximately 50
who applied. Given these constraints and challenges, the
                                                                          summer positions. This major hiring effort was under-
agency’s ability to come so close to its 55-day objective for
                                                                          taken as a way to meet immediate workforce needs and
completing hiring effectively met the goal.
                                                                          as an investment in publicizing to entry level and other
                                                                          candidates the CFTC’s mission and its appeal as a
                                                                          potential future employer.




                                                                                                                    CFTC       93
  Performance Measure 4.1.3 Rate of employee turnover, exclusive of retirements.




  Measurement: Percentage
  Status:         Effective
  Data Source:    Records entered in the NFC
                  personnel/payroll system to effect each
                  action, with crosscheck compilation
                  and summary report by CFTC’s Office
                  of Financial Management (OFM).
  Verification:   Each turnover action is recorded in the
                  NFC full-service personnel/payroll
                  system and is daily tracked by OFM to
                  identify and project the status of FTEs
                  and funding for the fiscal year.




Lead Program Office                                               Performance Highlights
Office of Human Resources                                         ■■   The Pay Parity Governance Committee, with input
                                                                       from employee focus groups in headquarters and each
                                                                       regional office, formulated recommendations for
Performance Analysis & Review
                                                                       benefit program revisions in time for the inclusion of
CFTC exceeded its goals for employee retention during FY               supportive funding in the budget formulation for
2008. This is one measure of Commission success in building            FY 2009.
and sustaining a work environment that makes it an employer
                                                                  ■■   To assure that employees who are eligible to retire only
of choice for a workforce with the mission-critical competen-
                                                                       do so after full, informed consideration of the financial
cies that are in high demand in the labor market. Through
                                                                       and psychological implications, the Commission
effective efforts to retain permanent staff members, the
                                                                       provided on-site retirement and financial planning
Commission protects its knowledge base, optimizes the avail-
                                                                       services for eligible employees. Over 100 staff members
ability of trained staff to meet workload demands, and mini-
                                                                       took advantage of these consulting services. While the
mizes the costs of repeated recruitment and development of
                                                                       objective was to support prudent retirement planning
replacement hires. This goal has not been easy to meet in the
                                                                       by each employee, the service also supported the
face of external wage pressures. In response, the CFTC used its
                                                                       Commission’s retention and recruitment efforts by
pay parity authority to develop an attractive package of total
                                                                       demonstrating the supportive nature of the CFTC work
compensation.
                                                                       environment.




94      CFTC
                                                                           P E RF O R M A N C E S E C T I O N




  Performance Measure 4.1.4 Percentage of employees in mission-critical positions rating themselves at
  “extensive” or higher level of expertise on Strategic Workforce Planning Survey.




  Measurement: Percentage
  Status:         Effective
  Data Source:    Self-assessments of over 95% of agency
                  employees who completed the FY 2008 online
                  Strategic Workforce Planning Survey.
  Verification:   The aggregate statistical results of this annual
                  survey were presented to executive management
                  January 2008. The data elements on the
                  self-assessment of agency employees in the
                  major categories of mission-critical positions
                  (Economist, Auditor, Attorney, and Futures
                  Trading Specialist/Investigator) captured the
                  percentage of total headcount in each job series
                  rating themselves at the “extensive” or higher
                  level of expertise for their position of record.




Lead Program Office                                                  Performance Highlights
Office of Human Resources                                            ■■   Division and office heads received their third annual
                                                                          Strategic Workforce Planning Survey reports during FY
                                                                          2008.   These reports provide objective, quantitative
Performance Analysis & Review
                                                                          data to help them to assess pending workforce issues
The CFTC-wide survey results substantially exceeded the goal              and to develop or acquire the critical employee compe-
for this measure. Since the overall objective of the strategic            tencies they need as employees retire or leave the
management of human capital is to have competent                          agency or as the nature of their work changes.
employees in each position, this measure indicates that the
                                                                     ■■   OHR drafted policy documents to encourage more
Commission can be confident in the availability of the critical
                                                                          effective use of the Commission’s extensive training
skills needed to meet mission requirements. Contributors to
                                                                          and career development resources. The goal of the
this trend include success in recruiting and training highly-
                                                                          policy is to help individuals and organizations target
competent staff and supporting them with ongoing career
                                                                          the development of the major job competencies needed
development resources. In addition, mandatory quarterly
                                                                          to meet the goals and objectives mapped of the CFTC
performance reviews heighten understanding of the critical
                                                                          Strategic Plan for 2007 – 2012.
elements for success in meeting individual duties and respon-
sibilities. The resulting employee confidence is especially
notable because it occurred despite the substantial potential
for loss of institutional memory as many long-time employees
retired over the past two years.




                                                                                                                   CFTC     95
  Performance Measure 4.1.5 Percentage of underrepresented groups among new hires.




 Measurement: Percentage
 Status:         Effective
 Data Source:    Documentation consists of
                 self-identification provided by new hires
                 when they enter on duty and complete
                 Standard Form 181, Ethnicity and Race
                 Identification, creating a data element that
                 is also a required entry in the NFC
                 personnel/payroll system employment
                 record.
 Verification:   Results represent compilation of all
                 available self-identification form results,
                 whether on hard copy kept in secure OHR
                 file or from the NFC database.




Lead Program Office                                                 offices and divisions drew on a diverse pool of selecting offi-
                                                                    cials to represent the Commission during the recruitment
Office of Human Resources
                                                                    process. These incremental efforts build on and reinforce
                                                                    one another, promising that ongoing recruitment outcomes
Performance Analysis & Review                                       for this measure will continue an upward trend and secure
                                                                    the benefits of an increasingly diverse CFTC workforce.
OHR consulted with the Office of Equal Employment
Opportunity to set a 27 percent goal that approximates the
diversity of the Nation’s workforce. Self-identification by the     Performance Highlights
FY 2008 hires indicates substantial progress and reflects the
                                                                    ■■   Achieved significant representative hiring when filling
success of CFTC’s targeted recruitment efforts. During FY
                                                                         positions across the full range of Commission position
2008, CFTC updated and expanded email contacts for the
                                                                         types and grade levels.
distribution of agency vacancy announcements. In addition,
the agency implemented a substantial summer employment              ■■   Achieved a 43 percent minority representation rate
program that increased its visibility to a diverse pool of candi-        when filling approximately 50 summer positions,
dates, encouraging a broad base of individuals to consider               increasing agency recruitment visibility for the future
the Commission as a permanent employer when they                         and securing a number of those hires for continuing
complete their education. In addition, the Commission’s                  internships during the school year.




96         CFTC
                                                                         P E RF O R M A N C E S E C T I O N




  Performance Measure 4.2.1 Percentage of CFTC information technology resources directly tied to Commission
  resource priorities as stated in the Strategic Plan.




  Measurement: Percentage
  Status:         Adequate
  Data Source:    IT budget documents, Enterprise
                  Architecture documents, and the CFTC
                  Strategic Plan.
  Verification:   IT planning and procurement process
                  meetings with the Chief Information
                  Officer (CIO) and OITS staff are held and
                  documented twice monthly. Meetings
                  assure that planning and procurement
                  adhere to the Enterprise Architecture and
                  the CFTC Strategic Plan.




Lead Program Office                                                 Performance Highlights
Office of Information and Technology Services (OITS)                The CFTC continues to fund IT initiatives in support of its
                                                                    strategic plan. As an example, the Strategic Plan’s Strategic
                                                                    Priority 1.1 is to “Enhance technology capability and data
Performance Analysis & Review                                       standards to recognize, understand, and adapt to market
The CFTC establishes its IT resources through a planning            changes.” In support of this priority, the CFTC has funded
and procurement process based on the strategic goals of the         key initiatives such as the TSS, which uses complex algo-
CFTC.                                                               rithms to find trade practice violations. The CFTC is also
                                                                    aggressively pursuing data standardization for collecting
The CFTC holds IT planning and procurement process
                                                                    data in support of the trade surveillance program. Over the
meetings twice a month to assure its alignment of IT
                                                                    last year and a half, the CFTC has been meeting with the
resources with the strategic plan.          These meetings review
                                                                    futures industry to adopt Financial Information Exchange
the planning and procurement documents and assure that
                                                                    Markup Language (FIXML), a world-wide standard that will
adequate resources are requested to support CFTC goals.
                                                                    improve data quality and flexibility for the CFTC and the
The planning and procurement process tracks planned
                                                                    futures industry. The CFTC is currently processing FIXML
versus actual budgets and aligns priorities as needed.
                                                                    test files from a major exchange, and will be implementing
Because of tight budget constraints, the CFTC has been
                                                                    FIXML in FY 2009.
forced to postpone some infrastructure upgrades and has
requested additional funds to meet its growing infrastruc-
ture needs.




                                                                                                                  CFTC       97
      Performance Measure 4.2.2 Percentage of major information technology investments having undergone an
      investment review within the last three years.




        Measurement: Percentage
        Status:         Adequate
        Data Source:    Investment Review Board
                        documents.
        Verification:   Investment Review Board
                        documents created by
                        project managers. Project
                        managers update the
                        Investment Review Board
                        documents; incorporating
                        comments




Lead Program Office                                                               Performance Highlights
Office of Information and Technology Services                                     The CFTC recently has completed its eLaw investment
                                                                                  review board. eLaw provides CFTC with automated tools
                                                                                  and a litigation support team to assist staff in performing
Performance Analysis & Review
                                                                                  their work more efficiently and effectively and gives the
The CFTC conducted IT investment reviews for all of CFTC’s                        lawyers the ability to rapidly query and retrieve informa-
major systems within the last three years. The major systems                      tion about investigations and litigation. Its sophisticated
include the TSS, eLaw14, ISS, and the CFTC network. The                           search and retrieval capabilities support recurrent and ad
CFTC reviews its major systems to assure that technology is                       hoc reporting requirements, and provide a collaborative
meeting the needs of the CFTC and is properly aligned with                        electronic   work   environment      across   geographically
the strategic goals of the Commission.                    These thorough          dispersed locations (Washington, D.C.; Chicago; New York;
reviews include senior management, business users, IT                             and Kansas City). eLaw provides remote access to and
professionals, and the CFO staff. The review boards found                         presentation of documentary and analytic evidence, trial
that CFTC’s major systems continue to exceed expectations,                        presentation and support capabilities, and forensics tracking
and are within budget.                                                            information on seized computer equipment.




14
     	Refer to CFTC Technology Systems in the Appendix for a description of functionality.




98           CFTC
                                                                     P E RF O R M A N C E S E C T I O N




  Performance Measure 4.2.3 Percentage of Customer Support Center inquiries resolved within established
  performance metrics.




   Measurement: Percentage
   Status:         Effective
   Data Source:    Customer support logs.
   Verification:   Customer support logs are
                   recorded daily and
                   reviewed periodically by the
                   associate director for
                   customer support.




Lead Program Office                                            Performance Highlights
Office of Information and Technology Services                  In FY 2008, the CFTC resolved 84 percent of its inquiries
                                                               within established performance metrics, exceeding its goal
                                                               of 80 percent. In addition, the CFTC’s monthly user satis-
Performance Analysis & Review                                  faction surveys showed that 95 percent or more of the users
The CFTC exceeded its goal of resolving 80 percent of inqui-   rated the Commission’s Customer Support Center’s service
ries within tight performance metrics. The CFTC tracks its     as satisfactory or better.
customer support inquiries and their resolution through a
sophisticated customer support system. The system also
allows the CFTC to organize inquiries so that the CFTC
can proactively make decisions to improve service and
reduce issues.




                                                                                                           CFTC       99
  Performance Measure 4.2.4 Percentage of employees with network availability.




    Measurement: Percentage
    Status:         Adequate
    Data Source:    Network logs.
    Verification:   Network logs are recorded
                    daily and reviewed
                    periodically by the
                    associate director for
                    network operations.




Lead Program Office                                            Performance Highlights
Office of Information and Technology Services                  The CFTC is committed to providing the best possible IT
                                                               support to its staff. As part of this commitment, the CFTC
                                                               achieved 100 percent network conductivity by utilizing
Performance Analysis & Review                                  redundant circuits to avoid network outages that would
The CFTC maintains connectivity through redundant servers      have cost the CFTC time and productivity. In addition, the
in Washington, D.C. and Chicago. The CFTC has requested        CFTC has invested in technology to assure the performance
additional funds to upgrade its aging network infrastructure   of the network is optimized, so there is negligible delay in
to meet growing needs. The requested additional funds will     accessing information.
allow the CFTC to continue to support its strategic goals by
assuring network availability through refreshment of
technology.




100     CFTC
                                                                    P E RF O R M A N C E S E C T I O N




  Performance Measure 4.2.5 Percentage of employees who require remote network availability that have it.




    Measurement: Percentage
    Status:         Adequate
    Data Source:    Network logs.
    Verification:   Network logs are recorded
                    daily and reviewed
                    periodically by the
                    associate director for
                    network operations.




Lead Program Office                                            Performance Highlights
Office of Information and Technology Services                  The CFTC is committed to providing the best possible IT
                                                               support to its staff. As part of this commitment, the CFTC
                                                               achieved 100 percent network conductivity by utilizing
Performance Analysis & Review                                  redundant circuits to avoid network outages that would
The CFTC maintains connectivity through redundant servers      have cost the CFTC time and productivity. In addition, the
in Washington, D.C. and Chicago. The CFTC has requested        CFTC has invested in technology to assure the performance
additional funds to upgrade its aging network infrastructure   of the network is optimized, so there is negligible delay in
to meet growing needs. The requested additional funds will     accessing information.
allow the CFTC to continue to support its strategic goals
by assuring network availability through refreshment of
technology.




                                                                                                            CFTC      101
  Performance Measure 4.2.6 Percentage of major systems and networks certified and accredited in accordance
  with NIST guidance.




    Measurement: Percentage
    Status:         Adequate
    Data Source:    Accreditation documenta-
                    tion.
    Verification:   Accreditation reviews are
                    conducted and
                    documented by the chief
                    information security officer
                    and approved by the CIO.




Lead Program Office                                            Performance Highlights
Office of Information and Technology Services                  The CFTC recently completed its eLaw accreditation. eLaw
                                                               provides CFTC with automated tools and a litigation
                                                               support team to assist staff in performing their work more
Performance Analysis & Review                                  efficiently and effectively and gives the lawyers the ability to
All four major CFTC systems are accredited.        The CFTC    rapidly query and retrieve information about investigations
conducted IT investment reviews for all its major systems,     and litigation. Its sophisticated search and retrieval
TSS, eLaw, ISS, and the CFTC network, within the last three    capabilities support recurrent and ad hoc reporting
years. The CFTC reviews its major systems to assure that       requirements and provide a collaborative electronic work
technology is meeting the needs of the CFTC and is properly    environment across geographically dispersed locations
aligned with the strategic goals of the Commission. These      (Washington, D.C.; Chicago; New York; and Kansas City).
reviews include senior management, business users, IT          eLaw provides remote access to and presentation of docu-
professionals, and CFO staff. The review boards found that     mentary and analytic evidence, trial presentation and
CFTC’s major systems continue to exceed expectations and       support capabilities, and forensics information tracking on
are within budget. OITS continues to accredit its major        seized computer equipment.
systems as required.        eLaw was the latest major system
accredited (September 16, 2008).




102     CFTC
                                                                      P E RF O R M A N C E S E C T I O N




  Performance Measure 4.2.7 Percentage of information technology E-Government initiatives on target for
  compliance with implementation schedule.




    Measurement: Percentage
    Status:         Adequate
    Data Source:    E-Government documents.
    Verification:   E-Government documents
                    are created by the OITS
                    staff and reviewed by the
                    CIO.




Lead Program Office                                              users, including representatives from the futures industry,
                                                                 SROs, and the public.
Office of Information and Technology Services
                                                                 In FY 2008, the agency initiated an email subscription
                                                                 service that has allowed stakeholders and users to be
Performance Analysis & Review
                                                                 notified immediately of any updates in information of
The CFTC met 100 percent of its E-Government initiatives.        interest to them published on the Web site. The number of
The CFTC oversees the futures industry, one of the world’s       subscribers is 5,687 and the number of subscriptions is
largest and fastest growing markets. The futures markets         currently 26,549. The top updates requested are in the
depend heavily on electronic trading. The CFTC must use          categories of Press Releases, Commitments of Traders,
technology effectively and efficiently to meet its mission of    Speeches and Testimony, Financial Data for FCMs, and
protecting market users and the public from fraud, manipu-       CFTC Calendar.
lation, and abusive practices related to the sale of commodity
                                                                 As part of the CFTC’s ongoing effort to protect market partic-
and financial futures and options, and to foster open,
                                                                 ipants and the public from fraud, manipulation, and abusive
competitive, and financially sound futures and option
                                                                 practices, in FY 2008, the agency made its disciplinary
markets. Meeting the mandates of the E-Government Act in
                                                                 history available to the public in a new searchable format
many cases provides direct support for the CFTC in fulfilling
                                                                 through CFTC.gov. Specifically, the agency’s Reparations
its mission. The CFTC has met its E-Government goals by
                                                                 Sanctions in Effect and Administrative Sanctions in Effect
enhancing its Web site, as described below.
                                                                 are now searchable by respondent name and by CFTC
                                                                 docket number or NFA ID. In addition, the Industry Filings
Performance Highlights
                                                                 Search Tool, made available on the Web site in FY 2007, has
The CFTC has met its requirements for compliance with            been enhanced over the past year to provide its users with
E-Government initiatives including Web site and records          access to information about, and filings by, U.S. and foreign
management.                                                      trading facilities and clearing organizations.

Specifically, CFTC’s Web site, CFTC.gov, continues to            During FY 2008, the CFTC initiated the use of Webcasting
provide an example of an internal agency-specific                to make meetings and other events more widely available
E-Government initiative that is transforming agency opera-       and accessible to its stakeholders and members of the
tions. The Commission maintains close communication              public. To date, three advisory committee meetings and a
with its stakeholders to ascertain their needs and attempt to    forum to discuss events affecting the agriculture markets
meet those needs through CFTC.gov. The agency wants              have been Webcast. Webcasts are archived on CFTC.gov.
CFTC.gov to reflect the input and feedback of its external


                                                                                                                  CFTC    103
  Performance Measure 4.2.8 Percentage of network users who have completed annual security and privacy
  training.




    Measurement: Percentage
    Status:         Effective
    Data Source:    Annual security and privacy
                    training documents and
                    attendance sheets.
    Verification:   Annual security and privacy
                    training is conducted and
                    documented by the chief
                    information security officer
                    and reported in the agency’s
                    FISMA filing to OMB.




Lead Program Office                                             Performance Highlights
Office of Information and Technology Services                   The CFTC exceeded its goal of 98 percent completion of its
                                                                annual security and privacy training. Through multiple
                                                                training sessions and multi-media presentations, the CFTC
Performance Analysis & Review                                   was able to accommodate the busy schedules of its
The Commission exceeded its annual security and privacy         employees. The CFTC was able to use its IT capabilities to
training goal. FISMA requires that all Federal employees        conduct the training at its remote locations, assuring access
and contractors receive annual security and privacy training.   to all employees.
The CFTC takes security and privacy training very seriously
and is proud that 99 percent of the staff were trained in
security and privacy training this year, exceeding the CFTC’s
goal of 98 percent.




104     CFTC
                                                                    P E RF O R M A N C E S E C T I O N




  Performance Measure 4.3.1 Number of hours required to deploy staff and begin mission essential functions at
  the COOP site.




  Measurement: Number
  Status:         Moderately Effective
  Data Source:    DHS/FEMA National Level Exercise (NLE)
                  2-08 Eagle Horizon 2008 Continuity
                  Evaluation; EOP/OSTP National Communi-
                  cations Systems Directive (NCSD) 3-10
                  Compliance Report; and DHS/FEMA
                  approval of CFTC Mission Essential
                  Function/Primary Mission Essential
                  Function (MEF/PMEF) Designations.
  Verification:   The Commission’s DHS/FEMA-approved
                  NLE 2-08 After Action Report; EOP/OSTP-
                  approved NCSD 3-10 Compliant Report;
                  and DHS/FEMA-approved MEF/PMEF
                  Designations.




Lead Program Offices                                           assessed the agency’s continuity program, plans, and
                                                               procedures using an evaluation tool that tested the
Office of Management Operations
                                                               agency’s compliance with elements defined in Federal
Office of Information and Technology Services                  Continuity Directive 1, Federal Executive Branch Continuity
                                                               Program and Requirements. The CFTC was rated as
                                                               72 percent compliant with critical requirements and 94
Performance Analysis & Review
                                                               percent compliant with operational and implementation
In FY 2008, the CFTC measured its performance based on         requirements.
the agency’s participation in the U.S. Department of
                                                               In addition to the CFTC’s participation in the DHS/FEMA
Homeland Security’s (DHS) Federal Emergency Management
                                                               NLE 2-08 EH-08 program, the agency assessed and reported
Agency (FEMA) National Level Exercise 2-08 Eagle Horizon
                                                               on its compliance with the Executive Office of the President’s
08 (DHS/FEMA NLE 2-08 EH-08). The DHS/FEMA NLE
                                                               Office of Science and Technology Policy, National
2-08 EH-08 program was a mandatory full-scale exercise for
                                                               Communications       System    Directive   3-10,   Minimum
testing and evaluating the continuity capabilities of execu-
                                                               Requirements for Continuity Capabilities (NCSD 3-10). Of
tive branch departments and agencies.
                                                               the 13 communications requirements assessed for head-
The CFTC fully participated in the DHS/FEMA NLE 2-08           quarters, the CFTC fully complied with six, partially
EH-08 program. The agency deployed a team of evaluators        complied with two, and did not comply with five. For the
to its continuity facility and tested its COOP capabilities    agency’s continuity facility, the CFTC fully complied with
within 18 hours of activation of the exercise. The team        nine requirements and did not comply with four.




                                                                                                             CFTC       105
The risk to CFTC from non-compliance with regulatory            ■■   Hiring a Chief of Security and Continuity Planning to
requirements was determined to be low and to not result in           oversee the COOP program;
a significant impact on the agency’s ability to effectively
                                                                ■■   Visiting the continuity facility quarterly to ensure that
communicate or support its Primary Mission Essential
                                                                     it is operating effectively;
Functions during emergencies.       Funding for the non-
compliant requirements was requested as part of the agency’s    ■■   Testing and upgrading Blackberry capabilities for
FY 2009 and FY 2010 submissions.                                     Emergency Management officials;

                                                                ■■   Testing the Virtual Private Network service that allows
Performance Highlights                                               employees to securely access the CFTC network from
                                                                     telework or home computers; and
In FY 2008, the CFTC completed work with the DHS to
validate its Mission Essential and Primary Mission Essential    ■■   Entering into an interagency agreement with the
Functions. Validation of the agency’s functions, along with          Pension Benefit Guaranty Corporation for the use of
the assessments of compliance with continuity capabilities           office space in Washington, D.C. and Springfield,
and communications, has strengthened the CFTC’s ability              Virginia areas in the event of a building-specific emer-
to efficiently and effectively respond to and anticipate both        gency where either agency’s building is rendered
routine and emergency needs of the Commission.                       temporarily unavailable.
In addition to the CFTC program evaluations identified
above, performance highlights include:




106    CFTC
                                                                                       P E RF O R M A N C E S E C T I O N




      Performance Measure 4.4.1 Audit opinion of the Commission’s annual financial statements as reported by the
      CFTC’s external auditors.




        Measurement: Audit Criterion
        Status:         Effective
        Data Source:    CFTC Performance and
                        Accountability Report.
        Verification:   KPMG Report of the
                        Independent Auditors.




Lead Program Office                                                              Performance Highlights

Office of Financial Management                                                   The CFTC 2008 Financial Statements were presented fairly,
                                                                                 in all material respects, and in conformity with the GAAP
                                                                                 for Federal agencies.
Performance Analysis & Review
For the fourth consecutive year, the public accounting firm,
KPMG LLP, on behalf of the Inspector General, reported that
the Commission’s financial statements were presented fairly,
in all material respects, and were in conformity with the
GAAP for Federal agencies.




15
     	The Commission’s first independent audit was conducted in FY 2005 by KPMG, LLP. The Commission received an unqualified opinion on its balance sheet.




                                                                                                                                        CFTC         107
  Performance Measure 4.4.2 Number of material internal control weaknesses reported in the Performance and
  Accountability Report.




    Measurement: Number
    Status:         Effective
    Data Source:    CFTC Performance and
                    Accountability Report.
    Verification:   KPMG Report of the
                    Independent Auditors.




Lead Program Office                                           Performance Highlights
Office of Financial Management                                The CFTC had no material weaknesses in FY 2008.


Performance Analysis & Review
During FY 2006, Commission error and other deficiencies
led KPMG to find that there were material weaknesses in the
controls over financial reporting. The Commission took
corrective actions in FY 2007 to remediate two of the three
components of that material weakness finding. The areas of
controls that were corrected were over leases and civil
monetary sanctions. The last component of the material
weakness, the process for estimating year-end accounts
payable and accruals repeated, however, was downgraded to
a significant deficiency.




108     CFTC
                                                                     P E RF O R M A N C E S E C T I O N




  Performance Measure 4.4.3 Number of non-compliance disclosures in the audit report.




    Measurement: Number
    Status:         Effective
    Data Source:    CFTC Performance and
                    Accountability Report.
    Verification:   KPMG Report of the
                    Independent Auditors.




Lead Program Office                                             Performance Highlights

Office of Financial Management                                  The CFTC is in substantial compliance with laws and regula-
                                                                tions in FY 2008.

Performance Analysis & Review
The CFTC has improved its audit results over previous years
by coming into substantial compliance with laws and regu-
lations. The FY 2006 KPMG audit disclosed noncompliance
with FISMA.         Specifically, the Commission needed to
improve entity-wide security and contingency planning
programs, access controls, segregation of duties, and service
continuity to fully meet guidelines of the E-Government Act
of 2002 and OMB Circular A-130, Management of Federal
Information Resources. Moving to compliance was greatly
facilitated by migrating to a financial management systems
platform operated by the DOT’s Enterprise Service Center,
an OMB-designated financial management line of business
service provider. Over the last year, this business arrange-
ment has enabled the CFTC to accumulate, analyze, and
present reliable financial information, provide reliable,
timely information for managing current operations, and
achieve timely reporting of financial information to central
agencies.




                                                                                                            CFTC      109
  Performance Measure 4.5.1 Percentage of 18 Strategic Plan priorities that are on track to completion by
  FY 2012.




   Measurement: Percentage
   Status:         Effective
   Data Source:    Pilot operating plans related
                   to IT (Strategic Priority 1.1)
                   and human capital (Strategic
                   Priority 4.3).
   Verification:   Not applicable at pilot stage;
                   however pilot operating
                   plans related to IT (Strategic
                   Priority 1.1) and human
                   capital (Strategic Priority
                   4.3) are available for review.




Lead Program Office                                                 structuring operating plans for programmatic (mission) or
                                                                    operational (mission support) priorities; and to assist
Office of Executive Director
                                                                    managers in articulating short-term strategies for achieving
                                                                    strategic priorities in the face of ongoing changes in both
Performance Analysis & Review                                       mission authorities and budgetary resources. Additionally,
                                                                    the plans, if successful, will assist managers in adopting
The Commission in on track for completion of the Strategic
                                                                    business processes that address governance needs and
Priorities outlined in the Strategic Plan by the end of
                                                                    provides streamline documentation to measure progress in
FY 2012.
                                                                    executing plans in order to ensure priories are ultimately
In the last quarter of FY 2008, the Office of the Executive         achieved.
Director began work on developing pilot operating plans
for two Strategic Priorities that, if successful, will serve as a
                                                                    Performance Highlights
model for the remaining strategic priorities. In short, the
objectives of the operating plans are: to provide a blueprint       Pilot operating plans for two strategic objectives are in the
to managers in developing effective, efficient approaches to        formative stages.




110     CFTC
CFTC   111
         FINANCIAL SECTION




A Message from the Chief Financial Officer..........113

Limitations of Financial Statements.....................114

Principal Financial Statements............................115

Notes to the Financial Statements....................... 120

Report of the Independent Auditors...................... 131
A Message From the Chief Financial Officer

  F            or the fourth consecutive year, the public
               accounting firm KPMG LLP, on behalf of our
               Inspector General, reported that the financial
  statements included in this report were presented fairly, in
  all material respects, and in conformity with the U.S.
                                                                 Last year, KPMG identified a significant deficiency in the
                                                                 controls over Recording Accruals and Preparing Financial
                                                                 Statements. A corrective action plan was implemented to
                                                                 improve the process controls used to estimate accounts
                                                                 payable and accruals.     The Commission was able to
  generally accepted accounting principles (GAAP) for            successfully remediate this weakness and has no new
  Federal agencies.                                              significant deficiencies in the controls over its financial
                                                                 reporting.
  For the second consecutive year the Commission had no
  material weaknesses, and was compliant with laws and
  regulations. This includes substantial compliance with the
  Federal Information Security Management Act.
                                                                               Mark Carney
                                                                               Chief Financial Officer
  The CFTC leverages a financial management systems
  platform operated by the U.S. Department of Transporta-                      November 17, 2008
  tion’s (DOT) Enterprise Service Center; an Office of
  Management and Budget designated financial management
  line of business service provider. As a consequence, the
  CFTC is able to accumulate, analyze and present reliable
  financial information, or provide reliable, timely informa-
  tion for managing current operations and timely reporting
  of financial information to central agencies. Furthermore,
  our system is in substantial compliance with the Federal
  Financial Management Improvement Act of 1996 (although
  CFTC is not required to comply with FFMIA, it has elected
  to do so.)




                                                                                                             CFTC      113
   Limitations of Financial Statements
    Management has prepared the accompanying financial statements to report the financial
    position and operational results for the CFTC for FY 2008 and FY 2007 pursuant to the
    requirements of Title 31 of the U.S. Code, section 3515 (b).

    While these statements have been prepared from the books and records of the
    Commission in accordance with GAAP for Federal entities and the formats
    prescribed by OMB Circular A-136, Financial Reporting Requirements, these
    statements are in addition to the financial reports used to monitor and control
    budgetary resources, which are prepared from the same books and records.

    The statements should be read with the understanding that they represent
    a component of the U.S. government, a sovereign entity. One implication
    of this is that the liabilities presented herein cannot be liquidated
    without the enactment of appropriations, and ongoing operations are
    subject to the enactment of future appropriations.




114 114  CFTC
      CFTC
             Principal Financial Statements
Commodity Futures Trading Commission

Balance Sheets
As of September 30, 2008 and 2007

                                                                                     2008                  2007


  Assets
  Intragovernmental:
  	   Fund Balance with Treasury (Note 2)                                    $	    	27,666,831    $		 19,507,914
  	   Accounts Receivable (Note 3)                                           		         7,440              	    5,806
  	   Prepayments (Note 1H)                                                  		        47,279     		       131,142
  	   Total Intragovernmental                                                		 27,721,550        		 19,644,862

  Custodial Receivables, Net (Note 3)                                        		 1,721,526         		       620,311
  Accounts Receivable (Note 3)                                               		         4,094     		       120,470
  General Property, Plant and Equipment, Net (Note 4)                        		 2,810,441         		 2,850,911
  Prepayments (Note 1H)                                                      		       414,273     		                -

  Total Assets                                                               $		 32,671,884       $	   	23,236,554

  Liabilities
  Intragovernmental:
  	   FECA Liabilities                                                       $		       41,092     $	   	       32,787
  	   Accounts Payable                                                       		       366,651     		       274,334
  	   Total Intragovernmental                                                		       407,743     		       307,121

  Accounts Payable                                                           		 2,130,307         		 2,686,039
  Accrued Funded Payroll                                                     		 3,504,048         		 2,566,433
  Annual Leave                                                               		 4,525,329         		 4,849,189
  Actuarial FECA Liabilities (Note 7)                                        		       177,796     		       190,216
  Custodial Liabilities                                                      		 1,721,526         		       620,311
  Contingent Liabilities (Note 9)                                            		              -    		       310,000
  Deposit Fund Liabilities                                                   		              -    		           47,563
  Other - Deferred Lease Liabilities (Note 8)                                		 3,294,324         		 3,169,541
  Other                                                                      		         9,957     		           10,001
  Total Liabilities                                                          $	    15,771,030     $	   	14,756,414

  Net Position
  Cumulative Results of Operations                                           $	    	(5,224,895)   $	   	 (5,700,823)
  Unexpended Appropriations                                                  		 22,125,749        		 14,180,963
  Total Net Position                                                         		 16,900,854        		 8,480,140

  Total Liabilities and Net Position                                         $	    	32,671,884    $	   23,236,554
The accompanying notes are an integral part of these financial statements.

                                                                                                       CFTC         115
Commodity Futures Trading Commission

Statements of Net Cost
For the Years Ended September 30, 2008 and 2007

                                                                                    2008                2007


  Goal 1: Ensure the economic vitality of the commodity futures and option markets

  Gross Costs                                                                $		   31,675,123    $		   30,547,442
  Less: Earned Revenue                                                       		       (20,244)   		       (27,529)

  Net Cost of Operations – Goal One                                          $		   31,654,879    $		   30,519,913

  Goal 2: Protect market users and the public

  Gross Costs                                                                $		   25,340,098    $		   24,437,953
  Less: Earned Revenue                                                       		       (16,195)   		       (22,023)

  Net Cost of Operations – Goal Two                                          $		   25,323,903    $		   24,415,930

  Goal 3: Ensure market integrity in order to foster open, competitive, and financially
  sound markets

  Gross Costs                                                                $		   24,284,261    $		   23,419,705
  Less: Earned Revenue                                                       		       (15,520)   		       (21,105)

  Net Cost of Operations – Goal Three                                        $		   24,268,741    $		   23,398,600

  Goal 4: Facilitate Commission performance through organizational and management
  excellence, efficient use of resources, and effective mission support.


  Gross Costs                                                                $		   24,284,261    $		   23,419,705
  Less: Earned Revenue                                                       		       (15,520)   		       (21,105)


  Net Cost of Operations – Goal Four                                         $		   24,268,741    $		   23,398,600

  Grand Total

  Gross Costs                                                                $		 105,583,743     $		 101,824,805
  Less: Earned Revenue                                                       		       (67,479)   		       (91,762)

  Total Net Cost of Operations                                               $		 105,516,264     $		 101,733,043
The accompanying notes are an integral part of these financial statements.




116    CFTC
                                                                             FINANCIAL SECTION




Commodity Futures Trading Commission

Statements of Changes in Net Position
For the Years Ended September 30, 2008 and 2007

                                                                                         2008                2007


  Cumulative Results of Operations
  Beginning Balances, October 1                                                   $		   (5,700,823)   $		   (4,568,800)

  Budgetary Financing Sources

  Appropriations Used                                                             		 102,111,763      		    96,725,117

  Other Financing Sources

  	   Imputed Financing Sources                                                   		     3,880,429    		     3,875,903

  Net Cost of Operations                                                          		 (105,516,264)    		 (101,733,043)

  Net Change                                                                      		      475,928     		     1,132,023

  Total Cumulative Results of Operations, September 30                            $		   (5,224,895)   $		   (5,700,823)

  Unexpended Appropriations
  Beginning Balances, October 1                                                   $		   14,180,963    $		   13,858,546

  Budgetary Financing Sources
  	   Appropriations Received                                                     		 111,265,650      		    97,981,140
  	   Less: Canceled                                                              		    (1,209,101)   		      (933,606)
  	   Appropriations Used                                                         		 (102,111,763)    		 (96,725,117)
  		 Total Budgetary Financing Sources                                            		     7,944,786    		      322,417

  Total Unexpended Appropriations, September 30                                   $		   22,125,749    $		   14,180,963

  Net Position                                                                    $		   16,900,854    $		    8,480,140
The accompanying notes are an integral part of these financial statements.




                                                                                                             CFTC        117
Commodity Futures Trading Commission

Statements of Budgetary R esources
For the Years Ended September 30, 2008 and 2007

                                                                                        2008                   2007

  Budgetary Resources
  Unobligated Balance, October 1                                                 $	     6,986,081        $	    4,734,164
  Recoveries of Prior Year Unpaid Obligations                                           3,990,815              4,715,177
  Total Prior Resources                                                                10,976,896              9,449,341
  New Resources:
  	   Appropriations                                                                  112,050,000             97,981,140
  	   Spending Authority from Offsetting Collections
  		 Collected                                                                           708,068                 98,788
  		 Change in Receivables from Federal sources                                          (66,027)                73,467
  	 Change in Unfilled Customer Orders
  		 Advance Received                                                                       (44)                10,001
  		 Without Advance from Federal Sources                                                 7,244                    951
  Total New Resources                                                            $	 112,699,241          $	 98,164,347
  Permanently Not Available:
  	   Cancellation of Expired Accounts                                       	         (1,209,101)   	          (933,606)
  	   Enacted Reduction                                                      	           (784,350)   	                 -

  Total Budgetary Resources                                                      $	 121,682,686          $	 106,680,082

  Status of Budgetary Resources
  Obligations Incurred:
  Direct
  	 Obligations Incurred, Direct                                                 $	 116,936,033          $	 99,694,001
  Total Obligations Incurred (Note 11)                                              116,936,033             99,694,001
  Unobligated Balance
  Apportioned:
  	 Unobligated Balance Apportioned                                                     1,689,337              3,475,149
  	 Unobligated Balance Not Available                                                   3,057,316              3,510,932

  Total Status of Budgetary Resources                                            $	 121,682,686          $	 106,680,082

  Change in Obligated Balances
  Net Obligated Balance, October 1
  	 Unpaid Obligations                                                           $	 12,548,687           $	 15,273,855
  	 Uncollected customer payments from Federal sources                       	          (74,417)     	                 -
  Net Obligated Balance, October 1                                               $	 12,474,270           $	 15,273,855
  Gross Obligations Incurred                                                        116,936,033              99,694,001
  Gross Outlays                                                                    (102,558,095)            (97,703,992)
  Recoveries of Prior Year Unpaid Obligations                                        (3,990,815)             (4,715,177)
  Change in Receivables from Federal sources                                             58,783                 (74,417)
                                                                                 $	 22,920,176           $	 12,474,270
  Net Obligated Balance, September 30
  	 Unpaid Obligations                                                           $	 22,935,810           $	 12,548,687
  	 Uncollected customer payments from Federal sources                                 (15,634)                (74,417)
  Net Obligated Balance, September 30                                            $	 22,920,176           $	 12,474,270

  Net Outlays
  Gross Outlays                                                                  $	 102,558,095          $	 97,703,992
  Offsetting Collections Received                                                      (708,024)              (108,789)
  Distributed Offsetting Receipts                                                        (4,933)               (12,378)

  Net Outlays                                                                    $	 101,845,138          $	 97,582,825
The accompanying notes are an integral part of these financial statements.



118    CFTC
                                                                             FINANCIAL SECTION




Commodity Futures Trading Commission

Statements of Custodial Activity
For the Years Ended September 30, 2008 and 2007

                                                                                                2008                 2007



  Revenue Activity
  Sources of Cash Collections:
      	   Registration and Filing Fees                                                  $	       906,326     $	      287,615
  	       Fines, Penalties, and Forfeitures                                                  140,879,579          12,143,639
  	       General Proprietary Receipts                                                              4,933             12,378
  Total Cash Collections                                                                     141,790,838          12,443,632
  Change in Custodial Receivables                                                               1,101,215          (5,136,294)
  Total Custodial Revenue                                                               $	 142,892,053       $	 7,307,338


  Disposition of Collections
  	       Transferred to Others, by Recipient:
  		 Transferred to Treasury                                                                 (141,790,838)        (12,443,632)
  		 Change in Custodial Liabilities                                                           (1,101,215)         5,136,294

  Net Custodial Activity                                                                $	              -    $	             -
The accompanying notes are an integral part of these financial statements.




                                                                                                                  CFTC      119
    Notes to the Financial Statements
                   As of and For the Fiscal Years Ended September 30, 2008 and 2007


Note 1. Summary of Significant                                 Federal Accounting Standards Advisory Board (FASAB). The
Accounting Policies                                            application and methods for applying these principles are
                                                               appropriate for presenting fairly the entity’s assets, liabili-
A. Reporting Entity                                            ties, net cost of operations, changes in net position, and
                                                               budgetary resources.
The Commodity Futures Trading Commission (CFTC) is an
independent agency of the executive branch of the Federal      The financial statements report on the CFTC’s financial
Government. Congress created the CFTC in 1974 under            position, net cost of operations, changes in net position,
the authorization of the Commodity Exchange Act (CEA)          budgetary resources, and custodial activities. The books and
with the mandate to regulate commodity futures and option      records of the agency served as the source of information for
markets in the United States. The agency’s mandate was         preparing the financial statements in the prescribed formats.
renewed and expanded under the Futures Trading Acts of         All agency financial statements and reports used to monitor
1978, 1982, and 1986; under the Futures Trading Practices      and control budgetary resources are prepared from the same
Act of 1992; under the CFTC Reauthorization Act of 1995,       books and records. The statements should be read with the
and under the Commodity Futures Modernization Act of           understanding that they are for a component of the U.S.
2000. Congress recently passed the Food, Conservation,         Government, a sovereign entity.
and Energy Act of 2008 (Farm Bill), which reauthorized
the Commission through FY 2013. Since its inception,           The Balance Sheets present the financial position of the
the CFTC has continuously operated through authorized          agency. The Statements of Net Cost present the agency’s
appropriations.                                                operating results; the Statements of Changes in Net Position
                                                               display the changes in the agency’s equity accounts. The
The CFTC is responsible for ensuring the economic utility      Statements of Budgetary Resources present the sources, status,
of futures markets by encouraging their competitiveness and    and uses of the agency’s resources and follows the rules for
efficiency, ensuring their integrity, and protecting market    the Budget of the United States Government. The Statements
participants against manipulation, abusive trade practices,    of Custodial Activity present the sources and disposition of
and fraud.                                                     collections for which the CFTC is the fiscal agent, or custo-
                                                               dian, for the Treasury General Fund Miscellaneous Receipt
B. Basis of Presentation                                       accounts.

The financial statements have been prepared to report the
                                                               Throughout these financial statements, assets, liabilities,
financial position and results of operations for the CFTC,
                                                               revenues and costs have been classified according to the
as required by the Chief Financial Officers’ Act of 1990
                                                               type of entity with whom the transactions were made.
along with the Accountability of Tax Dollars Act of 2002,
                                                               Intragovernmental assets and liabilities are those from or to
and the Government Management Reform Act of 1994.
                                                               other federal entities. Intragovernmental earned revenues are
They are presented in accordance with the form and content
                                                               collections or accruals of revenue from other federal entities,
requirements contained in Office of Management and
                                                               and intragovernmental costs are payments or accruals to
Budget (OMB) Circular No. A-136, “Financial Reporting
                                                               other federal entities. The CFTC does not transact business
Requirements,” dated June 3, 2008.
                                                               among its own operating units, and therefore, intra-entity

The principal financial statements have been prepared in       eliminations were not needed.

all material respects from the agency’s books and records in
                                                               Certain fiscal year 2007 amounts have been reclassified to
conformity with U.S. generally accepted accounting princi-
                                                               conform to the fiscal year 2008 presentation.
ples (GAAP), as prescribed for the federal government by the


120    CFTC
                                                                          FINANCIAL SECTION




C. Budgetary Resources and Status                                   deposit fund account and miscellaneous receipts accounts of
                                                                    the Treasury are not available for agency use. At fiscal year end,
The CFTC is funded through congressionally approved appro-
                                                                    receipt account balances are cleared and returned to Treasury.
priations. The CFTC is responsible for administering the
salaries and expenses of the agency through the execution of        The CFTC does not maintain bank accounts of its own, has
these appropriations.                                               no disbursing authority, and does not maintain cash held
                                                                    outside of Treasury. Treasury disburses funds for the agency
Congress annually enacts one-year appropriations that
                                                                    on demand. Spending authority from offsetting collections is
provide the CFTC with the authority to obligate funds within
                                                                    recorded in the agency’s expenditure account and is available
the respective fiscal year for necessary expenses to carry out
                                                                    for agency use subject to certain limitations. (See Note 2)
mandated program activities. In addition, Congress enacted
a permanent indefinite appropriation that is available until
                                                                    F. Accounts Receivable
expended. All appropriations are subject to quarterly appor-
tionment as well as Congressional restrictions.                     Accounts receivable consists of amounts owed by other
                                                                    federal agencies and the public to the CFTC and is valued net
The CFTC’s budgetary resources for FY 2008 consist of:              of an allowance for uncollectible amounts. The allowance
                                                                    is based on past experience in the collection of receivables
■■   Unobligated balances of resources brought forward
                                                                    and analysis of the outstanding balances. Accounts receivable
     from the prior year,
                                                                    arise from reimbursable operations, earned refunds or the
■■   Recoveries of obligations in prior years, and                  Civil Monetary Sanctions program. (See Note 3)
■■   New resources in the form of appropriations and
     spending authority from offsetting collections.                G. Property, Equipment, and Software

                                                                    Property, equipment, and software represent furniture,
Unobligated balances associated with resources expiring at
                                                                    fixtures, equipment, and information technology hardware
the end of the fiscal year remain available for five years after
                                                                    and software, which are capitalized and depreciated or amor-
expiration only for upward adjustments of prior year obliga-
                                                                    tized over their useful lives.
tions, after which they are canceled and may not be used.
All unused monies related to canceled appropriations are
                                                                    The CFTC capitalizes assets annually if they have useful lives
returned to Treasury and the canceled authority is reported as
                                                                    of at least two years and an individual value of $25,000 or
a line item on the Statements of Budgetary Resources and the
                                                                    more. Bulk or aggregate purchases are capitalized when the
Statements of Changes in Net Position.
                                                                    individual useful lives are at least two years and a value of
                                                                    $25,000 or more. Property, equipment, and software that
D. Entity and Non-Entity Assets                                     do not meet the capitalization criteria are expensed when
Assets consist of entity and non-entity assets. Entity assets are   acquired. Depreciation and amortization is computed on a
those assets that the CFTC has authority to use for its opera-      straight-line basis using a 5-year life. The Commission’s assets
tions. Non-entity assets are those held by the CFTC that are        are valued net of accumulated depreciation. (See Note 4)
not available for use in its operations. Non-entity assets held
by the CFTC include deposit fund balances, custodial fines,         H. Prepayments
and interest receivable, net. (See Note 3)
                                                                    Payments to federal and non-federal sources in advance of the
                                                                    receipt of goods and services are recorded as prepayments, and
E. Fund Balance with Treasury
                                                                    recognized as expenses when the related goods and services
Fund Balance with Treasury is the aggregate amount of the           are received. Intragovernmental prepayments reported on
CFTC’s funds with Treasury in expenditure, receipt, and deposit     the Balance Sheet were made primarily to the Department
fund accounts. Appropriated funds recorded in expenditure           of Transportation (DOT) Enterprise Service Center for report
accounts are available to pay current liabilities and finance       enhancement and transit subsidy services. Prepayments to the
authorized purchases. Custodial collections recorded in the         public were primarily for software and subscription services.



                                                                                                                     CFTC        121
I. Liabilities                                                    ment System (FERS). On January 1, 1987, FERS went into
                                                                  effect pursuant to Public Law 99-335. Most employees hired
The CFTC’s liabilities consist of actual and estimated amounts
                                                                  after December 31, 1983, are automatically covered by FERS
that are likely to be paid as a result of transactions covered
                                                                  and Social Security. Employees hired prior to January 1, 1984,
by budgetary resources for which Congress has appropriated
                                                                  could elect to either join FERS and Social Security or remain
funds or funding, or are otherwise available from reimburs-
                                                                  in CSRS.
able transactions to pay amounts due.
                                                                  For employees under FERS, the CFTC contributes an amount
Liabilities include those covered by budgetary resources in
                                                                  equal to one percent of the employee’s basic pay to the tax
existing legislation and those not yet covered by budgetary
                                                                  deferred Thrift Savings Plan and matches employee contribu-
resources (See Note 5). The CFTC liabilities not covered by
                                                                  tions up to an additional four percent of pay. FERS and CSRS
budgetary resources include:
                                                                  employees can contribute a portion of their gross earnings to
■■   Intragovernmental Federal Employees Compensation             the plan up to IRS limits; however, CSRS employees receive no
     Act (FECA) liabilities,                                      matching agency contribution.

■■   Annual leave benefits which will be funded by annual
                                                                  L. Leases
     appropriations as leave is taken,

■■   Actuarial FECA liabilities,                                  The CFTC does not have any capital lease liabilities. The
                                                                  operating leases consist of commercial property leases for the
■■   Custodial liabilities for custodial revenue transferred
                                                                  CFTC’s headquarters and regional offices. Lease expenses are
     to Treasury at fiscal year end,
                                                                  recognized on a straight-line basis.
■■   Contingent liabilities,

■■   Deposit funds,                                               M. Deposit Funds

■■   Deferred lease liabilities, and                              Deposit funds are expenditure accounts used to record monies
                                                                  that do not belong to the Federal government. They are held
■■   Other.
                                                                  awaiting distribution based on a legal determination or inves-
The CFTC’s liabilities that are covered by budgetary resources    tigation. The CFTC deposit fund is used to record and later
are considered current liabilities.                               distribute monetary awards to the appropriate defendants as
                                                                  restitution.
J. Accounts Payable
                                                                  N. Net Position
Accounts payable consists primarily of contracts for goods
                                                                  Net position consists of unexpended appropriations and
or services, such as leases, utilities, telecommunications, and
                                                                  cumulative results of operations. Unexpended appropriations
consulting and support services.
                                                                  are appropriations that have not yet been used to acquire
                                                                  goods and services or provide benefits. Appropriations are
K. Accrued Payroll and Benefits and
                                                                  considered expended, or used, when goods and services have
Annual Leave Liability
                                                                  been acquired by the CFTC or benefits have been provided
The accrued payroll liability represents amounts for salaries     using the appropriation authority, regardless of whether
and benefits owed for the time since the payroll was last paid    monies have been paid or payables for the goods, services,
through the end of the fiscal year. The annual leave liability    or benefits have been established. Appropriations were used
is the amount owed employees for unused annual leave as           primarily to acquire goods and services to operate the CFTC’s
of the end of the fiscal year. At the end of each quarter, the    programs or to provide benefits.
balance in the accrued annual leave account is adjusted to
reflect current balances and pay rates. Sick leave and other      Cumulative results of operations represent the excess of
types of non-vested leave are expensed as taken.                  financing sources over expenses since inception. Cumulative
                                                                  results of operations are derived from the net effect of
The agency’s employees participate in the Civil Service           capitalized assets, expenses, exchange revenue, and unfunded
Retirement System (CSRS) or the Federal Employees’ Retire-        liabilities.


122 CFTC
                                                                       FINANCIAL SECTION




O. Earmarked Funds                                               ■■   Facilitate    Commission         performance      through
                                                                      organizational and management excellence, efficient
As of September 30, 2008, the CFTC’s financing sources did
                                                                      use of resources, and effective mission support.
not have any earmarked funds. Earmarked funds were not
received by the agency for designated activities, benefits or
                                                                 R. Custodial Activity
purposes as specifically required by statute.
                                                                 The CFTC collects penalties and fines levied against firms for
P. Revenues                                                      violation of laws as described in the Commodity Exchange Act
                                                                 as codified at 7 U.S.C. § 1, et seq, and the Commodities Futures
The CFTC receives reimbursement and earns revenue for the
                                                                 Modernization Act of 2000, Appendix E of P.L. 106-554, 114
following activities:
                                                                 Stat. 2763. Unpaid fines, penalties and accrued interest are
                                                                 reported as custodial receivables, with an associated custo-
■■   Reimbursement for travel, subsistence, and related
                                                                 dial liability. The receivables and the liability are reduced by
     expenses from non-federal sources for attendance at
                                                                 amounts determined to be uncollectible. Revenues earned
     meetings or similar functions that an employee has
                                                                 and the losses from bad debts are reported to Treasury.
     been authorized to attend in an official capacity on
     behalf of the Commission.
                                                                 Collections made by the CFTC during the year are deposited
■■   Reimbursement for Intergovernmental Personnel Act           and reported into designated Treasury miscellaneous receipt
     Mobility Program assignments from state and local           accounts for:
     governments, institutions of higher education, and
     other eligible organizations for basic pay, supplemental    ■■   Registrations and filing fees,
     pay, fringe benefits, and travel and relocation expenses.   ■■   Fines, penalties and forfeitures, and

■■   Reimbursement from non-federal sources for registration     ■■   General proprietary receipts.
     fees to cover the cost of expenses related to the CFTC’s
     annual International Regulators Conference.                 At fiscal year end, custodial collections made by the CFTC are
                                                                 returned to Treasury. The CFTC does not retain any amount
Q. Net Cost of Operations                                        for custodial activities including reimbursement of the cost
                                                                 of collection.
Net cost of operations is the difference between the CFTC’s
expenses and its earned revenue. The presentation of program     S. Use of Management Estimates
results by strategic goals is based on the CFTC’s current
Strategic Plan established pursuant to the Government            The preparation of the accompanying financial statements in
Performance and Results Act of 1993.                             accordance with accounting principles generally accepted in
                                                                 the United States of America requires management to make
The mission statement of the CFTC is to protect market users     certain estimates and assumptions that directly affect the
and the public from fraud, manipulation, and abusive prac-       results of reported assets, liabilities, revenues, and expenses.
tices related to the sale of commodity and financial futures     Actual results could differ from these estimates.
and options, and to foster open, competitive, and financially
sound futures and option markets. The mission is accom-          T. Tax Status
plished through four strategic goals, each focusing on a vital
                                                                 The CFTC is not subject to Federal, state or local income taxes.
area of regulatory responsibility:
                                                                 Accordingly, no provision for income taxes is recorded.

■■   Ensure the economic vitality of the commodity futures
     and option markets,
                                                                 U. Reconciliation of Net Obligations and Net Cost
                                                                 of Operations
■■   Protect market users and the public,
                                                                 In accordance with OMB Circular No. A-136, the Commission
■■   Ensure market integrity in order to foster open,
                                                                 reconciles its change in budgetary obligations with its net cost
     competitive, and financially sound markets, and
                                                                 of operations. (See Note 15).



                                                                                                                 CFTC 123
Note 2. Fund Balance with Treasury

A. Reconciliation to Treasury

There are no differences between the Fund Balance reflected in the CFTC Balance Sheets and the balance in the Treasury
accounts.


B. Fund Balance with Treasury

Fund Balances with Treasury consist of entity assets such as appropriations and reimbursements for services rendered.
Obligation of these funds is controlled by quarterly apportionments made by OMB. Work performed under reimbursable
agreements is initially financed by the annual appropriation and is subsequently reimbursed. Other funds include non-entity
deposit fund receipts.

Fund Balance with Treasury at September 30, 2008 and 2007 consisted of the following:


                                                                                                   2008               2007
  Appropriated Funds                                                                    $	   27,666,831     $	   19,460,351
  	     Deposit Fund                                                                                    -            47,563

  TOTAL APPROPRIATED FUND BALANCE WITH TREASURY                                         $	   27,666,831     $	   19,507,914



C. Status of Fund Balance with Treasury

Status of Fund Balance with Treasury at September 30, 2008 and 2007 consisted of the following:

                                                                                                   2008               2007
  Appropriated Funds
      Unobligated Fund Balance
  	     Available                                                                       $	     1,589,552    $	    3,261,296
  	     Expired                                                                                   84,151           139,436
  	     Unavailable                                                                            3,057,317          3,510,932
  Obligated Balance Not Yet Disbursed                                                        22,935,810          12,548,687
  Total Appropriated Funds                                                                   27,666,831          19,460,351

  Deposit Fund                                                                                          -            47,563

  Total Fund Balance with Treasury                                                      $	   27,666,831     $	   19,507,914




Note 3. Accounts Receivable
Accounts receivable consist of amounts owed to the CFTC by other Federal agencies and the public. Accounts receivable are
valued net of estimated uncollectibles. Non-custodial accounts receivable are primarily for overpayments of expenses to other
agencies, or vendors, and repayment of employee benefits. Historical experience has indicated that most of the non-custodial
receivables are collectible and there are no material uncollectible amounts.




124 CFTC
                                                                         FINANCIAL SECTION




Custodial receivables (non-entity assets) are those for which fines and penalties have been assessed and levied against busi-
nesses for violation of law. The CFTC litigates against defendants for alleged violations of the CEA, as amended. Violators
may be subject to a variety of sanctions including fines, injunctive orders, bars or suspensions, rescissions of illegal contracts,
disgorgements, and restitutions to customers.

Historical experience has indicated that a high percentage of custodial receivables prove uncollectible. The methodology used
to estimate the allowance for uncollectible amounts related to custodial accounts is that custodial receivables are considered
100% uncollectible unless otherwise noted in the judgment. An allowance for uncollectible accounts has been established and
included in accounts receivable on the balance sheets. The allowance is based on past experience in the collection of accounts
receivable and analysis of outstanding balances. Accounts are re-estimated quarterly based on account reviews and the agency
determination that changes to the net realizable value are needed.

Accounts receivable, as of September 30, 2008 and 2007, consisted of the following:

                                                                                                        2008                    2007
  Custodial Receivables, Net:
  	   Civil Monetary Penalty Interest                                                       $	     23,073,549    $	        28,980,636
  	   Civil Monetary Penalties, Fines, and Administrative Fees                               1,431,481,646            1,145,896,796
  	   Less: Allowance for Loss on Interest                                                        (23,069,460)   	        (28,980,222)
  	   Less: Allowance for Loss on Penalties, Fines, and Administrative Fees                  (1,430,214,727)     	 (1,145,633,370)
  Registration and Filing Fees                                                                       450,519     	           356,472
  Net Custodial RECEIVABLES                                                                 $	      1,721,526    $	          620,311

  Other Accounts Receivable                                                                 $	         11,534    $	          126,276



Note 4. Property, Equipment, and Software, Net
Assets are capitalized annually if they have useful lives of at least two years and an individual value of $25,000 or more. Bulk
or aggregate purchases are capitalized when the individual useful lives are at least two years and a value of $25,000 or more.
Depreciation and amortization is computed on a straight-line basis using a 5-year life. The CFTC did not defer any maintenance
in FY 2008 or FY 2007. Property, Equipment and Software as of September 30, 2008 and 2007 consisted of the following:

  2008                                                                                           Accumulated
                                                 Service Life and                                Amortization/       Net Book
  Major Class                                    Method                          Cost            Depreciation        Value

  Equipment                                      5 Years/Straight Line     $	 1,999,554      $	      (864,058)       $	    1,135,496
  IT Software                                    5 Years/Straight Line         2,966,169     	     (1,291,224)             1,674,945

                                                                           $	 4,965,723      $	 (2,155,282)      $	        2,810,441


  2007                                                                                           Accumulated
                                                 Service Life and                                Amortization/       Net Book
  Major Class                                    Method                          Cost            Depreciation        Value

  Equipment                                      5 Years/Straight Line      $	 1,146,835     $	      (564,103)       $	     582,732
  IT Software                                    5 Years/Straight Line         2,966,169     	       (697,991)   	         2,268,179

                                                                            $	 4,113,004     $	 (1,262,093)      $	        2,850,911




                                                                                                                          CFTC 125
Note 5. Liabilities Not Covered by Budgetary Resources
As of September 30, 2008 and 2007, the following liabilities not covered by budgetary resources exist:

                                                                                                     2008               2007
  Intragovernmental - FECA Liabilities                                                   $	         41,092    $	       32,787
  Annual Leave                                                                                   4,525,329          4,849,189
  Actuarial FECA Liabilities                                                                       177,796            190,216
  Custodial Liabilities                                                                          1,721,526            620,311
  Contingent Liabilities                                                                                  -           310,000
  Deposit Fund Liabilities                                                                                -            47,563
  Deferred Lease Liabilities                                                                     3,294,324          3,169,541
  Other                                                                                              9,957             10,001

  Total Liabilities Not Covered by Budgetary Resources                                   $	      9,770,025    $	    9,229,608



Note 6. Retirement Plans and Other Employee Benefits
The CFTC imputes costs and the related financing sources for its share of retirement benefits accruing to its past and present
employees, which are in excess of the amount of contributions from the CFTC and its employees, which are mandated by
law. The Office of Personnel Management (OPM), which administers federal civilian retirement programs, provides the cost
information to the CFTC. The CFTC recognizes the full cost of providing future pension and Other Retirement Benefits (ORB)
for current employees as required by Statement of Federal Financial Accounting Standards (SFFAS) No. 5, “Accounting for
Liabilities of the Federal Government.”

Full costs include pension and ORB contributions paid out of the CFTC’s appropriations and costs financed by OPM. The
amount financed by OPM is recognized as an imputed financing source. This amount was $3,880,429 for the year ended
September 30, 2008 and $3,875,903 for the year ended September 30, 2007. Reporting amounts such as plan assets, accumu-
lated plan benefits, or unfunded liabilities, if any, is the responsibility of OPM.

Liabilities for future pension payments and other future payments for retired employees who participate in the Federal
Employees Health Benefits Program and the Federal Employees Group Life Insurance Program are reported by OPM rather
than CFTC.


Note 7. Actuarial FECA Liabilities
FECA provides income and medical cost protections to covered federal civilian employees injured on the job, to employees
who have incurred work-related occupational diseases and to beneficiaries of employees whose deaths are attributable to job-
related injuries or occupational diseases. The FECA program is administered by the U.S. Department of Labor (DOL), which
pays valid claims against the CFTC and subsequently seeks reimbursement from the CFTC for these paid claims. Accrued FECA
liabilities represent amounts due to DOL for claims paid on behalf of the agency. Accrued FECA liabilities at September 30,
2008 and September 30, 2007 were $41,092 and $32,787, respectively.

Actuarial FECA liability represents the liability for future workers compensation (FWC) benefits, which includes the expected
liability for death, disability, medical, and miscellaneous cost for approved cases. The liability is determined using a formula
provided by DOL annually as of September 30th using a method that utilizes historical benefits payment patterns related to
a specific incurred period to predict the ultimate payments related to that period. The projected annual benefits payments
are discounted to present value using OMB’s economic assumptions for ten-year Treasury notes and bonds. To provide more



126 CFTC
                                                                         FINANCIAL SECTION




specifically for effects of inflation on liability for FWC benefits, wage inflation factors (Consumer Price Index-Medical) are
applied to the calculation of projected future benefits. These factors are also used to adjust historical payments so benefits
are stated in current-year constant dollars. Actuarial FECA liabilities at September 30, 2008 and September 30, 2007 were
$177,796 and $190,216, respectively.


Note 8. Leases
The CFTC leases office space in publicly owned buildings for its locations in Washington D.C., Chicago, New York, and Kansas
City. The lease contracts for publicly-owned buildings are operating leases. The CFTC has no real property. Future estimated
minimum lease payments are not accrued as liabilities and are expensed on a straight-line basis.

As of September 30, 2008, future estimated minimum lease payments through FY 2012, and thereafter, is as follows:

  Fiscal Year                                                                                                          Dollars
  2009                                                                                                        $	 10,801,167
  2010                                                                                                              10,970,480
  2011                                                                                                              11,268,766
  2012                                                                                                               9,898,728
  2013                                                                                                               8,147,303
  Thereafter                                                                                                        16,589,980
  Total Minimum lease payments                                                                                      67,676,424
  Add: Amount representing estimated executory costs (taxes, maintenance, and insurance)                            12,241,763

  Total minimum lease payments, including estimated executory costs                                               $	 79,918,187


Lease expense is recognized on a straight-line basis. Because the lease payment amounts vary, and in some cases, CFTC receives
periods of up-front free rent, a deferred lease liability representing expense amounts in excess of payments to date, has been
recorded. The deferred lease liabilities at September 30, 2008 and September 30, 2007 were $3,294,324 and $3,169,541,
respectively.


Note 9. Contingent Liabilities
The CFTC records commitments and contingent liabilities for legal cases in which payment has been deemed probable and
for which the amount of potential liability has been estimated, including certain judgments that have been issued against the
agency and which have been appealed. In FY 2007, the Commission estimated a probable liability of $310,000 in connec-
tion with a Merit Systems Protection Board suit, which was settled in FY 2008. There were no contingent liabilities as of
September 30, 2008.


Note 10. Undelivered Orders
The amount of budgetary resources obligated for undelivered orders as of September 30, 2008 and 2007 consisted of the
following:

                                                                                                    2008                 2007
  Undelivered Orders                                                                     $	    17,450,966    $	       7,204,942


The amount of undelivered orders represents the value of unpaid and paid obligations recorded during the fiscal year, upward
adjustments of obligations that were originally recorded in a prior fiscal year, and recoveries resulting from downward adjust-
ments of obligations that were originally recorded in a prior fiscal year.



                                                                                                                  CFTC 127
Note 11. Apportionment Categories of Obligations Incurred

Obligations incurred and reported in the Statements of Budgetary Resources in 2008 and 2007 consisted of the following:

                                                                                                      2008                2007
  Direct Obligations, Category A                                                          $	   116,771,039     $	   99,575,548
  Reimbursable Obligations, Category A                                                              164,994            118,453

  Total Obligations Incurred                                                              $	   116,936,033     $	   99,694,001



Note 12. Permanent Indefinite Appropriations
The CFTC’s permanent indefinite appropriation as authorized by Public Law 107-38 funds emergency expenses to respond to
the terrorist attacks on the United States that occurred on September 11, 2001. The fund provides support to deal with conse-
quences of the attacks and support national security.


Note 13. Explanation of Differences between the Statement of Budgetary Resources and
Budget of the United States Government
The CFTC had no material differences between the amounts reported in the Statement of Budgetary Resources and the actual
amounts reported in the Budget of the U.S. Government for FY 2007. The Budget of the U.S. Government with actual numbers
for FY 2008 has not yet been published. The expected publish date is February 2009. A copy of the Budget can be obtained
from OMB’s Internet site at http://www.whitehouse.gov/omb/.


Note 14. Intra-governmental Cost and Exchange Revenue by Goal
As required by the Government Performance and Results Act of 1993, the agency’s reporting has been aligned with the following
major goals presented in the 2007 – 2012 CFTC Strategic Plan.

1. Ensure the Economic Vitality of the Commodity Futures and Option Markets

2. Protect Market Users and the Public

3. Ensure Market Integrity in Order to Foster Open, Competitive, and Financially Sound Markets

4. Facilitate Commission Performance Through Organizational and Management Excellence, Efficient Use of Resources,
  and Effective Mission Support

The Net Cost of Operations is derived from transactions between the Commission and public entities, as well as with other
federal agencies. The details of the intra-governmental costs and revenues, as well as those with the public, are as follows:




128 CFTC
                                                FINANCIAL SECTION




                                                                2008                2007

Goal 1: Ensure the economic vitality of the commodity futures and option markets
Intragovernmental Gross Costs                     $	      16,687,029    $	     7,553,897
Less: Earned Revenue                                         (10,665)   	         (6,807)
Intragovernmental Net Cost of Operations          $	      16,676,364    $	     7,547,090

Gross Costs with the Public                       $	      14,988,094    $	    22,993,545
Less: Earned Revenue                                          (9,579)            (20,721)
Net Cost of Operations with the Public            $	      14,978,515    $	    22,972,824

Total Net Cost of Operations – Goal One           $	      31,654,879    $	    30,519,913

Goal 2: Protect market users and the public
Intragovernmental Gross Costs                     $	      13,349,623    $	     6,043,117
Less: Earned Revenue                                          (8,532)   	         (5,446)
Intragovernmental Net Cost of Operations          $	      13,341,091    $	     6,037,672

Gross Costs with the Public                       $	      11,990,475    $	    18,394,836
Less: Earned Revenue                                          (7,663)            (16,577)
Net Cost of Operations with the Public            $	      11,982,812    $	    18,378,259

Total Net Cost of Operations – Goal Two           $	      25,323,903    $	    24,415,930

Goal 3: Ensure market integrity in order to foster open, competitive, and financially
sound markets
Intragovernmental Gross Costs                     $	      12,793,389    $	     5,791,321
Less: Earned Revenue                                          (8,176)   	         (5,219)
Intragovernmental Net Cost of Operations          $	      12,785,213    $	     5,786,102

Gross Costs with the Public                       $	      11,490,872    $	    17,628,384
Less: Earned Revenue                                          (7,344)            (15,886)
Net Cost of Operations with the Public            $	      11,483,528    $	    17,612,498

Total Net Cost of Operations – Goal Three         $	      24,268,741    $	    23,398,600

Goal 4: Facilitate Commission performance through organizational and management
excellence, efficient use of resources, and effective mission support
Intragovernmental Gross Costs                     $	      12,793,389    $	     5,791,321
Less: Earned Revenue                                          (8,176)   	         (5,219)
Intragovernmental Net Cost of Operations          $	      12,785,213    $	     5,786,102

Gross Costs with the Public                       $	      11,490,872    $	    17,628,384
Less: Earned Revenue                                          (7,344)            (15,886)
Net Cost of Operations with the Public            $	      11,483,528    $	    17,612,498

Total Net Cost of Operations – Goal Four          $	      24,268,741    $	    23,398,600

Net Cost of Operations                            $	     105,516,264    $	   101,733,043




                                                                             CFTC 129
Note 15. Reconciliation of Net Obligations and Net Cost of Operations
The schedule presented in this footnote reconciles the net obligations with the Net Cost of Operations. Resources Used to Finance
Activities reflects the budgetary resources obligated and other resources used to finance the activities of the agency. Resources Used
to Finance Items Not Part of the Net Cost of Operations adjusts total resources used to finance the activities of the entity to account
for items that were included in net obligations and other resources but were not part of the Net Cost of Operations. Components
Requiring or Generating Resources in Future Periods identifies items that are recognized as a component of the net cost of opera-
tions for the period but the budgetary resources (and related obligation) will not be provided (or incurred) until a subsequent
period. Components Not Requiring or Generating Resources includes items recognized as part of the net cost of operations for
the period but will not generate or require the use of resources. Net Cost of Operations agrees with the Net Cost of Operations as
reported on the Statements of Net Cost.

                                                                                                            2008               2007
  Resources Used to Finance Activities
  Budgetary Resources Obligated
  Obligations Incurred                                                                           $	 116,936,033      $	   99,694,001
  Less: Spending Authority from Offsetting Collections and Recoveries                            	     (4,640,056)        (4,898,384)
  Obligations Net of Offsetting Collections and Recoveries                                       	    112,295,977         94,795,617
  Less: Offsetting Receipts                                                                      	         (4,933)           (12,378)
  Net Obligations After Offsetting Receipts                                                      	    112,291,044         94,783,239

  Other Resources
  Imputed Financing from Cost Absorbed by Others                                                 	      3,880,429          3,875,903
  Total Resources Used to Finance Activities                                                     $	 116,171,473      $	   98,659,142


  Resources Used to Finance Items Not Part of the Net Cost of Operations
  Change in Budgetary Resources Obligated for Goods, Services, and Benefits Ordered but
                                                                                                 	    (10,037,677)         1,587,752
  not yet Provided
  Resources That Fund Expenses Recognized in Prior Periods (Decrease in unfunded liabilities)    	       (336,280)          (325,401)
  Offsetting Receipts                                                                            	          4,933             12,378
  Resources that Finance the Acquisition of Fixed Assets                                         	       (852,719) 	                -
  Total Resources Used to Finance Items Not Part of the Net Cost of Operations                   $	 (11,221,743) $	        1,274,729


  Components of the Net Cost of Operations That Will
  not Require or Generate Resources in the Current Period
  Increase in Contingent Liabilities                                                             	       (310,000)          298,400
  Increase in Unfunded Deferred Leases and FECA Liability                                        	       133,088            335,441
  Decrease in Prepayments                                                                        	               -          329,896
  Increase in exchange revenue receivable from the public                                        	               -           (40,300)
  Total Components of Net Cost of Operations That Will Require or Generate Resources
                                                                                                 $	      (176,912) $	       923,437
   in Future Periods


  Components Not Requiring or Generating Resources
  Depreciation and Amortization                                                                  	       893,189            823,582
  Other                                                                                          	        27,169              52,153
  Total Components of Net Cost of Operations that will Not Require or
                                                                                                 $	      743,446     $	     875,735
   Generate Resources
  Total Components of Net Cost of Operations that will Not Require or
                                                                                                 $	      566,534     $	    1,799,172
   Generate Resources in the Current Period

  Net Cost of Operations                                                                         $	 105,516,264      $	 101,733,043



130     CFTC
Report of the Independent Auditors                 KPMG LLP
                                                   2001 M Street, NW
                                                   Washington, DC 20036
                                            KPMG LLP
                                            2001 M Street, NW
                                            KPMG LLP DC 20036
                                            Washington,
                                            2001 M Street, NW
                                            Washington, DC 20036

                                                                      Independent Auditors’ Report
                                                   Independent Auditors’ Report
        Acting Chairman and InspectorIndependent     General of the      Auditors’ Report
        U.S. Commodity Futures Trading Commission:
Acting Chairman and Inspector General of the
U.S.
Acting Commodity
         Chairman Futures          Trading
                        and Inspector          Commission:
                                            General    of the
U.S. Commodity Futures Trading Commission:balance sheets of the Commodity Futures Trading Commission
        We      have    audited     the   accompanying
        (CFTC) as of September 30, 2008 and 2007, and the related statements of net cost, changes in net position,
We have       auditedactivity,
        custodial         the accompanying
                                   and budgetarybalance resources  sheets      of the referred
                                                                        (hereinafter       Commodity     to asFutures
                                                                                                                 “financial  Trading      Commission
                                                                                                                                 statements”)      for the years
(CFTC)
We have    as  of September
        thenaudited
                ended. The         30,  2008
                          the accompanying      and  2007,
                                objective of ourbalance        and
                                                       audits was     the
                                                                   sheets  related     statements
                                                                               of theanCommodity
                                                                        to express                      of
                                                                                             opinion on the  net  cost,
                                                                                                                Futures    changes    in  netofposition,
                                                                                                                             Trading Commission
                                                                                                                     fair presentation           these financial
custodial  asactivity,
(CFTC)statements.        and
               of September    budgetary
                         In connection        resources
                                   30, 2008with andour
                                                     2007,  (hereinafter
                                                               andyear
                                                          fiscal      the 2008  referred
                                                                           related           to as
                                                                                       statements
                                                                                   audit,    we   also“financial
                                                                                                        ofconsidered
                                                                                                             net cost, statements”)
                                                                                                                           changes       for
                                                                                                                                          net the
                                                                                                                            CFTC’sininternal        years over
                                                                                                                                               position,
                                                                                                                                                   controls
then  ended.
custodial       The   objective     of  our  audits   was    to  express     an   opinion      on   the
        financial reporting and tested CFTC’s compliance with certain provisions of applicable laws, years
             activity,   and   budgetary      resources     (hereinafter        referred     to  as        fair
                                                                                                      “financial presentation
                                                                                                                       statements”)of  these
                                                                                                                                         for   financial
                                                                                                                                              the    regulations,
statements.
then ended.    In
                Theconnection
        and contracts objective     with
                                    of our
                            that could    our   fiscal
                                             audits
                                           have         yearto
                                                      was
                                                  a direct      2008
                                                              andexpress audit,
                                                                    material      we
                                                                             an effect  also
                                                                                  opinion  onconsidered
                                                                                               on   the financial
                                                                                                these            CFTC’s
                                                                                                           fair presentation  internal   controls
                                                                                                                                   of these
                                                                                                                         statements.                 over
                                                                                                                                               financial
financial
statements. reporting     and tested
               In connection        with CFTC’s
                                          our fiscalcompliance
                                                        year 2008 audit, with certain
                                                                                  we alsoprovisions
                                                                                              consideredofCFTC’s   applicable     laws,controls
                                                                                                                              internal     regulations,
                                                                                                                                                     over
and  contracts
        Summary
financial         that could
            reporting            have aCFTC’s
                          and tested       direct and     material effect
                                                      compliance                 on theseprovisions
                                                                         with certain         financial statements.
                                                                                                               of applicable laws, regulations,
and contracts
        As stated thatincould    have a direct
                           our opinion      on theand     materialstatements,
                                                      financial        effect on these        financial statements.
                                                                                       we concluded            that CFTC’s financial statements as of
Summary
Summary and    for  the   years     ended    September       30,   2008     and     2007,     are    presented       fairly, in all material respects, in
As stated    in our opinion
        conformity       with U.S. on the   financial
                                       generally         statements,
                                                     accepted     accountingwe concluded
                                                                                     principles.  that CFTC’s financial statements as of
and   for the
As stated    in years    ended on
                 our opinion       September       30, 2008
                                       the financial             and 2007,
                                                         statements,               are presented
                                                                            we concluded                   fairly, infinancial
                                                                                                  that CFTC’s             all material     respects,
                                                                                                                                    statements          in
                                                                                                                                                    as of
conformity
and forOur     with   U.S.
           the consideration generally
                 years ended September     accepted
                                   of internal 30,      accounting
                                                   control
                                                         2008over         principles.
                                                                 andfinancial
                                                                         2007, are   reporting
                                                                                         presented  would       not in
                                                                                                           fairly,    necessarily
                                                                                                                          all materialdisclose    all matters
                                                                                                                                           respects,    in      in
        the internal
conformity     with U.S.  control    that accepted
                             generally      might beaccounting
                                                          material weaknesses
                                                                          principles. as defined in the Internal Control Over Financial
Our consideration
        Reporting sectionof internal     control
                                    of this         overHowever,
                                               report.     financial reporting
                                                                           we notedwould            not necessarily
                                                                                           no matters          involving disclose        all matters
                                                                                                                              the internal      controlinand its
the  internal
Our considerationcontrol
        operation that     that
                         of we    might
                             internal      be   material
                                         controltoover
                                  considered                 weaknesses
                                                           financialweaknesses
                                                     be material                 as  defined
                                                                          reporting would         in
                                                                                          as defined   the    Internal
                                                                                                    not necessarily
                                                                                                            in this report.Control   Over     Financial
                                                                                                                             disclose all matters in
Reporting
the internalsection
                 controlofthatthismight
                                     report.
                                           be However,         we noted no
                                                material weaknesses                   matters in
                                                                                 as defined        involving
                                                                                                       the Internal the internal
                                                                                                                           Control control       and its
                                                                                                                                     Over Financial
operation
        The  that  we
               results  considered
                         of  our   teststo be
                                          of    material
                                              compliance    weaknesses
                                                                with    certainas  defined
                                                                                   provisions  in   this
Reporting section of this report. However, we noted no matters involving the internal control and itsof    report.
                                                                                                          laws,    regulations,     and   contracts     disclosed
        no that
operation    instances     of noncompliance
                   we considered                     or other
                                        to be material           matters that
                                                            weaknesses              are required
                                                                               as defined      in thistoreport.
                                                                                                             be reported under Government Auditing
The results     of our issued
        Standards,       tests ofbycompliance        with certain
                                       the Comptroller         General   provisions
                                                                            of the United of laws,
                                                                                                 States,regulations,
                                                                                                              and Office   andofcontracts
                                                                                                                                  Management  disclosed
                                                                                                                                                     and Budget
no  instances
The results
        (OMB)    of  noncompliance
                of our   tests No.
                    Bulletin               or
                                of compliance  other
                                      07-04, Audit     matters
                                                     with         that    are
                                                             certain provisions
                                                        Requirements           required
                                                                             for Federal     to  be
                                                                                          of laws,    reported
                                                                                                        regulations,
                                                                                                Financial           under     Government       Auditing
                                                                                                                           and contracts disclosed
                                                                                                                 Statements.
Standards,
no instancesissued       by the Comptroller
                 of noncompliance          or otherGeneral
                                                       mattersofthat theareUnited
                                                                               requiredStates,
                                                                                             to beandreported
                                                                                                         Office of  underManagement
                                                                                                                              Government   andAuditing
                                                                                                                                                 Budget
(OMB)The
Standards,Bulletin
               issued No.
               following by07-04,
                              sections
                             the      Audit
                                   ComptrollerRequirements
                                          discuss    our opinion
                                                    General      offor   Federal
                                                                     theon   CFTC’s
                                                                           United     Financial   andStatements.
                                                                                           financial
                                                                                       States,             statements;
                                                                                                         Office             our consideration
                                                                                                                    of Management          and Budget of CFTC’s
(OMB)internal
          Bulletincontrols
                      No. 07-04,  over    financial
                                      Audit             reporting;
                                              Requirements         for our
                                                                         FederaltestsFinancial
                                                                                        of CFTC’s            compliance with certain provisions of
                                                                                                      Statements.
The following
        applicable  sections    discuss our and
                        laws, regulations,       opinion      on CFTC’s
                                                       contracts;               financial statements;
                                                                       and management’s                           our consideration of CFTC’s
                                                                                                     and our responsibilities.
internal   controls
The following           over financial
                    sections    discuss our   reporting;
                                                 opinion on   ourCFTC’s
                                                                     tests offinancial
                                                                                  CFTC’sstatements;
                                                                                                complianceour        with     certain provisions
                                                                                                                         consideration      of CFTC’s   of
applicable    laws,
internalOpinion       regulations,
           controlsonover the Financial and  contracts;     and   management’s           and    our    responsibilities.
                                               Statementsour tests of CFTC’s compliance with certain provisions of
                                financial reporting;
applicable    laws,
        Weonhave      regulations,     accompanying and
                                        and
                      audited theStatements  contracts;           management’s
                                                             balance      sheets of the  andCommodity
                                                                                                our responsibilities.
                                                                                                                   Futures Trading Commission as of
Opinion          the Financial
Opinion September
            on           30,
                 the Financial2008     and   2007,
                                     Statements       and    the  related      statements       of    net    cost,   changes in net position, custodial
We have      audited
        activity,    andthebudgetary
                             accompanyingresources balance
                                                       for the sheets
                                                                  yearsofthen the ended.
                                                                                    Commodity Futures Trading Commission as of
September
We have audited30, 2008 the and    2007, and the
                             accompanying               related
                                                   balance          statements
                                                               sheets                 of net cost, Futures
                                                                          of the Commodity                changesTradingin net position,
                                                                                                                                  Commission  custodial
                                                                                                                                                    as of
activity,
September  and
        In our   budgetary
               30, opinion,
                    2008 andtheresources
                                   2007,     for
                                       financial  the
                                            and the     years
                                                    statements  then    ended.
                                                                       referred toof above
                                                        related statements                net cost,  present
                                                                                                          changes fairly,    in all
                                                                                                                        in net       material
                                                                                                                                 position,         respects, the
                                                                                                                                              custodial
activity,financial    positionresources
           and budgetary          of the Commodity
                                             for the years   Futures      Trading Commission as of September 30, 2008 and 2007, and
                                                                then ended.
In our itsopinion,
             net costs,thechanges
                             financial     statements
                                       in net   position,referred
                                                             custodialtoactivity,
                                                                              above and  present       fairly, resources
                                                                                               budgetary          in all material
                                                                                                                               for the respects,
                                                                                                                                         years thenthe  ended, in
financial   position
In our conformity
          opinion, the  of  the
                         with    Commodity
                             financial             Futures
                                           statements
                                U.S. generally                 Trading
                                                           referred
                                                     accepted               Commission
                                                                          to above
                                                                  accounting                    as   of   September        30,  2008
                                                                                         present fairly, in all material respects,
                                                                                     principles.                                       and   2007, and the
its net costs,
financial        changes
            position         in net
                        of the        position, custodial
                                 Commodity                       activity,Commission
                                                   Futures Trading            and budgetary     as ofresources
                                                                                                          September  for the
                                                                                                                           30, years
                                                                                                                                2008 andthen2007,
                                                                                                                                              ended,and in
conformity
        The    with   U.S.
                information  generally
                                  in  the  accepted
                                            Management’saccounting        principles.
                                                                  Discussion          and   Analysis         is
its net costs, changes in net position, custodial activity, and budgetary resources for the years then ended, in not   a   required     part  of   the   financial
        statements,
conformity     with U.S.  butgenerally
                               is supplementary          informationprinciples.
                                           accepted accounting              required by U.S. generally accepted accounting principles.
The information
        We have applied in the Management’s
                                    certain limitedDiscussion
                                                          procedures,and     whichAnalysis       is notprincipally
                                                                                         consisted           a requiredofpart       of the of
                                                                                                                                 inquiries     financial
                                                                                                                                                   management
statements,     but  is  supplementary         information       required       by   U.S.    generally
The information in the Management’s Discussion and Analysis is not a required part of the financial            accepted     accounting       principles.
We    have applied
statements,               certain limited information
                but is supplementary             procedures, required
                                                                   which consisted            principally
                                                                                by U.S. generally                 of inquiries
                                                                                                               accepted             of management
                                                                                                                            accounting       principles.
We have applied certain limited procedures, which consisted principally of inquiries of management
                                                            KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                                            member firm of KPMG International, a Swiss cooperative.
                                                                                                                                           CFTC          131
                                              KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                              member firm of KPMG International, a Swiss cooperative.

                                              KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                              member firm of KPMG International, a Swiss cooperative.
    regarding the methods of measurement and presentation of this information. However, we did not audit this
    information and, accordingly, we express no opinion on it.

    Internal Control Over Financial Reporting
    Our consideration of the internal control over financial reporting was for the limited purpose described in
    the Responsibilities section of this report and would not necessarily identify all deficiencies in the internal
    control over financial reporting that might be significant deficiencies or material weaknesses.

    A control deficiency exists when the design or operation of a control does not allow management or
    employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
    on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies,
    that adversely affects CFTC’s ability to initiate, authorize, record, process, or report financial data reliably
    in accordance with U.S. generally accepted accounting principles such that there is more than a remote
    likelihood that a misstatement of CFTC’s financial statements that is more than inconsequential will not be
    prevented or detected by CFTC’s internal control. A material weakness is a significant deficiency, or
    combination of significant deficiencies, that results in more than a remote likelihood that a material
    misstatement of the financial statements will not be prevented or detected by CFTC’s internal control.

    In our fiscal year 2008 audit, we did not identify any deficiencies in internal control over financial
    reporting that we consider to be material weaknesses as defined above. The Exhibit presents the status of
    the prior year significant deficiency.

    Compliance and Other Matters

    The results of our tests of compliance described in the Responsibilities section of this report, exclusive of
    those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to
    be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

    The results of our tests of FFMIA disclosed no instances in which the CFTC’s financial management
    systems did not substantially comply with the (1) Federal financial management systems requirements, (2)
    applicable Federal accounting standards, and (3) the United States Government Standard General Ledger at
    the transaction level.

                                                     *******

    Responsibilities
    Management’s Responsibilities. Management is responsible for the financial statements; establishing and
    maintaining effective internal control; and complying with laws, regulations, and contracts applicable to
    CFTC.

    Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2008 and 2007
    financial statements of CFTC based on our audits. We conducted our audits in accordance with auditing
    standards generally accepted in the United States of America; the standards applicable to financial audits
    contained in Government Auditing Standards, issued by the Comptroller General of the United States; and
    OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04 require that we plan and perform
    the audits to obtain reasonable assurance about whether the financial statements are free of material
    misstatement. An audit includes consideration of internal control over financial reporting as a basis for
    designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
    an opinion on the effectiveness of CFTC’s internal control over financial reporting. Accordingly, we
    express no such opinion.




132 CFTC
                                                                FINANCIAL SECTION




		



     An audit also includes:

     •     Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
           statements;
     •     Assessing the accounting principles used and significant estimates made by management; and
     •     Evaluating the overall financial statement presentation.
     We believe that our audits provide a reasonable basis for our opinion.

     In planning and performing our fiscal year 2008 audit, we considered CFTC’s internal control over
     financial reporting by obtaining an understanding of CFTC’s internal control, determining whether internal
     controls had been placed in operation, assessing control risk, and performing tests of controls as a basis for
     designing our auditing procedures for the purpose of expressing our opinion on the financial statements.
     We did not test all internal controls relevant to operating objectives as broadly defined by the Federal
     Managers’ Financial Integrity Act of 1982. The objective of our audit was not to express an opinion on the
     effectiveness of CFTC’s internal control over financial reporting. Accordingly, we do not express an
     opinion on the effectiveness of CFTC’s internal control over financial reporting.

     As part of obtaining reasonable assurance about whether CFTC’s fiscal year 2008 financial statements are
     free of material misstatement, we performed tests of CFTC’s compliance with certain provisions of laws,
     regulations, and contracts, noncompliance with which could have a direct and material effect on the
     determination of the financial statement amounts, and certain provisions of other laws and regulations
     specified in OMB Bulletin No. 07-04, including the provisions referred to in Section 803(a) of FFMIA. We
     limited our tests of compliance to the provisions described in the preceding sentence, and we did not test
     compliance with all laws, regulations, and contracts applicable to CFTC. However, providing an opinion
     on compliance with laws, regulations, and contracts was not an objective of our audit and, accordingly, we
     do not express such an opinion.

                                         ______________________________

     This report is intended solely for the information and use of CFTC’s management, CFTC’s Office of
     Inspector General, OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not
     intended to be and should not be used by anyone other than these specified parties.




     November 12, 2008


                                                                                                          Exhibit

                           U.S. COMMODITY FUTURES TRADING COMMISSION

                                  Fiscal Year 2008 – Status of Prior Year Comments



     The status of the prior year significant deficiency is presented below.

         Internal Control Over Financial Reporting                         Fiscal Year 2008 Status

                    Significant Deficiency

     Recording Accruals and Preparing Financial              Resolved.
     Statements




                                                                                                      CFTC 133
O t h e r A ccompanying I nfo r mation




  Summary of Audit and Management Assurances..... 135

  Management Challenges....................................... 136
                                                                FINANCIAL SECTION




                        Summary of Audit and
                       Management Assurances
Summary of FY 2008 Financial Statement Audit
Audit Opinion:                  Unqualified
Restatement:                    No
     Material Weakness          Beginning Balance       New              Resolved    Consolidated      Ending Balance
     Financial Reporting                0                                                                    0
 Total Material Weaknesses              0                                                                    0


Summary of Management Assurances
Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
Statement of Assurance:         Unqualified
     Material Weakness          Beginning Balance     New     Resolved     Consolidated   Reassessed   Ending Balance
      Financial Reporting               0                                                                    0
Effectiveness of Internal Control over Operations (FMFIA § 2)
Statement of Assurance:         Unqualified
     Material Weakness          Beginning Balance     New     Resolved     Consolidated   Reassessed   Ending Balance
     No Items to Report                 0                                                                    0
Conformance with Financial Management System Requirements (FMFIA § 4)
Statement of Assurance:         Systems conform to financial management system requirements
     Non-Conformance            Beginning Balance     New     Resolved     Consolidated   Reassessed   Ending Balance
     Federal Information
                                        0                                                                    0
        Security Act
Compliance with Federal Financial Management Improvement Act (FFMIA)
Overall Substantial                           Agency                                        Auditor
Compliance                                      Yes                                           Yes
1. System Requirements                                               Yes
2. Accounting Standards                                              Yes
3. USSGL at Transaction Level                                        Yes



                                                                                                       CFTC 135
                      Management Challenges
Management Address Inspector                                           FY 2008 Actions Taken or Actions in Progress
General’s FY 2007 Assessment
                                                                       The Commission is committed to further developing its
The Commission has addressed or is addressing the                      new Trade Surveillance System (TSS). Due to the rapid
concerns identified in the FY 2007 Performance and                     expansion of electronic trading and continuing innova-
Accountability Report. In FY 2007, the Inspector General               tions in the futures industry, the CFTC is currently modern-
(IG) identified two “serious management challenges”                    izing its legacy trade analysis platform and system, (which
facing the Commission: 1) Modernization of Electronic                  includes data files, legacy applications, canned reports,
Market Surveillance, and 2) Exchange Trading Revolutions.              etc.), with new database technologies and commercial
                                                                       software products in order to keep pace with the ever-
The following is the IG’s FY 2007 assessment for each chal-
                                                                       changing industry in an adaptive and responsive manner.
lenge and the Commission’s actions taken in FY 2008 to
                                                                       When fully developed and implemented, TSS will ensure
address these challenges.
                                                                       all users unqualified and immediate access to trade data
                                                                       and a system that provides responsive and flexible trade
Challenge #1, Modernization of Electronic Market
                                                                       practice and regulatory analysis.
Surveillance
                                                                       As part of this effort, the Commission’s OITS and DMO
FY 2007 IG Assessment: “Last year we stated that the migration
                                                                       developed and executed a multi-year TSS Acquisition Plan.
to trading on largely electronic exchanges challenged whether the
                                                                       Completed tasks include modernizing the computer envi-
agency has sufficient information on technology infrastructure
                                                                       ronment used to process trade level data and awarding a
and staff to efficiently and effectively conduct timely surveillance
                                                                       contract to Actimize, a vendor that is providing a solution
of these dynamic and economically essential global markets.
                                                                       that includes an initial trade practice violation detection
Continued expansion of electronic trading leads us to restate this
                                                                       model (wash trading) and a data analysis and research
concern and to emphasize the need for the CFTC to modernize
                                                                       tool. It is expected that the Actimize solution will be imple-
and develop enhancements to its electronic market surveillance
                                                                       mented in the last quarter of 2008. However, development
technique to establish new procedures for training its staff (who
                                                                       of additional trade practice violation detection models and
historically relied on trading floor based surveillance of deriva-
                                                                       further development of the data analysis and research tool
tives markets) on how to carry out its regulatory mission under
                                                                       will be an ongoing, multi-year process. The Commission
this new industry paradigm of electronic exchange trading.
                                                                       intends to award a contract to supplement and support
The existing CFTC electronic market surveillance system relies         the CFTC’s current TSS development and implementation
on data systems that are the outgrowth of late twentieth century       efforts. The contractor will work directly with business
technology.    It is suitable for an update in the twenty-first        users and CFTC technical staff to develop business require-
century. We applaud the agency’s current efforts to develop an         ment documents, technical specifications, project plans,
updated market surveillance system. Yet there remains a valid          testing plans, and other project artifacts used to support the
concern that both staff and new agency systems will be chal-           CFTC’s trade practice surveillance program.
lenged if growth in electronic trading continues at its current
                                                                       The contractor will be responsible for developing, imple-
rate. Our concern is further heightened by the second year of
                                                                       menting, and testing additional trade practice violation
stagnant budgetary resources. This lack of funds will impact the
                                                                       detection models based on the trade level data received on
agency’s ability to invest in technological modernization, and to
                                                                       a daily basis from the exchanges. The contractor also will
effectively maintain its electronic oversight of the largely elec-
                                                                       be responsible for supporting business users in defining
tronic exchanges under its regulatory purview.”
                                                                       business requirements for the management of alerts and
                                                                       cases that are generated by the Actimize models.         This



136 CFTC
                                                                       O T H E R A C C O M PA N Y I N G I N F O R M AT I O N




includes the ability to conduct further analysis and inves-      resources—is increasingly demanding more attention. During
tigation of the alerts which may require sophisticated           the past year, members of Congress and industry leaders have
queries and database views into the data that generated          expressed concern that, where Exempt Commercial Markets (that
the alerts (e.g., suspicious trading activity between traders,   are largely electronic trading platforms) generate commodity
brokers, and individual accounts).      The contractor also      prices that can impact the price discovery of equivalent exchange
will be responsible for working with CFTC management             traded commodities, the CFTC ought to acquire greater aware-
to develop work activity detail and summary reports. The         ness of those transactions, thus forcing the agency to reevaluate
Commission also is conducting market research into addi-         its previous regulatory model of focusing principally on desig-
tional software products such as reporting tools that can be     nated exchange trading oversight. This expansion of the CFTC’s
incorporated into TSS                                            oversight mission—regardless of whether expansion is legislated
                                                                 through Congressional action or expanded within the existing
As part of its effort to modernize its electronic surveil-
                                                                 agency regulatory scheme—may strain agency human resources,
lance capabilities, the Commission is exploring a plan
                                                                 as well as electronic market surveillance systems.”
to collect account ownership information from FCMs on
a regular basis and to incorporate this information into
                                                                 FY 2008 Actions Taken or Actions in Progress
TSS for trade practice surveillance and the Commission’s
ISS (the Commission’s large trader database) for market          Congress continues to revise and modernize the CEA
surveillance. Although the transaction level data submitted      to keep pace with the rapid growth and evolution of the
by the exchanges to the Commission include transaction           futures industry. In 2008, Congress passed the Farm Bill,
account numbers for the buy and sell side of each trade,         which amended the CEA and established a new exchange
the Commission does not have corresponding ownership             category—ECMs with significant price discovery contracts
information for these account numbers and therefore does         (ECM-SPDCs). Prior to passage of the Farm Bill, ECMs had
not know who the trades ultimately belong to. Having             no self-regulatory responsibilities and were not subject to
account ownership information is the first step in linking       any sort of regular oversight by the Commission. Under
TSS and ISS. Once account ownership information is avail-        the Farm Bill, ECM-SPDCs will be required to comply
able, The Commission’s market surveillance and market            with a set of CFTC Core Principles modeled after the CFTC
compliance staff will have the necessary information to          Core Principles for fully-regulated DCMs. Likewise, the
see a complete picture of trading from reportable positions      Commission will have many of the same oversight authori-
down to the individual trades and from individual trades         ties with respect to ECM-SPDCs that it currently has for
to the ultimate traders, respectively. Staff will be able to     DCMs, including the imposition of large-trader reporting
identify who ultimately executed the trades and look for         requirements and emergency authority to intervene in the
suspicious trading patterns across accounts.                     operations of ECM-SPDCs.

Information technology investments, to further develop
                                                                 Although the Commission is still in the process of proposing
a state-of-the-art, sophisticated trade surveillance system,
                                                                 and adopting regulatory provisions that will fully imple-
directly supports CFTC’s responsibility to ensure market
                                                                 ment the Farm Bill’s ECM-SPDC provisions, the additional
integrity in order to foster open, competitive, and finan-
                                                                 burdens on the Commission’s resources will be substantial.
cially sound markets.     More specifically, TSS will allow
                                                                 Commission staff will have to continuously monitor all of
staff to detect novel and complex abusive practices in
                                                                 the ECMs (currently there are 19) to determine whether any
today’s high-speed, high-volume global trading environ-
                                                                 of their contracts have become a source of significant price
ment. Moreover, TSS will fill a vacuum in inter-market
                                                                 discovery. The actual determination of significant price
surveillance which only the Commission can address, (e.g.,
                                                                 discovery will likely entail industry interviews and a trans-
NYMEX metal contracts and NYSE Liffe metal contracts.)
                                                                 parent process whereby the Commission will solicit the
                                                                 views of market users and the ECMs themselves. Finally,
Challenge #2, Exchange Traded Revolutions
                                                                 upon a Commission determination that an ECM contract
FY 2007 IG Assessment: “Exempt Commercial Markets—an             is an SPDC, that contract will, from a resource perspective,
area that in the past has not received significant agency        entail the same amount of staff work as a DCM contract.



                                                                                                                  CFTC 137
                                      A ppendi x




           FY 2008 Commissioners..................................................139

           Enforcement Litigation by Strategic Goal..........................142

           CFTC Information Technology Systems.............................157

           Glossary of Abbreviations and Acronyms...........................158




138 CFTC
                                                                     A ppendI C E S




                        FY 2008 Commissioners

The Commissioners

Walter L. Lukken, Acting Chairman


                        W       alter Lukken was appointed
                                Acting Chairman by the
                        Commission on June 27, 2007.
                                                                of futures markets. In this role, he frequently represents
                                                                the Commission before international organizations and
                                                                forums, including IOSCO and CESR. He spoke before the
                        In   September    2007,    President    U.S.-China Joint Economic Committee hosted by the U.S.
                        Bush nominated Mr. Lukken to be         Department of Treasury on the developing role of deriva-
                        Chairman of the Commission. He          tives markets in China.
                        was first appointed Commissioner
                        in 2002 and is now serving his          Prior to joining the CFTC, Acting Chairman Lukken served
                        second term due to expire in 2010.      for five years as counsel on the professional staff of the U.S.
                                                                Senate Agriculture Committee under Chairman Richard
Acting Chairman Lukken has testified several times before       Lugar (R-IN), specializing in futures and derivatives
Congress and represents the agency as part of the President’s   markets. In this capacity, he was prominently involved
Working Group on Financial Markets. He works frequently         in the development, drafting, and passage of the CFMA
with other domestic and foreign financial regulators.           (H.R. 5660).

Acting Chairman Lukken serves as chairman of the CFTC’s         A native of Richmond, Indiana, he received his B.S. degree
Global Markets Advisory Committee (GMAC). The GMAC              with honors from the Kelley School of Business at Indiana
was created by the Commission to provide an industry            University, and his Juris Doctor degree from Lewis and
forum in which it can discuss the many complex and              Clark Law School in Portland, Oregon. Acting Chairman
novel issues raised by the ever-increasing globalization        Lukken is a member of the Illinois Bar.




                                                                                                               CFTC 139
Michael V. Dunn, Commissioner                                    Jill E. Sommers, Commissioner



                        M       ichael V. Dunn was nomi-
                                nated to a second term as a
                        Commissioner of the Commodity
                                                                                           J ill E. Sommers was sworn in
                                                                                             as a CFTC Commissioner on
                                                                                           August 8, 2007 to a term that expires
                        Futures Trading Commission by                                      April 13, 2009. Commissioner
                        President Bush on June 16, 2006,                                   Sommers had worked in the
                        and confirmed by the Senate on                                     commodity futures and options
                        August 3, 2006. Mr. Dunn has served                                industry in a variety of capacities
                        as a Commissioner since December                                   throughout her career. In 2005, she
                        6, 2004. On January 9, 2006, he                                    was the Policy Director and Head
was chosen by his colleagues to chair the Commission’s           of Government Affairs for the International Swaps and
Agriculture Advisory Committee and on March 13, 2006,            Derivatives Association, where she worked on a number of
he was appointed chairman of the Commission’s Forex              OTC derivatives issues.
Task Force.
                                                                 Prior to that, Ms. Sommers worked for Chicago Mercantile
Prior to joining the CFTC, Mr. Dunn served as Director, Office   Exchange, including overseeing regulatory and legisla-
of Policy and Analysis at the Farm Credit Administration         tive affairs for the exchange. During her tenure with the
(FCA). Prior to this position, in January 2001 he served         exchange, she had the opportunity to work closely with
briefly as a member of the FCA Board.                            congressional staff drafting the CFMA.

Prior to joining FCA, Mr. Dunn was the Under Secretary of        Commissioner Sommers started her career in Washington,
Agriculture for Marketing and Regulatory Programs at the         DC in 1991 as an intern for Senator Robert J. Dole (R-KS),
USDA. He also served as the Acting Under Secretary for Rural     where she worked in various capacities until 1995. She
Economic Community Development and as Administrator              later worked as a legislative aide for two consulting firms
of the Farmers Home Administration (FmHA) at USDA.               specializing in agricultural issues, Clark & Muldoon, P.C.
                                                                 and Taggart and Associates.
Mr. Dunn has had a long involvement in agricultural credit
dating back to the late 1970s, when he was the Midwest           A native of Fort Scott, Kansas, Ms. Sommers holds a
Area Director for the FmHA. He has been a loan officer and       Bachelor of Arts degree from the University of Kansas. She
vice president of the Farm Credit Banks of Omaha and has         and her husband, Mike, currently reside in the Washington
served as a member of the professional staff of the Senate       D.C. area and have three children ages 6, 5, and 4.
Agricultural Committee, specializing in agricultural credit.
At the USDA, Mr. Dunn also served as a member of the
Commodity Credit Corporation and Rural Telephone Bank
Board. He is a past member of the Iowa Development
Commission and has served as the Chairman of the State
of Iowa’s City Development Board.

A native of Keokuk, Iowa, and a current resident of Harpers
Ferry, West Virginia, Mr. Dunn received his B.A. and M.A.
degrees from the University of New Mexico.




140 CFTC
                                                                     A ppendI C E S




Bart Chilton, Commissioner



                        B   art Chilton was sworn in
                            as a CFTC Commissioner on
                        August 8, 2007. He was formerly
                                                                key positions just below the top Presidential appointees.
                                                                As an SES member, Chilton served as a major link between
                                                                Secretary Glickman and the rest of the Federal work force
                        the Chief of Staff and Vice President   at USDA.
                        for Government Relations at the
                        National Farmers Union—one of           From 1985 to 1995, Mr. Chilton worked in the U.S. House
                        the oldest and largest trade associa-   of Representatives as Legislative Director for three different
                        tions.                                  Members of Congress on Capitol Hill. He also worked in
                                                                the U.S. House as the Executive Director of the bipartisan
                        In 2005, Mr. Chilton was a Schedule     Congressional Rural Caucus.
C political appointee of President Bush at the U.S. Farm
Credit Administration where he served as an Executive           Mr. Chilton previously served on the Board of Directors
Assistant to the Board. From 2001 to 2005, Mr. Chilton          of Bion Environmental Technologies, and the Association
was Senior Advisor to Senator Tom Daschle, the Democrat         of Family Farms—where he also served on the Executive
leader of the U.S. Senate where he worked on myriad issues      Committee and as Treasurer.
including, but not limited to, agriculture and transporta-
                                                                Mr. Chilton was born in Delaware and spent his youth in
tion policy.
                                                                Indiana where he attended Purdue University from 1979
From 1995 to 2001, Mr. Chilton was a Schedule C political       to 1982. He studied political science and communications
appointee of President Clinton where he rose to Deputy          and was a collegiate leader of several organizations. Mr.
Chief of Staff to the U.S. Secretary of Agriculture, Dan        Chilton and his wife, Sherry Daggett Chilton, reside on the
Glickman. In this role, Chilton became a member of the          Western Shore of the Chesapeake Bay.
Senior Executive Services (SES)—government executives
selected for their leadership qualifications to serve in the




                                                                                                              CFTC       141
                       Enforcement Litigation
                          by Strategic Goal

Enforcement Litigation by Goal One                             a civil monetary penalty ($400,000); and an order to
                                                               comply with certain undertakings, including not applying
Manipulation, Attempted Manipulation                           for registration with the CFTC. In re Kelly, CFTC Docket
& False Reporting                                              No. 08-01 (CFTC filed Oct. 25, 2007).

■■   In re Kelly                                               ■■   In re McMahan

On October 25, 2007, the Commission simultaneously             On March 18, 2008, the Commission filed an adminis-
filed and settled an administrative enforcement action         trative enforcement action against Rockland P. McMahan,
against Paul K. Kelly, a former gasoline trader for BP         a cattle order buyer in Austin, Texas, charging him with
Products North America Inc. (BPPNA), for attempting            reporting knowingly inaccurate and misleading informa-
to manipulate the price spread between the November            tion regarding a purchase of feeder cattle to the USDA,
and December 2002 unleaded gasoline futures contracts          failing to produce to the Commission adequate records
traded on the New York Mercantile Exchange (NYMEX) on          regarding the purported sale, and delivering to the
October 31, 2002, the last day of trading for the November     Commission false, misleading, and/or knowingly inaccu-
2002 unleaded gasoline futures contract. The order finds       rate responses to routine inquiries and in reports or docu-
that Kelly was primarily responsible for obtaining physical,   ments required to be filed with the Commission under
finished gasoline as well as components for gasoline for       the Act. “Feeder cattle” are young steers that are sent to
BPPNA’s northeast commercial needs. According to the           feedlots for finishing into “fed” or “fat” cattle that, in turn,
order, unleaded gasoline was in short supply in October        are sent to packers for slaughter. An “order buyer” of feeder
2002 and early November 2002, and Kelly was aware of the       cattle buys and sells feeder cattle and calves to and from
shortage. The order finds that despite the fact that BPPNA     ranchers and feedlots as a middleman. According to the
held a long position of 1,352 November 2002 unleaded           complaint, a USDA market price reporter in Amarillo,
gasoline contracts—52 more than its stated commercial          Texas, contacted McMahan every week, seeking informa-
need of 1,300 contracts—Kelly bought an additional 720         tion about cattle purchases and sales for inclusion in the
November 2002 unleaded gasoline contracts through the          USDA’s weekly cash market feeder cattle report. In late
course of the day on October 31, 2002. The Commission          October 2004, McMahan allegedly told the USDA price
found that Kelly engaged in this conduct with the intent       reporter that he had purchased 1,800 head of feeder steers
to affect the price spread between the November and            weighing an average 725 pounds. As alleged, the USDA
December 2002 NYMEX unleaded gasoline futures                  included McMahan’s reported purchase in its weekly cash
contracts. The Commission assessed sanctions including:        market feeder cattle report, which is used as a source of




142 CFTC
                                                                      A ppendI C E S




market information by producers, consumers, and distrib-         the complaint, the defendants employed a manipulative
utors in the sale and purchase of, among other things, live-     scheme commonly known as “banging” or “marking”’ the
stock, meat, and grain. The complaint further alleges that       close. “Banging the close” refers to the practice of acquiring
the CME incorporated McMahan’s reported purchase to the          a substantial position leading up to the closing period,
USDA in its calculation of the CME Feeder Cattle Index to        followed by offsetting the position before the end of the
which the CME’s feeder cattle futures contract cash settles.     close of trading for the purpose of attempting to manipu-
As stated in the complaint, McMahan did not purchase or          late prices. The complaint further charges Optiver and van
have a bona fide agreement to purchase any feeder steers         Kempen with concealing the manipulative scheme and
weighing between 700 and 849 pounds—the required                 making false statements in response to an inquiry from
weight under the CME specifications for inclusion in the         NYMEX.     The defendants’ manipulative trading scheme
CME feeder cattle futures contract— and, thus, his direct        involved three futures contracts listed for trading on
report to the USDA, and indirect report to the CME, was          NYMEX: the Light Sweet Crude Oil futures contract (Crude
false. While performing market surveillance, Commission          Oil, also referred to as West Texas Intermediate (WTI)), the
staff questioned McMahan about the cattle he had reported        New York Harbor Heating Oil futures contract (Heating
purchasing. The complaint states that McMahan was not            Oil), and the New York Harbor Reformulated Gasoline
forthright in responding to the special call for information.    Blendstock futures contract (New York Harbor Gasoline).
According to the complaint, McMahan did not advise the           The settlement price for the Crude Oil, New York Gasoline,
Commission that he had really purchased a mixed load of          and Heating Oil futures contracts is derived by calcu-
1,829 heifers and 930 steers weighing 900 pounds. The            lating the volume weighted average prices (VWAP) of
Commission received cooperation from the CME’s Market            futures trades conducted during the closing period for the
Regulation Department in connection with this matter.            contracts (from 2:28 p.m. to 2:30 p.m.). The defendants’
In re McMahan, CFTC Docket No. 08-07 (CFTC filed                 manipulative scheme involved the Trading at Settlement
Mar. 18, 2008).                                                  (TAS) contracts in Crude Oil, Heating Oil, and New York
                                                                 Harbor Gasoline contracts. TAS contracts are futures
■■   CFTC v. Optiver US, LLC                                     contracts, except that the parties determine at the initiation
                                                                 of the contract that the price of the TAS contract will be the
On July 24, 2008, the Commission filed a civil enforce-
                                                                 day’s settlement price plus or minus an agreed differential.
ment action against Optiver Holding BV, two of its subsid-
                                                                 A TAS contract which has been bought or sold can be offset
iaries (Optiver US, LLC (Optiver) and Optiver VOF)), and
                                                                 by trading a futures contract in the opposite direction.
three employees (Christopher Dowson (head trader of
                                                                 The manipulative scheme involved trading a significant
Optiver)), Randal Meijer (head of trading and supervisor
                                                                 volume of futures contracts in Crude Oil, Heating Oil, and
of Optiver and Optiver VOF) and Bastiaan van Kempen
                                                                 New York Harbor Gasoline in the opposite direction of the
(Chief Executive Officer of Optiver), charging them with
                                                                 associated TAS position, before and during the close of the
manipulation and attempted manipulation of NYMEX
                                                                 contracts. The defendants’ goal in trading the large volume
Light Sweet Crude Oil, New York Harbor Heating Oil,
                                                                 of futures was to improperly influence and affect the price
and New York Harbor Gasoline futures contracts during
                                                                 of futures contracts in Crude Oil, Heating Oil, and New
March 2007. The complaint charges all defendants with
                                                                 York Harbor Gasoline. As alleged in the complaint, the
19 separate instances of attempted manipulation involving
                                                                 scheme ultimately permitted defendants to profit regard-
the aforementioned energy futures contracts on 11 days
                                                                 less of the direction of the market move, provided that
in March 2007. The complaint further alleges that in at
                                                                 Optiver’s futures trading in the close and before the close
least five of those 19 attempts, defendants successfully
                                                                 was in the opposite direction of the TAS position it had
manipulated certain of these energy futures contracts,
                                                                 accumulated during the trading day.        The Commission
causing artificial prices. In three of those instances, defen-
                                                                 received cooperation from the U.K. Financial Services
dants forced futures prices lower, and in two instances,
                                                                 Authority and the NYMEX in connection with this matter.
defendants forced futures prices higher. The complaint
                                                                 CFTC v. Optiver US, LLC, No. 08 CIV 6560 (S.D.N.Y. filed
alleges that defendants profited by approximately $1
                                                                 July 24, 2008).
million from their manipulative scheme.        According to




                                                                                                               CFTC 143
Enforcement Litigation by Goal Two                                a futures trader and claiming to have a foolproof system.
                                                                  To the contrary, his past trading of commodity futures had
Commodity Pools, Hedge Funds, Commodity Pool                      not been successful. The Order finds that Roane, in his
Operators, and Commodity Trading Advisors                         handling of pool participants’ funds, lost the majority of
                                                                  the funds in trading and misappropriated approximately
■■   CFTC v. Baldwin
                                                                  $166,500, of which he used $137,900 to pay for personal
                                                                  expenses and the remaining $28,600 he used to repay
On November 11, 2007 the Commission filed an injunctive
                                                                  other participants. The order also finds that Roane violated
enforcement action against Elizabeth Baldwin charging her
                                                                  the Act and Commission regulations by acting as an unreg-
with commodity pool fraud. The complaint alleges that,
                                                                  istered CPO. The order also finds that Roane committed
from at least January 2004 to the present, Baldwin, doing
                                                                  further violations in his operation of the commodity pool,
business in her name and in the name of the Newportant
                                                                  including failing to operate the pool as a separate legal
Group, fraudulently solicited and obtained more than
                                                                  entity, accepting funds for the pool in other than the pool’s
$500,000 from members of the general public to invest in
                                                                  name, commingling pool funds with his own, and failing
a commodity pool. As alleged in the complaint, Baldwin
                                                                  to provide disclosure documents to pool participants. The
represented to at least one pool participant that their
                                                                  Commission assessed sanctions including: an order to pay
funds would be pooled for the purpose of trading futures
                                                                  restitution (approximately $609,000) and a civil monetary
contracts and that the pool had been making monthly
                                                                  penalty ($130,000); a permanent trading ban; and an order
profits from three to 10 percent. The complaint further
                                                                  to comply certain undertakings including never applying
alleges that these statements were false because the pool
                                                                  for registration with the Commission. The Commission
lost money trading in all but one month. According to the
                                                                  received cooperation from the Richmond Division of the
complaint, Baldwin fraudulently represented to customers
                                                                  Federal Bureau of Investigation (FBI) in connection with
that their funds would be held in segregated trading
                                                                  this matter. In re Roane, CFTC Docket No. 08-03 (CFTC
accounts at futures commission merchants. However, the
                                                                  filed Jan. 24, 2008).
complaint alleges, Baldwin maintained trading accounts
in her own name only and never maintained an account
                                                                  ■■   CFTC v. Lake Shore Asset Management Limited
at the futures commission merchants in the name of the
pool. The complaint also alleges that Baldwin provided            On February 19, 2008, the Commission filed a second
pool participants with false monthly account statements           amended complaint in its continuing litigation against
and illegally acted as a CPO without being registered with        Philip J. Baker and the companies he controlled, regis-
the Commission. On the same day the complaint was                 tered CPO and CTA Lake Shore Asset Management Limited
filed, the court entered a statutory restraining order freezing   (LSAM), and the Lake Shore Group of Companies Inc., Ltd.
assets and preserving books and records. The Commission           (Lake Shore Group)—collectively, the Lake Shore Common
received cooperation from the NFA, the Rhode Island State         Enterprise. The second amended complaint adds charges
Police, the Newport Police Department, and the Rhode              against several additional entities, alleging that Baker,
Island Department of Business Regulation in connec-               LSAM, the Lake Shore Group, Hanford Investments Ltd.
tion with this matter. CFTC v. Baldwin, No. 07 CV 10270           (Hanford), and at least 12 commodity pools controlled
(S.D.N.Y. filed Nov. 13, 2007).                                   by Baker, operated as a common enterprise under varia-
                                                                  tions of the name Lake Shore Alternative Financial Asset
■■   In re Roane
                                                                  Fund. The complaint alleges the defendants defrauded
                                                                  hundreds of commodity pool participants who collec-
On January 24, 2008, the Commission simultaneously filed
                                                                  tively invested at least $300 million to trade commodity
and settled an administrative enforcement action against
                                                                  futures contracts on U.S. futures markets. Specifically, the
Robert Lee Roane finding he committed commodity pool
                                                                  second amended complaint alleges that the Lake Shore
fraud. The Order finds that, since the fall of 2005 and
                                                                  Common Enterprise fraudulently solicited pool partici-
continuing through 2006, Roane solicited the public to
                                                                  pants by misrepresenting the profits and losses incurred
invest approximately $780,000 in a commodity pool by,
                                                                  by the commodity pools and distributing false account
among other things, falsely representing his past success as



144 CFTC
                                                                       A ppendI C E S




statements to participants showing they were earning             related charges, is alleged to have falsely claimed to be a
substantial profits when, in fact, the trading accounts in       successful trader, promised profitable returns, and failed to
the name of the pools collectively lost approximately            disclose the risks of trading commodity futures. Contrary
$37.5 million from February 2002 through June 2007.              to his claims of being a successful trader, Branch sustained
The second amended complaint requests that Hanford               monthly losses, except for one month, with overall net
and the commodity pools be required to repay all the             trading losses in the hundreds of thousands of dollars.
pool participant funds they received because they have no        The complaint alleges that Branch disappeared in February
legitimate interest in the funds. In addition, the second        2007 and pool participants have not been able to obtain
amended complaint charges that the defendants siphoned           their funds since that time. According to the complaint,
millions of dollars from the fraud for their benefit, alleging   Branch was imprisoned in late 2007 on a parole viola-
that the Lake Shore Common Enterprise misappropriated            tion stemming from the felony drug conviction. Branch
pool participants’ funds by improperly charging incentive        was released on April 2, 2008. On April 4, 2008, the court
fees, by fraudulently transferring more than $10 million in      entered a statutory restraining order freezing assets and
profits from accounts maintained at Sentinel Management          preserving books and records. The Commission received
Group, Inc. (Sentinel) to an account owned by Hanford,           cooperation from the Securities Division of the Maryland
and by transferring more than $1 million from pool               Attorney General’s Office in connection with this matter.
accounts at Sentinel to Anglo International Associates           CFTC v. Cocoon Trade, Inc., No. DKC 2008-789 (D. Md.
Ltd. (Anglo) for purported operating and administrative          filed March 28, 2008).
expenses. As alleged, Baker benefited from these trans-
fers because he controls Hanford and Anglo. The second           ■■   CFTC v. Sucarato
amended complaint requests that Anglo and Hanford be
                                                                 On April 22, 2008, the Commission filed a civil enforce-
required to repay all the profits and fees they received on
                                                                 ment action against Robert J. Sucarato d/b/a New York
the ground that they have no legitimate interest in them.
                                                                 Financial Company (NYFC) charging him with commodity
Like the Commission’s original complaint filed against
                                                                 pool fraud. The complaint alleges that Sucarato fraudu-
LSAM on June 26, 2007, the second amended complaint
                                                                 lently solicited at least $1.5 million from at least five
also charges the Lake Shore Common Enterprise with
                                                                 individuals to participate in two commodity pools or
violating the record keeping and inspection requirements
                                                                 “hedge funds” and concealed trading losses by issuing
of the Act and Commission regulations. The Commission
                                                                 false account statements to participants in the pools. The
received cooperation from the United Kingdom’s Financial
                                                                 hedge funds—the NYFC Diversified Strategic Fund and the
Services Authority in this matter. CFTC v. Lake Shore Asset
                                                                 NYFC Strategic Fun—operate under the management of
Management Limited, No. 07 C 3598 (N.D. Ill. amended
                                                                 NYFC and purportedly invest in a variety of instruments,
Feb. 19, 2007).
                                                                 including commodity futures and options. According to
■■   CFTC v. Cocoon Trade, Inc., et al.                          the complaint, beginning in at least September 2004 and
                                                                 continuing to the present, Sucarato, as president of NYFC,
On March 28, 2008, the Commission filed a civil enforce-         fraudulently solicited individuals to participate in his hedge
ment action against Kenneth L. Branch and his company,           funds by falsely claiming, among other things, that: 1) he
Cocoon Trade Inc. (Cocoon) charging them with fraud in           has managed the Funds since 1993 with approximately
connection with their operation of a commodity pool and          $7 billion in assets; 2) his funds routinely outperformed
management of individual trading accounts. The complaint         the market, having achieved a 10-year compounded return
alleges that since at least 2005 through February 2007           exceeding 1,800 percent; and 3) that NYFC is a registered
defendants fraudulently solicited at least $1.4 million from     investment adviser and portfolio manager.         In support
at least 39 individuals to invest in commodity futures. The      of his misrepresentations, Sucarato allegedly used a false
complaint further alleges the defendants misappropriated         audit report purportedly prepared by a major accounting
at least $941,897 of investor funds to pay purported profits     firm reflecting that NYFC had a net worth of over $800
to investors and to pay for personal expenses. Branch, who       million. Sucarato sought to create the false impression that
is a felon who served 12 years in federal prison on drug-        NYFC is a successful, well established capital management



                                                                                                               CFTC 145
firm with offices in New York and Chicago and staffed with       tion of a commodity pool, which traded exchange-traded
more than 20 experienced traders. However, as charged            commodity futures and option contracts.         Specifically
in the complaint, Sucarato’s New York or Chicago offices         the complaint alleges that since at least January 2005,
were mere virtual offices. Since at least April 2007, pool       Hudgins made numerous material misrepresentations
participants, whose performance reports reflected their          and omissions of fact to induce pool participants and
investments had increased in value, have demanded that           prospective participants to invest or remain invested in
Sucarato liquidate their accounts and return their funds.        the pool.     These included false representations about
The checks issued by Sucarato to cover these redemption          how long the commodity pool was in existence, the size
requests were returned for insufficient funds. On the same       of the commodity pool’s assets, and the historical profit-
day the complaint was filed, the court entered a statutory       ability of the pool. For example, the complaint alleges that
restraining order freezing assets and preserving books and       in a January 2007 presentation to participants, Hudgins
records. CFTC v. Suarato, No. 08-1932 (JBS) (D.N.J. filed        declared that the pool had an investment portfolio of
April 22, 2008).                                                 approximately $80 million, when, in fact, the net value
                                                                 of the accounts associated with the pool was negative
■■   CFTC v. Safevest LLC, et al.                                $100,199.38; i.e., the accounts were operating at a loss.
                                                                 As alleged, the accounts associated with the pool suffered
On May 1, 2008, the Commission filed a civil enforcement
                                                                 losses of more than $25 million from 2005 through 2007.
action against Safevest LLC and its owners and officers,
                                                                 On the same day the complaint was filed, the court entered
Jon G. Ervin and John V. Slye.       The complaint alleges
                                                                 a statutory restraining order freezing assets and preserving
that since at least May 2007, the defendants solicited
                                                                 books and records. The Commission received cooperation
more than 500 members of the public to transfer more
                                                                 from the U.S. Attorney’s Office for the Eastern District of
than $25.7 million in funds to participate in an illegal
                                                                 Texas in connection with this matter. CFTC v. Hudgins, No.
commodity pool. Contrary to their representations, defen-
                                                                 608CV187 (E.D. Tex. filed May 13, 2008).
dants did not deposit customer funds into an account for
trading commodity futures and misappropriated virtually          ■■   CFTC v. States, et al.
all customer funds. According to the allegations in the
complaint, defendants deposited client funds into bank           On July 14, 2008, the Commission filed a civil enforcement
accounts controlled by Safevest and misappropriated those        action against Robin States d/b/a Infinity Online Investors
funds. In addition to using client funds to pay their personal   Group (Infinity) and his common-law wife, Bernadette
expenses, the complaint alleges, defendants misappropri-         Bowden, charging them with fraudulent solicitation and
ated funds by using funds from some pool participants            misappropriation of commodity pool participant funds
totaling at least $18.5 million to pay off other pool partici-   and with false statements.     The complaint alleges that
pants in a manner characteristic of a Ponzi scheme. On           from approximately October 2004 through approximately
the same day the complaint was filed, the court entered a        September 2005, Robin States, living and operating out of
statutory restraining order freezing assets and preserving       Nova Scotia, Canada, fraudulently solicited, accepted, and
books and records and also ordered the appointment of a          pooled approximately $650,000 (U.S.) from at least 900
temporary receiver. The Commission received cooperation          members of the general public in the United States and
from the Los Angeles Office of the SEC, the U.S. Attorney’s      throughout the world to participate in a commodity pool
Office for the Central District of California, and the FBI in    that purported to trade in a commodity futures, options,
connection with this matter. CFTC v. Safevest LLC, et al.,       precious metals, and foreign currency-based investment
No. SACV08-00474 (C.D. Cal. filed May 1, 2008).                  program. In his solicitations, Robin States purportedly
                                                                 used aliases including “Gregory Hampton” to hide his
■■   CFTC v. Hudgins                                             identity, fraudulently guaranteed daily profits, and misrep-
                                                                 resented the management and operations of Infinity in
On May 13, 2008, the Commission filed a civil enforce-
                                                                 order to create an impression of legitimacy. States also
ment action charging George D. Hudgins (d/b/a George D.
                                                                 allegedly failed to adequately disclose the risks of trading
Hudgins L.L.C.) with fraud in connection with his opera-
                                                                 commodity futures and options. States utilized a Web site,



146 CFTC
                                                                        A ppendI C E S




www.infiinty-oig.com and telephone calls to solicit pool          utory restraining order that, in part, preserved books and
participants. That same Web site purportedly permitted            records. The Commission received cooperation from the
pool participants to track their investments which consis-        NFA in connection with this matter. CFTC v. Bame, et al.,
tently reflected the accrual of daily profits. In actuality, as   No. CV 08-05593 (C.D. Cal. filed Aug. 26, 2008)
alleged in the CFTC complaint, States never engaged in any
trading, but rather ran a “Ponzi scheme,” paying “profits”        ■■   CFTC, et al. v. Choi
to existing pool participants with money obtained from
                                                                  On August 27, 2008, the Commission, jointly with the
newly-solicited participants. At the same time, States and
                                                                  Commissioner of Corporations of the State of California
Bowden misappropriated more than $600,000 (CAN) of
                                                                  (State of California), filed a civil enforcement complaint
the pool’s assets to use for personal expenses, including
                                                                  charging Jinsup Choi (a/k/a Gene Choi) with fraudulent
gambling. The complaint also alleges that States operated
                                                                  solicitation, misappropriation of customer funds, and
as a CPO without being registered as such and failed to
                                                                  making false statements. The complaint alleges that from
provide pool participants with required disclosures, docu-
                                                                  at least June 2002 through April 2007, Choi, doing business
ments, and account statements in accordance with the
                                                                  as Futures Investment Group, fraudulently solicited
Commission’s regulations.        The Commission received
                                                                  approximately $19 million from approximately 83 indi-
cooperation from the Nova Scotia Securities Commission,
                                                                  viduals in and around Los Angeles, California, to purchase
the British Columbia Securities Commission, the Quebec
                                                                  futures contracts. Specifically, the complaint alleges that
Autorité des Marchés Financiers, the Ontario Securities
                                                                  Choi falsely represented that customer funds would be
Commission, the Alberta Securities Commission, the Royal
                                                                  pooled with the funds of other customers for the purpose
Canadian Mounted Police, and the Autorité des Marchés
                                                                  of futures trading and falsely represented that he could earn
Financiers of Francein connection with this matter.
                                                                  an eight to 10 percent profit per month trading futures and
CFTC v. States, et al., No. 1:08-cv-22027-DLJ (S.D. Fla. filed
                                                                  that customers would split evenly such profits with him.
July 14, 2008).
                                                                  In addition, the complaint alleges that Choi did not invest
■■   CFTC v. Bame, et al.                                         customer funds in futures at all and he failed to disclose
                                                                  that he converted customer funds to his own personal use.
On August 26, 2008, the Commission filed a civil enforce-         In fact, Choi did not generate any profits from engaging
ment action against Forward Investment Group, LLC                 in futures transactions, but rather conducted a large Ponzi
(Forward), and its sole manager, Robert D. Bame charging          scheme by paying alleged interest and profits to customers
them with committing commodity pool fraud.                 The    with monies paid to Choi by other customers, according to
complaint alleges that Forward and Bame provided to               the order. He then falsely told customers that the interest
one or more pool participants or prospective participants         and profits paid to them were generated from futures
a forged and false “daily” commodity trading statement            transactions. To lull customers into a false sense of security
purportedly issued by a FCM. The trading statement, as            that their funds were not at risk and to prevent customers
alleged, falsely indicated that the Forward account had a         from complaining to federal and/or state authorities, Choi
total net liquidating value of more than $77 million on           mailed his customers false account statements. The CFTC’s
December 14, 2007. However, the complaint alleges the             action relates to Choi’s guilty plea in United States v. Jinsup
actual net liquidating value of the account on that date          Choi, aka Gene Choi, Cr. No. 08-00108 (C.D. Calif.) on
was $4,486. The complaint also alleges that Bame will-            January 28, 2008 in which Choi pled guilty to a criminal
fully and fraudulently misrepresented to a staff member of        information charging him with violating Federal wire fraud
the NFA the number and identities of the participants in          laws. The Commission received cooperation from the U.S.
the Forward pool enterprise, and that the enterprise only         Attorney’s Office for the Central District of California, the
had $400,000 in cash contributions. As further alleged,           FBI, and the Commissioner of Corporations of the State of
Bame controls the commodity trading of the Forward                California in connection with this matter. CFTC, et al. v.
account, which sustained trading losses of approximately          Choi, No. SACV08-965 (C.D. Cal. filed Aug. 27, 2008)
$595,000 from February 2007 through May 2008. On the
same day the complaint was filed, the court entered a stat-



                                                                                                                 CFTC 147
■■   CFTC v. Phoenix Diversified Investment Corp., et al.       least October 2002 through January 2007, the defendants,
                                                                among other things, fraudulently solicited and accepted
On September 23, 2008, the Commission filed a civil             directly, and through others, more than $1 million from at
enforcement action against Michael A. Meisner (Meisner)         least 20 individuals to participate in purported commodity
and his company, Phoenix Diversified Investment Corp.           pools. Defendants’ fraudulent solicitation practices alleg-
(Phoenix), charging them with fraudulently soliciting           edly included misrepresenting Peninger’s prior trading
participants in the Phoenix commodity pool, which traded        successes, guaranteeing profitable returns, claiming that
exchange-traded commodity futures, and misappropri-             Peninger’s trading system eliminated the risks of trading
ating participant funds. Meisner allegedly solicited pool       commodity futures, falsely representing that individual
participants by claiming that Phoenix owned a valuable          funds would be pooled and traded, and failing to disclose
software program that dictated trading patterns in the          the risk of trading commodity futures. Contrary to defen-
futures markets and guaranteed high profits.        Meisner     dants’ representations, as alleged, Peninger and CSA failed
allegedly made several material misrepresentations and          to open a single account for the commodity pools and
failed to disclose material facts to induce prospective pool    instead misappropriated almost all of the approximately $1
participants and pool participants to invest or remain          million of pool participants’ funds. Defendants used the
invested in the pool. These included false representations      misappropriated funds to pay back pool participants and
about the past profitability of the pool and the actual value   to pay for personal expenses and other business ventures.
of the pool. For example, according to Phoenix, account         Defendants concealed their fraud by issuing false account
statements provided to at least 12 pool participants dated      statements reflecting profitable returns and providing oral
March 31, 2008, those 12 participants had a cumulative          assurances to participants that they were making money.
balance of over $4 million in the Pool. However, between        The Commission received cooperation from the SEC in
March 31, 2008 and April 22, 2008, Phoenix refused to           connection with this matter. CFTC v. CSA Trading Group
honor pool participants’ requests for withdrawal of funds       Inc., et al., No. 2:08-cv-03297-CWH (D.S.C. filed Sept. 29,
and several Phoenix checks were returned for insufficient       2008).
funds. Meantime, Meisner wrote letters to his pool partici-
pants advising them that Phoenix was out of money, the          ■■   CFTC v. McCall Business Group, LLC, et al.
trading accounts were depleted and he used pool partici-
pant funds to support his lifestyle. As alleged, the trading    On September 26, 2008, the Commission filed a civil
accounts associated with the pool suffered losses of more       enforcement action against Tyrone “Cauzae” McCall;
than $5.8 million between May 2003 and April 2008. On           McCall Business Group, LLC (MBG); and MBG Global,
the same day the complaint was filed, the court entered a       LLC (MBG Global). The complaint alleges that defendants
statutory restraining order freezing assets and preserving      fraudulently solicited at least two churches and 17 members
books and records. The Commission received cooperation          of the public to invest over $1.3 million in predominantly
from the State of Florida, Office of Financial Regulation,      commodity futures through a commodity pool. Contrary
and Bureau of Financial Investigations in connection with       to Cauzae McCall’s representation, only a fraction of the
this matter. CFTC v. Phoenix Diversified Investment Corp., et   commodity pool participants funds were traded; the
al., No. 08-cv-81044-KLR (S.D. Fla. filed Sept. 23, 2008).      majority of the funds were misappropriated. According to
                                                                the allegations in the complaint, as of at least September
■■   CFTC v. CSA Trading Group Inc.                             2003 through March 2008, Cauzae McCall misrepre-
                                                                sented to his clients he was capable of producing yearly
On September 29, 2008, the Commission filed a civil             profits between 18 percent and 60 percent trading futures
enforcement action against CSA Trading Group Inc. (CSA)         when in fact he sustained huge losses trading futures. The
and Michael Derrick Peninger, individually and doing            complaint also alleges that Cauzae McCall deposited funds
business as the Cooper River Group, charging them with          from commodity pool participants into bank accounts
fraudulent solicitation and misappropriation of commodity       controlled by the defendants or Cauzae McCall’s wife,
pool participant funds and with issuing false statements        Terrilynn McCall, and misappropriated those funds. The
to pool participants. The complaint alleges that, from at       funds were misappropriated to pay personal expenses and



148 CFTC
                                                                     A ppendI C E S




to pay off other commodity pool participants in a manner       ties. The complaint also charges that to further promote
characteristic of a “Ponzi” scheme. The complaint further      his scheme, Rolando allegedly provided false customer
alleges that only a nominal amount of funds invested           contact information and false trading advisor names to
through MBG and MBG Global were actually traded.               the U.S. clearing firm holding customers’ accounts and
Specifically, the complaint alleges that from October 2004     clearing trades to circumvent customer protection policies
through August of 2006 and October 2007 through April          and programs. Rolando provided false contact informa-
2008, $333,000 of pool participant money was deposited         tion on as many as 200 of the 420 customer accounts.
into trading accounts. Cauzae McCall withdrew approxi-         Finally, Rolando is charged with providing his customers
mately $202,000 for personal and business expenses             with written materials containing misrepresentations and
and sustained approximately $127,000 in losses trading         omissions of material fact regarding their investments and
futures. The Commission received cooperation from the          IA Trading’s role and business relationship with the U.S.
Richmond Division of the North Carolina Department of          clearing firm. On the same day the complaint was filed,
the Secretary of State, the Securities Division and the U.S.   the court entered a statutory restraining order freezing
Attorney’s Office for the Western District of North Carolina   assets and preserving books and records. CFTC v. Rolando,
in connection with this matter. CFTC v. McCall Business        No. 3:08-cv-00064-MRK (D. Conn. filed Jan. 15, 2008).
Group, LLC, et al., No. 3:08-cv-445 (W.D.N.C. filed Sept.
26, 2008).
                                                               Fraud By Futures Commission Merchants,
                                                               Introducing Brokers and Their Associated Persons
Commodity Trading Advisors, Managed Accounts,
and Trading Systems
                                                               ■■   CFTC v. Sentinel Management Group, Inc., et al.
■■   CFTC v. Rolando
                                                               On April 28, 2008, the Commission filed a civil enforce-
On January 15, 2008 the Commission filed a civil injunc-       ment action against registered FCM Sentinel Management
tive action against Diego Mariano Rolando of Buenos Aires,     Group, Inc. (Sentinel) and its president and chief execu-
Argentina (a/k/a Roclerman and ROC d/b/a IA Trading.           tive officer, Eric A. Bloom and former senior vice-president,
com, Inc. (IA Trading)), charging Rolando with defrauding      Charles K. Mosley, charging them with fraud and segrega-
hundreds of customers worldwide in a $43.8 million             tion violations involving their handling of $562 million in
investment scheme. The complaint alleges that Rolando:         commodity customer segregated funds. Sentinel, which is
1) fraudulently traded customer funds in commodity             also registered as an investment adviser with the SEC, unlike
futures and options contracts; 2) provided false account       a typical FCM, did not trade futures contracts on behalf
statements to customers; and 3) supplied false customer        of any customers. Rather, it purported to provide short-
contact information to a U.S. clearing firm to hide his        term money management services to various institutional,
fraudulent scheme from customers. In all, the complaint        corporate and individual customers. Among other things,
alleges that Rolando solicited approximately $43.8             it managed segregated customer funds for other FCMs,
million from more than 400 customers in South America,         allowing the customers of those FCMs to invest funds at
Europe, and the United States. Specifically, the complaint     a slightly better rate than they could obtain in other short-
alleges that Rolando utilized the Web sites IATrading.com      term programs, while claiming to observe the Commission’s
and Roclerman.com to solicit customers to open trading         legal requirements that FCM customer funds be segregated.
accounts.    He allegedly told customers that he would         The complaint alleges that Sentinel, Bloom, and Mosley
trade securities on their behalf, however he traded tens       committed fraud and misused commodity customer segre-
of millions of dollars in customer funds in commodity          gated funds from at least May 21, 2007 through August
futures and options contracts, without customer knowl-         17, 2007. According to the complaint, Sentinel improp-
edge or authorization to trade in the commodity markets.       erly commingled its commodity customers’ assets with its
Indeed, according to the complaint, it appears that some       own assets and the assets of others. It also improperly used
customers signed and completed account documents               commodity customers’ assets to secure a Sentinel loan with
which limited the defendant’s authority to trade securi-       the Bank of New York, removing as much as $444 million



                                                                                                             CFTC 149
of commodity customers’ securities from segregation to           Statutory Disqualification
collateralize its loan. As alleged, Sentinel was not autho-
                                                                 ■■   In re Worldwide Clearing, LLC
rized to encumber or remove customer securities from
segregation in this manner. Further, as alleged, Sentinel
                                                                 On January 2, 2008, the Commission filed a Notice of
falsely reported to the Commission that, among other
                                                                 Intent to Revoke Registration against Worldwide Clearing,
things, Sentinel had no amounts payable from September
                                                                 LLC (Worldwide), a registered FCM. The Commission seeks
2005 through July 2007. CFTC v. Sentinel Management
                                                                 to determine whether Worldwide is subject to disquali-
Group, Inc., et al., No. 08CV2410 (N.D. Ill. filed April 28,
                                                                 fication from registration based on the entry of a district
2008).
                                                                 court consent order of permanent injunction against it.
                                                                 CFTC v. Int’l Currency Exchange, et al., No. 1:05-c-8446-
Illegal, Off-Exchange Transactions
                                                                 RMB-MHD (S.D.N.Y. filed Sept. 14, 2007). The consent
■■   Saxon Financial Services, Inc.                              order finds that from November 2004 through at least June
                                                                 2005, International Currency Exchange, Inc. (IC Exchange)
On October 3, 2008, the Commission filed a civil injunc-         solicited members of the general public to open accounts
tive action charging Saxon Financial Services, Inc. (Saxon),     to trade forex options. In soliciting prospective customers,
which also does business as Saxon Consultants, Ltd., with        IC Exchange knowingly or recklessly made misrepresen-
fraud in connection with off-exchange unleaded gas and           tations regarding the risks and rewards of trading forex
foreign currency options. The CFTC’s complaint alleges           options. The consent order finds under its introducing
that, since at least July 2006 and continuing through the        agreement and in the course of conduct, IC Exchange
present, Saxon fraudulently solicited and continues to           acted as Worldwide’s agent in soliciting customers to
fraudulently solicit customers in Canada and Europe to           open accounts with Worldwide for the purpose of specu-
trade in off-exchange oil, gas, and forex options contracts      lating in forex options and that, as a result, Worldwide is
with Saxon and its affiliated businesses, either GIFG (Suisse)   liable for IC Exchange’s fraud. The consent order prohibits
SA or Merchant Capital Markets S.A., both of which are           Worldwide from seeking registration with the Commission
foreign firms purportedly based in Geneva, Switzerland.          in any capacity and imposes a $130,000 civil monetary
The complaint alleges that Saxon defrauded the customers         penalty and restitution of $670,000 on Worldwide. In re
through deceptive sales solicitations that misrepresented        Worldwide Clearing, LLC, CFTC Docket No. SD 08-01 (CFTC
the likelihood of profit and the risk of the trading. For        filed Jan. 2, 2008).
example, in July 2007, a Saxon broker told a Canadian regu-
latory investigator posing as a prospective customer that        ■■   In re Liberty Financial Trading Corp., Inc., et al.
if he bought unleaded gasoline options as recommended
by Saxon, he could expect to see a 300 percent return in         On January 23, 2008, the Commission issued a Notice
three months. Saxon is not registered with the CFTC in           to Revoke Registration against registered IBs Liberty
any capacity, nor is it registered “overseas” as at least one    Financial Trading Corp., Inc. (LFTC) and Liberty Real
broker allegedly represented in solicitations. On the same       Assets Investment Corporation (LRAIC). The Commission
day the complaint was filed, the court entered a statutory       seeks to determine whether LFTC and LRAIC are subject
restraining order freezing assets and preserving books and       to statutory disqualification of their registrations based on
records. In connection with this matter, the Commission          the entry of a district court consent order of permanent
received cooperation from: several Canadian regulators,          injunction against them. CFTC v. Liberty Financial Trading
specifically the New Brunswick Securities Commission,            Corp., Inc., et al., No. 04-61235-CIV-LENARD/TORRES
the Alberta Securities Commission, the Saskatchewan              (S.D. Fla. filed Apr. 24, 2007). The consent order found
Financial Services Commission, and the Ontario Securities        that LFTC (from at least early 2002) and LRAIC (from
Commission; the U.S. Marshals Service; and the SEC’s             about June 2004), operating as a common enterprise,
Atlanta office. CFTC v. Saxon Financial Services, Inc., No. 1    fraudulently solicited at least 930 retail customers to trade
07-CV-2436 (N.D. Ga. filed Oct. 3, 2007).                        commodity options contracts, resulting in losses of at least
                                                                 $10 million. The order also found that LFTC and LRAIC




150      CFTC
                                                                         A ppendI C E S




misrepresented the profit potential and risk involved in           ■■   In re Beacon Rock Capital, LLC
trading commodity options contracts; failed to disclose
their performance record; and misrepresented the actual            On September 18, 2008, the Commission filed a Notice
performance of customers’ accounts. To settle the action,          of Intent to Revoke Registration against hedge fund
LFTC and LRAIC were ordered to pay a total of $6.5 million         Beacon Rock Capital, LLC (Beacon Rock) and simulta-
in civil monetary penalties and restitution totaling $9.783        neously issued an Opinion and Order revoking Beacon
million and were prohibited from registering with the              Rock’s CPO and CTA registrations. The CFTC’s Opinion
Commission in any capacity. In re Liberty Financial Trading        and Order finds that Beacon Rock’s conviction in the first
Corp., Inc., et al., CFTC Docket No. SD 08-02 (CFTC filed          criminal case in U.S. history against a hedge fund for
Jan. 23, 2008).                                                    engaging in fraudulent market timing justifies revoking its
                                                                   registrations. On April 3, 2007, the U.S. Attorney for the
■■   In re Glase, et al.                                           Eastern District of Pennsylvania charged Beacon Rock with
                                                                   engaging in a scheme to defraud mutual funds and their
On June 30, 2008, the Commission issued a Notice to                shareholders in connection with the short-term trading of
Revoke Registrations against John C. Glase, Sutherland             mutual funds. United States v. Beacon Rock Capital, LLC,
Group, Inc. (Sutherland), formerly known as Carnegie               et al., No. 2:07-cr-00142-ER (E.D. Pa.). According to the
Trading Group, Ltd., Inc. (Carnegie), and Skibo Asset              criminal charges, through this scheme, Beacon Rock
Management, LLC (Skibo).          Sutherland is a registered       allegedly made in excess of 26,000 market timing trades,
IB and CTA, Skibo is a registered CTA and Glase is regis-          resulting in approximately $2.4 million in net trading
tered as an AP and listed as a principal of both Sutherland        profits. As stated in the CFTC’s order, Beacon Rock pled
and Skibo.      The registration revocation action against         guilty to the criminal charges on April 4, 2008, and on May
Glase and Sutherland is based on previous fraud judg-              8, 2008, the U.S. District Court for the Eastern District of
ments and monetary penalties entered against Glase and             Pennsylvania sentenced the firm to three years of proba-
Carnegie. The action against Skibo, which is not subject           tion and a $600,400 fine. In re Beacon Rock Capital, LLC,
to the aforementioned judgments, is based on statutory             CFTC Docket No. SD 08-04 (CFTC filed Sept. 18, 2008).
grounds that provide that Skibo’s registration may be
revoked if its principal’s registration (i.e., Glase’s) has been   ■■   In re Philadelphia Alternative Asset Management
or could be revoked. The Commission’s Notice alleges               Company, LLC
that Glase, Sutherland and Skibo are subject to statutory
                                                                   On September 24, 2008, the Commission issued a Notice
disqualification of their registrations based on a judgment
                                                                   to Revoke Registrations against PAAM, a registered CPO.
entered by the U.S. District Court for the Northern District
                                                                   The action is based, in part, on fraud judgments entered
of Ohio on June 27, 2006 after a bench trial. CFTC v.
                                                                   against PAAM.      The Commission Notice alleges that
Carnegie Trading Group Ltd., et al., No. 1:04 CV 1403,
                                                                   PAAM is subject to statutory disqualification of its regis-
Memorandum Opinion (N.D. Ohio filed June 27, 2006).
                                                                   tration as a CPO based on a default judgment entered
In the judgment order, Glase was held liable as a control-
                                                                   against PAAM in the U.S. District Court for the Eastern
ling person of Carnegie for the fraudulent acts of certain
                                                                   District of Pennsylvania on August 13, 2008. CFTC v.
Carnegie employees in connection with the solicitation
                                                                   Philadelphia Alternative Asset Management Company, LLC,
of and trading recommendations to commodity options
                                                                   No. 2:05-CV-02973-MMB. The District Court’s August
customers. He also was found directly liable for failing to
                                                                   13th order found that the defendant, from at least the fall
supervise diligently Carnegie’s employees. The June 27,
                                                                   of 2002, through at least May 2005, fraudulently solic-
2006 judgment, among other things, ordered that Glase
                                                                   ited more than $280 million from individuals to partici-
and Carnegie disgorge earnings in the amount of $32,850,
                                                                   pate in a commodity pool, trading commodity futures
pay certain listed customers $229,971.31 as restitution, and
                                                                   and options. The order also found that PAAM issued
pay a civil monetary penalty of $98,550. In re Glase, et al.,
                                                                   fraudulent trading account statements; misrepresented
CFTC Docket No. SD 08-03 (CFTC filed July 30, 2008).
                                                                   its trading record to prospective participants; and misap-




                                                                                                                CFTC      151
propriated pool funds. PAAM was ordered to pay restitu-       ■■   CFTC v. Forex Liquidity LLC
tion of approximately $276 million in addition to a civil
monetary penalty of $8.8 million. The August 13th order       On December 13, 2007, the Commission filed an injunc-
also imposed trading and registration bans on PAAM. In        tive enforcement action against Forex Liquidity LLC (Forex
re Philadelphia Alternative Asset Management Company, LLC.,   Liquidity), a registered FCM, charging it with being under-
CFTC Docket No. SD 08-05 (CFTC filed Sept. 24, 2008).         capitalized and also with failing to maintain required
                                                              books and records.      According to the complaint, as of
                                                              November 30, 2007, and perhaps earlier, Forex Liquidity’s
Enforcement Litigation by Goal Three
                                                              net capitalization was below the minimum required by the
                                                              Commission. As a Forex Dealer Member of the NFA offering
Financial, Supervision, Compliance
                                                              to be the counterparty to retail customer foreign currency
and Recordkeeping
                                                              transactions, Forex Liquidity is required to have a minimum
■■   CFTC v. One World Capital Group, LLC, et al.             adjusted net capital of $1 million; instead, according to
                                                              the complaint, as of December 7, 2007, it had an adjusted
On December 13, 2007, the Commission filed an injunc-         net capital deficit of approximately $11.6 million. Forex
tive enforcement action against One World Capital Group,      Liquidity is also alleged to have been unable to produce
LLC (One World), a registered FCM, and its president, John    required financial documentation regarding its assets and
Edward Walsh, charging them with inability to demon-          liabilities. For example, according to the CFTC’s complaint,
strate compliance with capitalization requirements and        Forex Liquidity represented in reports and discussions with
with failure to maintain required books and records. The      NFA that its assets at one time included a $35 million
complaint alleges that, since at least November 28, 2007,     ABN-AMRO bond located in Switzerland. The complaint
One World has been unable to demonstrate that it has          further alleges that Forex Liquidity represented to the NFA
maintained at least $1 million in adjusted net capital, the   that the ABN-AMRO bond (or its proceeds) were trans-
minimum requirement needed for FCMs that are Foreign          ferred to a U.S. registered broker dealer, Commonwealth
Currency Dealer members of the NFA. As of December 10,        Financial Network (CFN); however, CFN does not have an
2007, the complaint charges, One World failed to demon-       account for Forex Liquidity and the account number that
strate that it had any net assets. While One World appeared   the defendant provided to NFA was fictitious. Accordingly,
to possess $554,000 of funds held in customer accounts,       the CFTC also charged Forex Liquidity with failure to
since at least November 2, 2007, the NFA has been             maintain books and records of its business transactions,
receiving complaints from customers alleging that they        specifically, current ledgers that accurately reflect its assets
are unable to get their funds back from One World. The        and liabilities. On December 14, 2007, the court entered
complaint alleges that the amount claimed outstanding by      a statutory restraining order freezing assets and preserving
customers exceeds $4 million. The complaint also alleges      books and records. The Commission received coopera-
that Walsh conceded an inability to identify all of One       tion from the NFA in connection with this matter. CFTC
World’s customer liabilities. Furthermore, the complaint      v. Forex Liquidity LLC, No. SACV07-1437 CJC (RNBx) (C.D.
charges One World and Walsh with failing to maintain          Cal. filed Dec. 13, 2007).
books and records as required by a Commission regula-
tion. On the same day the complaint was filed, the court      ■■   In re MF Global Inc.
entered a statutory restraining order freezing assets and
preserving books and records. The Commission received         On December 26, 2007, the Commission simultaneously

cooperation from the NFA in connection with this matter.      filed and settled an administrative enforcement action

CFTC v. One World Capital Group, LLC, et al., No. 07C 7002    against MF Global Inc. (MFG), a registered FCM, and

(N.D. Ill. Dec. 13, 2007).                                    Thomas Gilmartin, a registered AP of MFG, finding that
                                                              they committed supervision and recordkeeping viola-
                                                              tions arising out of their mishandling of hedge fund
                                                              accounts that were carried by MFG and managed by Paul
                                                              Eustace and the PAAM. On the same day, the receiver ad



152 CFTC
                                                                      A ppendI C E S




litem for PAAM announced that he had settled his action         alleges that Eustace and PAAM committed fraud by, among
against MFG and Gilmartin arising from the same miscon-         other things, providing false account statements to inves-
duct. The Commission’s sanctions include civil monetary         tors to hide trading losses in several funds they managed.
penalties against MFG and Gilmartin in the amounts of           The CFTC’s action froze all the assets under the control of
$2 million and $250,000, respectively, and an order that        PAAM and Eustace and preserved more than $70 million
Gilmartin never apply for registration or claim exemption       for return to investors. The CFTC’s action also resulted
from registration with the CFTC in any capacity. The court      in the removal of Eustace as the trader for PAAM and the
also approved a settlement for the receiver ad litem, which     appointment of a receiver for PAAM and the receiver ad
requires MFG and Gilmartin to pay a total of $75 million,       litem who prosecuted the estate’s claims against, among
consisting of $69 million for the benefit of the receivership   others, MFG and Gilmartin. CFTC v. Eustace, et al., No.
estate, which the receiver manages on behalf of investors       05CV2973 (E.D. Pa. filed June 22, 2005).
in the funds traded by Eustace and PAAM, and $6 million
to reimburse the estate for the litigation costs of pursuing    ■■   In re Paradigm Capital Management LLC
the claims against MFG and Gilmartin. The Commission’s
                                                                On February 14, 2008, the Commission simultaneously
order finds that Eustace opened trading accounts at MFG
                                                                filed and settled an administrative enforcement action
and another firm for an off-shore hedge fund Eustace and
                                                                against Paradigm Capital Management LLC (PCM), a
PAAM managed known as the Philadelphia Alternative
                                                                registered CPO, finding that PCM failed to distribute
Asset Fund, Ltd. (Offshore Fund), which was registered
                                                                and file its commodity pools’ annual reports in a timely
in the Cayman Islands and had more than $250 million
                                                                manner. Specifically, the Order finds that PCM, as a CPO
in assets.   According to the Order, Eustace and PAAM
                                                                for commodity pools that operate as funds-of-funds, failed
concealed mounting, massive trading losses in an Offshore
                                                                to distribute to pool participants and file with the NFA
Fund trading account at MFG by restricting internet access
                                                                one or more of its commodity pools’ annual reports in a
to that account. Eustace and PAAM also backdated execu-
                                                                timely manner, in violation of a Commission regulation.
tion dates of certain trades executed through MFG in order
                                                                The Commission assessed sanctions including: a cease and
to bolster the apparent profitability of the Offshore Fund.
                                                                desist order; and civil monetary penalty ($75,000). In re
The Offshore Fund ultimately sustained net losses of
                                                                Paradigm Capital Management LLC, CFTC Docket No. 08-04
approximately $133 million in its accounts at MFG. The
                                                                (CFTC filed Feb. 14, 2008).
Order finds that MFG and Gilmartin failed to diligently
supervise the handling of the Offshore Fund accounts            ■■   In re LJH Global Investments, LLC
and that they failed to respond to indications of question-
able activity by Eustace. The order further finds that MFG      On February 14, 2008, the Commission simultaneously
failed to follow its procedures for opening accounts and        filed and settled an administrative enforcement action
transfers of trades and failed to provide sufficient guidance   against LJH Global Investments, LLC (LJH), a registered
concerning potential conflicts of interest. According to the    CPO for commodity pools that operate as funds-of-funds,
Order, MFG also failed to have sufficient internal controls,    finding that LJH failed to file annual reports on time for
policies and procedures concerning external communica-          commodity pools it operates. The Order finds that LJH
tions with third parties and changes to Internet access of      claimed exemptions from annual reporting requirements
account information. MFG also failed to institute suffi-        for these pools because it claimed that it offered or sold
cient internal controls, policies, and procedures to detect     participations in the pools solely to qualified eligible
and deter possible wrongdoing. Lastly, the Order finds that     persons.   However, according to the Order, a CPO for
MFG and Gilmartin failed to comply with order taking and        exempt pools must file the pools’ annual reports with
recordkeeping requirements. In re MF Global Inc., CFTC          the NFA and distribute the reports to pool participants
Docket No. 08-02 (CFTC filed Dec. 26, 2007).                    either 90 days or, if the CPO receives an extension, 150
                                                                days after the end of the pools’ fiscal year. Specifically, the
Both settlements arise out of the Commission’s June 22,         Order finds that, between FY 2002 and FY 2005 (ending
2005 lawsuit charging Eustace and PAAM with hedge               December 31), LJH failed to file and distribute the required
fund fraud. The Commission’s complaint in that matter           annual reports for certain pools in a timely manner. The


                                                                                                               CFTC 153
Order further finds that, in two of its pools’ annual reports,   and maintenance of customer accounts traded by third
LJH failed to provide appropriate footnote disclosure            parties. In re Alaron, CFTC Docket No. 08-10 (CFTC filed
and failed to present and compute those reports in accor-        April 18, 2008).
dance with GAAP. The Commission assessed sanctions
including: a cease and desist order and a civil monetary         ■■   In re Rosenthal Collins Group, L.L.C.
penalty ($125,000).     In re LJH Global Investments, LLC,
                                                                 On August 26, 2008, the Commission simultaneously filed
CFTC Docket No. 08-05 (CFTC filed Feb. 14, 2008).
                                                                 and settled charges of compliance and supervisory viola-
■■   In re BNP Paribas Commodity Futures, Ltd.                   tions against registered FCM Rosenthal Collins Group,
                                                                 LLC (RCG). The order finds that, from April 2003 through
On March 11, 2008, the Commission simultaneously filed           December 2005, RCG failed to enforce its compliance
and settled an administrative enforcement action against         procedures and failed to diligently supervise employees in
BNP Paribas Commodity Futures, Ltd. (CFL), a commodity           their handling of disbursements from a customer account.
futures broker regulated by the U.K. Financial Services          RCG’s compliance rules and procedures prohibited the
Authority that carried accounts that traded on U.S. futures      issuance of third-party checks, unless they were approved
markets. The Order finds that CFL failed to provide to the       by RCG’s Compliance Department or were for payment of
Commission timely and accurate account information for a         a customer’s bona fide business expenses. RCG’s compliance
reportable large trader account, as required by Commission       rules and procedures also prohibited cash disbursements
regulations. To comply with the Commission’s reporting           to customers unless the customers were approved by RCG’s
requirements, CFL filed a report identifying an account          Compliance Department to receive such cash payments.
that had become a reportable large trader account, known         The order finds that RCG disbursed cash to an employee
as a “Special Account.” However, the large trader report         of a NYMEX floor brokerage operation, even though that
filed by CFL misidentified the account controller and            employee was not an account holder authorized to receive
used an account reporting number that was not unique,            cash from the account. RCG also disbursed numerous
which violated the Commission’s reporting rules.          The    checks from the same customer account to third parties
Commission assessed sanctions including: a cease and             without the appropriate approval.            The Commission
desist order; and civil monetary penalty ($25,000).        In    assessed sanctions including: a $310,000 civil monetary
re BNP Paribas Commodity Futures, Ltd., CFTC Docket No.          penalty; and an order that RCG comply with its under-
08-06 (CFTC filed Mar. 11, 2008).                                taking to implement enhanced supervisory procedures to
                                                                 monitor and enforce compliance rules and assure adher-
■■   In re Alaron                                                ence to rules governing disbursements from customer
                                                                 accounts. In re Rosethal Collins Group, L.L.C., CFTC Docket
On April 18, 2008, the Commission simultaneously filed
                                                                 No. 08-12(CFTC filed Aug. 26, 2008)
and settled an administrative enforcement action against
registered FCM Alaron Trading Corporation (Alaron)               ■■   In re Mansur Capital Corporation, In re Persistent
finding that it failed to diligently supervise its employees     Edge Management LLC, and In re Stillwater Capital
handling of certain accounts.        Specifically, the order     Partners, Inc., et al.
found that from at least July 2004 until February 2006,
Alaron failed to supervise diligently its employees in their     On September 24, 2008, the Commission simultane-
handling of certain accounts managed by an unregis-              ously filed and settled administrative enforcement actions
tered CTA, as well as certain other accounts in which they       against: 1) Mansur Capital Corporation (Mansur); 2)
allowed unauthorized trading of customer accounts by an          Persistent Edge Management LLC (Persistent Edge);
IB. The Commission assessed sanctions including orders           and 3) Stillwater Capital Partners, Inc. (Stillwater I) and
to pay a civil monetary penalty ($180,000) and restitution       Stillwater Capital Partners, LLC (Stillwater II) (collectively
($119,295). Alaron was also ordered to comply with its           Respondents), finding that these registered CPOs failed to
undertaking to strengthen its supervisory system for over-       file and distribute one or more of their commodity pools’
seeing its APs’, employees’, and agents’ sales solicitations     annual reports in a timely manner. Specifically, the Orders




154 CFTC
                                                                       A ppendI C E S




find that Respondents, each of whom are or were CPOs for         petitive price. According to the CFTC’s complaint, Sarvey
pools that operated as funds-of-funds, failed to distribute      profited more than $357,000 by immediately selling those
to pool participants and file with the NFA one or more of        contracts at a profit in the prevailing market. The CFTC’s
its commodity pools’ annual reports in a timely manner, in       complaint alleges that Sklena accommodated and aided
violation of a Commission regulation. The Commission             and abetted Sarvey in defrauding the CBOT customers and
assessed sanctions, including; cease and desist orders;          indirectly bucketing the customers’ orders. According to
and civil monetary penalties (Mansur $75,000; Persistent         the CFTC’s complaint, Sklena, who entered the day with
Edge $120,000; and Stillwater I and Stillwater II, jointly       less than $25,000 in his trading account, reaped a windfall
and severally, $135,000).      In re Mansur Capital Corp.,       profit of approximately $1.65 million at the expense of
CFTC Docket No. 08-15 (CFTC filed Sept. 24, 2008); In re         Sarvey’s customers. The complaint also names Lawrence-
Persistent Edge Mgmt. LLC, CFTC Docket No. 08-16 (CFTC           Bonfitto Trading Company, which had been registered
filed Sept. 24, 2008); and In re Stillwater Capital Partners,    as a FCM from 1994 to 2004, and its principal, Joseph
Inc., et al., CFTC Docket No. 08-17 (CFTC filed Sept. 24,        Bonfitto, as relief defendants. According to the complaint,
2008).                                                           Bonfitto and his company, which cleared Sklena’s trades,
                                                                 took approximately $650,000 of Sklena’s profits from the
                                                                 alleged fraudulent trading, but are not entitled to these
Trade Practice
                                                                 funds. The Commission received cooperation from the
■■   CFTC v. Sarvey, et al.                                      CME Group, Inc. in connection with this matter. CFTC v.
                                                                 Sarvey, et al., No. 08C0192 (N.D. Ill. filed Jan. 9, 2008).
On January 9, 2008, the Commission filed a civil enforce-
ment fraud action charging two CBOT floor brokers, who           ■■   In re Karvellas and In re Maloney
trade in the Five-Year Treasury Note futures pit, Edward C.
Sarvey and David G. Sklena. The complaint alleges that           On April 8, 2008, the Commission simultaneously filed

Sarvey took advantage of volatile trading conditions in the      and settled separate administrative enforcement actions

Five-Year Treasury Note futures pit on April 2, 2004, imme-      against two NYMEX brokers, Steven Karvellas and Thomas

diately following the Federal government’s release of the        Maloney, findings that they fraudulently allocated trades

March 2004 employment statistics at 7:30 a.m. CST, which         to their personal accounts and deprived their customers

showed a greater number of new jobs than U.S. financial          of the opportunity to profit. The orders require Karvellas

markets had expected. Within 90 seconds after the statis-        and Maloney, in total, to pay $437,500 in penalties and

tics became public, prices of Five-Year Treasury Note futures    permanently prohibit them from trading in the commodi-

contracts dropped by more than one point—equivalent to           ties markets. In an extensive cooperative law enforce-

$1,656.25 per futures contract—in fast trading. According        ment effort, the Commission and NYCDA conducted an

to the complaint, Sarvey held customer orders to sell a          investigation of abusive trading practices on the NYMEX.

total of 2,474 Five-Year Treasury Note futures contracts.        Karvellas, a registered floor broker and former board

The complaint states that the price of Five-Year Treasury        member of the NYMEX, and Maloney, also a registered

Note futures contracts recovered before Sarvey sold any          floor broker, each were found to have separately diverted

contracts on behalf of his customers. According to the           profitable transactions to their own accounts that had

complaint, after the market recovered, Sarvey noncompeti-        been filled for customers. Karvellas was also found to have

tively sold 2,274 contracts for his customers to Sklena at a     ordered the destruction of an order ticket to conceal his

low price that had traded a few minutes earlier, rather than     involvement in the scheme.       The Commission assessed

offering to sell those contracts at the then-higher prevailing   sanctions including: cease and desist orders; permanent

market prices. As a result, the complaint alleges, Sarvey        trading bans, orders to comply with their undertakings

cheated and defrauded his customers by as much as $2.1           to never apply for registration with the Commission; and

million. The complaint also alleges that Sarvey “indirectly      orders to pay civil monetary penalties (Karvellas $375,000,

bucketed” his customers’ orders by simultaneously buying         and Maloney $62,500). The Commission received coop-

485 contracts for himself from Sklena at a low noncom-           eration from the NYMEX in connection with this matter.




                                                                                                                CFTC 155
In re Karvellas, CFTC Docket No. 08-08 (CFTC filed April      tunity to profit. In a related criminal matter, Tremblay
8, 2008) and In re Maloney, CFTC Docket No. 08-09 (CFTC       pled guilty on June 12, 2008, to the misdemeanor state
filed April 8, 2008).                                         crime of attempting to violate the anti-fraud provision of
                                                              New York’s General Business Law for the same underlying
■■   In re Perez                                              conduct and received a sentence of a conditional discharge.
                                                              The Commission assessed sanctions including: a cease and
On August 26, 2008, the Commission simultaneously filed
                                                              desist order, permanent trading ban, and a $50,000 civil
and settled an administrative enforcement action against
                                                              monetary penalty.      The Commission received coopera-
Alvin Perez, a former NYMEX Compliance Department
                                                              tion from the NYCDA and NYMEX in connection with this
Clerk, for disclosing non-public information to NYMEX
                                                              matter. In re Tremblay, CFTC Docket No. 08-13 (CFTC filed
floor brokers. The Order, which recognizes Perez’s coop-
                                                              Aug. 28, 2008).
eration in this matter, found that he disclosed to NYMEX
floor brokers material non-public information regarding       ■■   In re Sempra Energy Trading LLC
investigations and proposed regulatory actions, which he
obtained in his capacity as a NYMEX employee. In a related    On September 4, 2008, the Commission simultaneously
matter, Perez pled guilty to the state crime of Commercial    filed and settled an administrative enforcement action
Bribe Receiving in the Second Degree for the same under-      against Sempra Energy Trading LLC (Sempra) for trading
lying conduct, for which the NYCDA has recommended            card violations involving natural gas futures trades on
a sentence of probation. The Commission assessed sanc-        the NYMEX.        The order finds that on certain trading
tions, including ordering Perez to comply with this under-    days between August and November 2004, Sempra’s
takings to never: apply for registration, seek exemption      floor brokers violated a CFTC regulation by failing to
from registration or act in a capacity requiring registra-    properly and accurately prepare trading cards in order to
tion with the Commission; and act as a principal, agent,      process trades that were made after the contract was no
or any other officer or employee of any exchange, regis-      longer trading. According to the order, the trades were
tered futures association, self-regulatory organization, or   “EFS” trades, which involve an exchange of futures for,
person registered, exempted from registration, or required    or in connection with, a swap. Collectively, these trades
to be registered with the Commission. The Commission          involved positions of several hundred lots. However, on
received cooperation from the NYCDA and NYMEX in              each of the trading dates at issue, the trades took place
connection with this matter. In re Perez, CFTC Docket No.     outside of the permitted time period. The trading cards,
08-11 (CFTC filed Aug. 26, 2008).                             therefore, did not accurately reflect the actual trade dates
                                                              or listed trades entered out of exact chronological order in
■■   In re Tremblay                                           violation of CFTC regulations applicable to trading cards.
                                                              The order concluded that because the Sempra floor brokers
On August 28, 2008, the Commission simultaneously
                                                              undertook their actions within the scope of their employ-
filed and settled an administrative enforcement action
                                                              ment; Sempra is liable for its floor brokers’ violations. The
against Ryan Tremblay, who was formerly registered
                                                              Commission assessed sanctions including: a cease and
with the Commission as a floor broker. The order finds
                                                              desist order and $175,000 civil monetary penalty. The
that Tremblay, acting as a clerk in the natural gas ring
                                                              Commission received cooperation from the NYMEX in
of NYMEX, fraudulently allocated futures trades to his
                                                              connection with this matter. In re Sempra Energy Trading
personal account and deprived customers of the oppor-
                                                              LLC, CFTC Docket No. 08-14 (CFTC filed Sept. 4, 2008).




156 CFTC
                                                                     A ppendI C E S




CFTC Information Technology Systems
Integrated Surveillance System (ISS)                            Exchange Database System (EDBS)
User: Market Oversight                                          User: Market Oversight, Enforcement, Chief Economist

Functionality: ISS collects futures and options position data   Functionality: EDBS is used for trade practice surveillance,
for large traders from reporting firms and open interest,       trading analyses, statistical studies, and research projects
volume, price, and clearing member data from exchanges          for the Commission.
that is used to monitor future and options trading in order
to detect any market anomalies that may occur.                  Trade Surveillance System (TSS)
                                                                User: Market Oversight, Enforcement, Chief Economist
Regulatory Statement Review (RSR)
                                                                Functionality: TSS is a new system that will enable CFTC
User: Clearing and Intermediary Oversight
                                                                staff to conduct surveillance in the rapidly expanding area
Functionality: RSR Express is a tool used by the Commission     of electronic trading, both intra and inter-exchange and
staff to review monthly and annual 1-FR and Focus reports       across side-by-side platforms. TSS will retain the impor-
from firms and to monitor the financial status of firms and     tant legacy data and functionality of EDBS, which it will
the changes to that status over time.                           gradually replace.


Stressing Positions at Risk (SPARK)                             Project eLaw

User: Clearing and Intermediary Oversight and Market            User: Enforcement, General Counsel, and Proceedings

Oversight                                                       Functionality: The eLaw Program is an automated law office

Functionality: SPARK is a tool used by Commission staff to      that seamlessly integrates technology and work processes

perform “what if” analysis to determine the effect of market    to support Commission managers and staff in their investi-

movement on maintenance margin.                                 gative, trial, and appellate work.



Filings and Actions (FILAC)
User: Clearing and Intermediary Oversight and Market
Oversight

Functionality: FILAC manages data associated with the
approval organizations, products, rules, foreign filings, and
actions.



                                                                                                             CFTC 157
Glossary of Abbreviations and Acronyms
       A Guide to the Language of the Futures Industry
       http://www.cftc.gov/educationcenter/glossary/

       Because the acronyms of many words and phrases used throughout the futures industry are not
       readily available in standard references, the Commission’s Office of External Affairs compiled a
       glossary to assist members of the public.

       This glossary is not inclusive, nor are general definitions intended to state or suggest the views of
       the Commission concerning the legal significance, or meaning of any word or term. Moreover,
       no definition is intended to state or suggest the Commission’s views concerning any trading
       strategy or economic theory.




       Glossary of Acronyms

       AE	�����������������������������������������������������������The Actuarials Exchange, LLC
       ALJ	���������������������������������������������������������Administrative Law Judge
       AP	�����������������������������������������������������������Associated Person
       API	����������������������������������������������������������Application Program Interface
       BM&F	�����������������������������������������������������Bovespa S.A._Bolsa de Valores, Mercadorias e Futuros
       BP	�����������������������������������������������������������British Petroleum
       BPPNA	���������������������������������������������������BP Products North America, Inc.
       BTEX	�������������������������������������������������������BrokerTec Futures Exchange
       CBOT	������������������������������������������������������Chicago Board of Trade
       CCORP	��������������������������������������������������The Clearing Corporation
       CCX	��������������������������������������������������������Chicago Climate Exchange, Inc.
       CDXCHANGE	�����������������������������������������Commodities Derivative Exchange, Inc.
       CCFE	������������������������������������������������������Chicago Climate Futures Exchange
       CEA	��������������������������������������������������������Commodity Exchange Act
       CESR	������������������������������������������������������Council of European Securities Regulators
       CFE	���������������������������������������������������������CBOE Futures Exchange
       CFL	���������������������������������������������������������BNP Paribas Commodity Futures, Ltd.
       CFMA	�����������������������������������������������������Commodity Futures Modernization Act of 2000


158 CFTC
                                                                A ppendI C E S




CFTC	������������������������������������������������������Commodity Futures Trading Commission
CFO	��������������������������������������������������������Chief Financial Officer (CFTC)
CIO	���������������������������������������������������������Chief Information Officer (CFTC)
CME	�������������������������������������������������������Chicago Mercantile Exchange
CME AM	�������������������������������������������������CME Alternative Marketplace, Inc.
COMEX	��������������������������������������������������Commodity Exchange Division
COOP	�����������������������������������������������������Continuity of Operations Plan
COSRA	���������������������������������������������������Council of Securities Regulators of the Americas
COT	��������������������������������������������������������Commitments of Traders
CPO	��������������������������������������������������������Commodity Pool Operator
CSCE	������������������������������������������������������Coffee Sugar and Cocoa Exchange
CSRC	�����������������������������������������������������China Securities Regulatory Commission
CSRS	������������������������������������������������������Civil Service Retirement System
CTA	���������������������������������������������������������Commodity Trading Advisor
DCIO	������������������������������������������������������Division of Clearing and Intermediary Oversight (CFTC)
DCM	�������������������������������������������������������Designated Contract Market
DCO	�������������������������������������������������������Derivatives Clearing Organization
DHS	��������������������������������������������������������U.S. Department of Homeland Security
DMO	������������������������������������������������������Division of Market Oversight (CFTC)
DOE	��������������������������������������������������������Division of Enforcement (CFTC)
DOJ	��������������������������������������������������������U.S. Department of Justice
DOL	��������������������������������������������������������U.S. Department of Labor
DOT	��������������������������������������������������������U.S. Department of Transportation
DTEF	�������������������������������������������������������Derivatives Transaction Execution Facility
EC	�����������������������������������������������������������European Commission
ECM	�������������������������������������������������������Exempt Commercial Markets
ECM-SPDCs	������������������������������������������Exempt Commercial Market-Significant Price
                                                              Discovery Contracts
EDBS	������������������������������������������������������Exchange Database System
EPFE	�������������������������������������������������������Exchange Place Futures, LLC	
ETC	���������������������������������������������������������Energy Transfer Company
ETF	����������������������������������������������������������Exchange Traded Fund
ETP	���������������������������������������������������������Energy Transfer Partners, L.P.
ETS	���������������������������������������������������������Electronic Trading System
EU	�����������������������������������������������������������European Union
FARM BILL	���������������������������������������������Food, Conservation, and Energy Act of 2008
FASAB	����������������������������������������������������Federal Accounting Standards Advisory Board
FB	�����������������������������������������������������������Floor Broker
FBI	����������������������������������������������������������Federal Bureau of Investigation
FBOT	������������������������������������������������������Foreign Boards of Trade
FCA	��������������������������������������������������������Farm Credit Administration
FCM	��������������������������������������������������������Futures Commission Merchant
FCOM	�����������������������������������������������������FutureCom
FECA	������������������������������������������������������Federal Employees Compensation Act
FEMA	������������������������������������������������������Federal Emergency Management Agency
FERS	�������������������������������������������������������Federal Employees’ Retirement System
FIA	����������������������������������������������������������Futures Industry Association
FILAC	�����������������������������������������������������Filings and Actions
FISMA	�����������������������������������������������������Federal Information Security Management Act
FIXML	�����������������������������������������������������Financial Information Exchange Markup Language
FLETT	������������������������������������������������������Flett Exchange

                                                                                                            CFTC 159
           FMFIA	�����������������������������������������������������Federal Managers’ Financial Integrity Act
           FMHA	�����������������������������������������������������Farmers Home Administration
           FOREX	����������������������������������������������������Foreign Currency
           FSA	���������������������������������������������������������Financial Services Authority
           FT	������������������������������������������������������������Floor Trader
           FTC	���������������������������������������������������������Federal Trade Commission
           FTE	����������������������������������������������������������Full-time Equivalent
           FXTRADE	������������������������������������������������FxTrade Financial, LLC
           FY	�����������������������������������������������������������Fiscal Year
           GAAP	������������������������������������������������������U.S. Generally Accepted Accounting Principles
           GAO	�������������������������������������������������������Government Accountability Office
           GCC	�������������������������������������������������������Guaranty Clearing Corporation
           GFI	����������������������������������������������������������GFI Group Inc.
           GFI FOREXMATCH	���������������������������������GFI Group Inc., ForexMatch
           GMAC	����������������������������������������������������Global Markets Advisory Committee
           GPRA	������������������������������������������������������Government Performance and Results Act
           HSC	��������������������������������������������������������Houston Ship Channel
           HSE	��������������������������������������������������������HoustonStreet Exchange, Inc.
           IB	������������������������������������������������������������Introducing Broker
           ICAP	�������������������������������������������������������ICAP Commodity Derivatives Trading System
           ICAP ETC	�����������������������������������������������ICAP Electronic Trading Community
           ICAP HYDE	��������������������������������������������ICAP Hyde Limited Trading System
           ICC	���������������������������������������������������������Intermarket Clearing Corporation
           ICE 	���������������������������������������������������������InterContinental Exchange
           ICE US	����������������������������������������������������ICE Futures U.S., Inc.
           IMAREX	��������������������������������������������������International Maritime Exchange
           INTRADE	������������������������������������������������INTRADE Board of Trade
           IOSCO	����������������������������������������������������International Organization of Securities Commissions
           ISS	����������������������������������������������������������Integrated Surveillance System
           IT	�������������������������������������������������������������Information Technology
           JO	�����������������������������������������������������������Judgment Officer
           KCBT	������������������������������������������������������Kansas City Board of Trade
           LCH	��������������������������������������������������������London Clearing House
           LLC	���������������������������������������������������������Limited Liability Corporation
           LONGITUDE	�������������������������������������������Longitude, LLC
           MACE	�����������������������������������������������������MidAmerica Commodity Exchange
           MATCHBOXX ATS	����������������������������������Matchboxx Alternate Trading System
           MDA	�������������������������������������������������������Management’s Discussion and Analysis
           ME	����������������������������������������������������������Merchants Exchange
           MFG	�������������������������������������������������������MF Global Inc.
           MGE	�������������������������������������������������������Minneapolis Grain Exchange
           NAFTA	����������������������������������������������������North American Free Trade Agreement
           NFA	���������������������������������������������������������National Futures Association
           NGX	��������������������������������������������������������Natural Gas Exchange
           NIST	��������������������������������������������������������National Institute of Standards and Technology
           NODEL	���������������������������������������������������Nodel Exchange, LLC
           NQLX	������������������������������������������������������NQLX LLC
           NTP	���������������������������������������������������������NetThruPut
           NYCC 	����������������������������������������������������New York Clearing Corporation
           NYCDA	���������������������������������������������������New York County District Attorney’s Office
           NYCE 	�����������������������������������������������������New York Cotton Exchange
           NYFE	�������������������������������������������������������New York Futures Exchange

160 CFTC
                                                                       A ppendI C E S




NYMEX	���������������������������������������������������New York Mercantile Exchange
OCC	�������������������������������������������������������The Options Clearing Corporation
OCX	��������������������������������������������������������OneChicago Futures Exchange
OFM	�������������������������������������������������������Office of Financial Management (CFTC)
OGC	�������������������������������������������������������Office of the General Counsel (CFTC)
OHR	��������������������������������������������������������Office of Human Resources (CFTC)
OIA	���������������������������������������������������������Office of International Affairs (CFTC)
OIG	���������������������������������������������������������Office of Inspector General (CFTC)
OITS	�������������������������������������������������������Office of Information and Technology Services (CFTC)
OMB 	������������������������������������������������������Office of Management and Budget
ONXCC	��������������������������������������������������OnExchange Clearing Corporation
OPEX	������������������������������������������������������Optionable, Inc.
OPM	�������������������������������������������������������Office of Personnel Management
OPTIONS ATS	����������������������������������������Options ATS, LLC
OPTIVER	�������������������������������������������������Optiver US, LLC
ORB	��������������������������������������������������������Other Retirement Programs
OTC	��������������������������������������������������������Over-the-Counter
PAAM	�����������������������������������������������������Philadelphia Alternative Asset Management Company, LLC
PBOT	������������������������������������������������������Philadelphia Board of Trade
RCG	��������������������������������������������������������Rosenthal Collins Group
RER	���������������������������������������������������������Rule Enforcement Review
RFED	������������������������������������������������������Retail Foreign Exchange Dealer
RGGI	�������������������������������������������������������Regional Greenhouse Gas Initiative
RSR	��������������������������������������������������������Regulatory Statement Review
SEBI	��������������������������������������������������������Securities and Exchange Board of India
SEC	��������������������������������������������������������U.S. Securities and Exchange Commission
SESC	������������������������������������������������������Securities and Surveillance Commission of Japan
SFP	���������������������������������������������������������Security Futures Product
SL	�����������������������������������������������������������Spectron Live.com Limited
SPARK	����������������������������������������������������Stressing Positions at Risk
SRO	��������������������������������������������������������Self-Regulatory Organization
SFFAS	�����������������������������������������������������Statement of Federal Financial Accounting Statement
STORM	���������������������������������������������������Storm Exchange, Inc.
SWAPSTREAM	���������������������������������������Swapstream Operating Services, Ltd.
TCX	���������������������������������������������������������Trade Capture Exchange
TFS	���������������������������������������������������������Traditional Financial Services Pulp and Paper Division
TFSE	�������������������������������������������������������TFS Energy, LLC
TREASURY	���������������������������������������������U.S. Department of the Treasury
TS	�����������������������������������������������������������TradeSpark, LP
TSS	���������������������������������������������������������Trade Surveillance System
UK	����������������������������������������������������������United Kingdom
US	�����������������������������������������������������������United States
USAID	����������������������������������������������������U.S. Agency for International Development
USDA	�����������������������������������������������������U.S. Department of Agriculture
USFE	�������������������������������������������������������US Futures Exchange
USSGL	���������������������������������������������������United States Standard General Ledger
VWAP	�����������������������������������������������������Volume Weighted Average Prices
WBOT	�����������������������������������������������������Weather Board of Trade
WTI	���������������������������������������������������������West Texas Intermediate
WXL	��������������������������������������������������������WeatherXchange Limited
XBOT	������������������������������������������������������Exempt Boards of Trade
YELLOW JACKET	����������������������������������Yellow Jacket Software, Inc.

                                                                                                             CFTC     161
Photo Credits and Acknowledgements

Page Photo Credits
    Clark Day Photography; Pages II, 113, 114, 138 (photo 1), 139 (bottom photo), 140, and 141
    Artistic Photography/Josie Kerns; Pages 30, 34, and 74
    Andrew Campbell Photography; Pages 37, 46, and 135
    Central Photography/Jim Ivy; Page 45
    Fulton Studio/Ken Jones; Page 56
    AP Photos; Pages 2, 3, and 5
    SEC Photo; Page 4
    CFTC Photos; Pages 9, 18, 91, 139 (top photo), 142, 157, and 158




Acknowledgements
This Performance and Accountibility Report was produced with the energies and talents of Commission staff. To these
individuals, the Office of Financial Management would like to offer our sincerest thanks and acknowledgement.

We would also like to acknowledge the Office of Inspector General and KPMG, LLP for the professional manner in
which they conducted the audit of the Fiscal Year 2008 Financial Statements.

We offer our special thanks to The DesignPond, in particular Sheri Beauregard and Michael James, for their outstanding
contribution to the design of this report.




162 CFTC
Additional copies of the Commodity Futures Trading Commission FY 2008 Performance and Accountability Report
are available by contacting the Office of Financial Management:


Office of Financial Management
Commodity Futures Trading Commission
Three Lafayette Centre
1155 21st Street, N.W.
Washington, DC 20581


Telephone: Emory Bevill, 202.418.5187 or Lisa Malone, 202.418.5184
Fax:	202.418.5414
E-mail: ebevill@cftc.gov or lmalone@cftc.gov
Web: http://www.cftc.gov/aboutthecftc/cftcreports.html


The CFTC’s Strategic Plan is available on the Web at:
http://www.cftc.gov/aboutthecftc/cftcreports.html
    COMMODITY FUTURES TRADING COMMISSION
T hree L afayette C entre • 1155 21 st S treet , N.W. • W ashington , DC 20581

                       202.418.5000 • www. cftc . gov
